<html>
<title> - FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR 2012</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
   FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR 2012 
=======================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS
                              FIRST SESSION
                                ________

       SUBCOMMITTEE ON FINANCIAL SERVICES AND GENERAL GOVERNMENT 
                             APPROPRIATIONS

                     JO ANN EMERSON, Missouri, Chair
 RODNEY ALEXANDER, Louisiana          JOSE E. SERRANO, New York
 JO BONNER, Alabama                   BARBARA LEE, California
 MARIO DIAZ-BALART, Florida           PETER J. VISCLOSKY, Indiana
 TOM GRAVES, Georgia                  ED PASTOR, Arizona
 KEVIN YODER, Kansas
 STEVE WOMACK, Arkansas       

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
        John Martens, Winnie Chang, Kelly Shea, and Ariana Sarar,
                           Subcommittee Staff
                                ________

                                 PART 6
                                                                   Page
 Judiciary........................................................    1
 District of Columbia Courts and Court Services and Offender 
Supervision Agency................................................   79
 U.S. Supreme Court...............................................  141
 Office of Management and Budget, Government Accountability 
Office, and General Services Administration--Information 
Technology Oversight..............................................  177
 Executive Office of the President................................  321

                                   S

                                ________

         Printed for the use of the Committee on Appropriations
















                                 Part 6

   FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR 2012
                                                                      

















   FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR 2012
=======================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS
                              FIRST SESSION

                                ________

       SUBCOMMITTEE ON FINANCIAL SERVICES AND GENERAL GOVERNMENT 
                             APPROPRIATIONS
                     JO ANN EMERSON, Missouri, Chair
 RODNEY ALEXANDER, Louisiana            JOSE E. SERRANO, New York
 JO BONNER, Alabama                     BARBARA LEE, California
 MARIO DIAZ-BALART, Florida             PETER J. VISCLOSKY, Indiana
 TOM GRAVES, Georgia                    ED PASTOR, Arizona
 KEVIN YODER, Kansas
 STEVE WOMACK, Arkansas             

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
        John Martens, Winnie Chang, Kelly Shea, and Ariana Sarar,
                           Subcommittee Staff

                                ________

                                 PART 6
                                                                   Page
 Judiciary........................................................    1
 District of Columbia Courts and Court Services and Offender 
Supervision Agency................................................   79
 U.S. Supreme Court...............................................  141
 Office of Management and Budget, Government Accountability 
Office, and General Services Administration--Information 
Technology Oversight..............................................  177
 Executive Office of the President................................  321

                                   S

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 66-756                     WASHINGTON : 2011





















                         COMMITTEE ON APPROPRIATIONS

                    HAROLD ROGERS, Kentucky, Chairman

 C. W. BILL YOUNG, Florida \1\        NORMAN D. DICKS, Washington
 JERRY LEWIS, California \1\          MARCY KAPTUR, Ohio
 FRANK R. WOLF, Virginia              PETER J. VISCLOSKY, Indiana
 JACK KINGSTON, Georgia               NITA M. LOWEY, New York
 RODNEY P. FRELINGHUYSEN, New Jersey  JOSE E. SERRANO, New York
 TOM LATHAM, Iowa                     ROSA L. DeLAURO, Connecticut
 ROBERT B. ADERHOLT, Alabama          JAMES P. MORAN, Virginia
 JO ANN EMERSON, Missouri             JOHN W. OLVER, Massachusetts
 KAY GRANGER, Texas                   ED PASTOR, Arizona
 MICHAEL K. SIMPSON, Idaho            DAVID E. PRICE, North Carolina
 JOHN ABNEY CULBERSON, Texas          MAURICE D. HINCHEY, New York
 ANDER CRENSHAW, Florida              LUCILLE ROYBAL-ALLARD, California
 DENNY REHBERG, Montana               SAM FARR, California
 JOHN R. CARTER, Texas                JESSE L. JACKSON, Jr., Illinois
 RODNEY ALEXANDER, Louisiana          CHAKA FATTAH, Pennsylvania
 KEN CALVERT, California              STEVEN R. ROTHMAN, New Jersey
 JO BONNER, Alabama                   SANFORD D. BISHOP, Jr., Georgia
 STEVEN C. LaTOURETTE, Ohio           BARBARA LEE, California
 TOM COLE, Oklahoma                   ADAM B. SCHIFF, California
 JEFF FLAKE, Arizona                  MICHAEL M. HONDA, California
 MARIO DIAZ-BALART, Florida           BETTY McCOLLUM, Minnesota
 CHARLES W. DENT, Pennsylvania
 STEVE AUSTRIA, Ohio
 CYNTHIA M. LUMMIS, Wyoming
 TOM GRAVES, Georgia
 KEVIN YODER, Kansas
 STEVE WOMACK, Arkansas
 ALAN NUNNELEE, Mississippi
   
 ----------
 <SUP>1}}</SUP>Chairman Emeritus   

               William B. Inglee, Clerk and Staff Director

                                  (ii)


   FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR 2012

                              ----------                              

                                          Wednesday, April 6, 2011.

                             THE JUDICIARY

                               WITNESSES

HON. JULIA S. GIBBONS, JUDGE, SIXTH CIRCUIT COURT OF APPEALS, AND 
    CHAIR, COMMITTEE ON THE BUDGET OF THE JUDICIAL CONFERENCE OF THE 
    UNITED STATES
JAMES C. DUFF, DIRECTOR, ADMINISTRATIVE OFFICE OF THE U.S. COURTS

                 Chairwoman Emerson's Opening Statement

    Mrs. Emerson. Welcome. We are going to go ahead and start. 
I really want to thank you for being here today, Judge Gibbons 
and Mr. Duff. Unfortunately, we are having votes called right 
now. We are going to have three votes. Joe and I will do our 
opening statements, and we will do our best to see if we can 
get through at least one of yours. So thank you very much.
    First, let me make a comment on behalf of the subcommittee 
expressing our deep condolences over the death of Judge Roll. 
What a terrible, terrible tragedy. He served Arizona and our 
Nation so well. I know that the loss of him is truly felt 
throughout the judicial system in a very, very sad, sad 
situation. But it is something that we take very seriously, and 
certainly we hold his family and friends in our thoughts and 
prayers, along with all of the rest of the victims of the 
senseless shooting in Tucson.
    An independent judiciary that holds the trust and respect 
of all of our citizens and can resolve criminal, civil and 
bankruptcy disputes in a fair and expeditious manner is 
fundamental to our Nation. In addition, the judiciary's 
probation and pretrial service officers perform a critical 
public safety mission by supervising more than 200,000 
offenders and defendants living in our communities. We will do 
our best to ensure that you have the resources needed to 
accomplish your important mission, especially since your 
criminal, bankruptcy, and probation workload is growing.
    However, something I have to say to everybody who comes 
before our Subcommittee when we have a $14 trillion debt: It 
does compel us to reduce spending. And I am committed to 
reducing spending substantially throughout this budget process.
    The judiciary's budget request proposes a discretionary 
spending increase of $424 million, or 6.6 percent above the 
fiscal year 2010 level. This is more than the Subcommittee and 
the Nation can afford right now. So I want to work with you, I 
want to work very closely with our Ranking Member, and my good 
friend Joe Serrano, to identify savings in the Federal 
judiciary's costs while still providing the courts with the 
resources needed to fulfill your constitutional duties. I 
appreciate the important work that you do and look forward to 
your testimony.
    Now let me recognize my very dear friend Joe Serrano.

               Ranking Member Serrano's Opening Statement

    Mr. Serrano. Thank you so much, Madam Chair.
    I would like to associate myself with the chair's remarks 
regarding Judge Roll. By all accounts, he was an outstanding 
jurist, caring husband and a father; an active member of the 
Tucson community. His tragic loss is felt by all of us. We mean 
that sincerely. Please pass along again our heartfelt 
condolences to his family and to his colleagues.
    I would also like to join with the chair in once again 
welcoming Judge Julia Gibbons and Director James Duff to the 
subcommittee. They have been here several times before, and 
they are going to keep doing it until they get it right. That 
is an old joke. I can't help myself. They have always done a 
wonderful job of addressing our many questions.
    Yesterday we heard testimony from the General Services 
Administration, which, for the second year in a row, has not 
included any funding for new courthouse construction. It will 
be interesting to contrast the answers we heard from the GSA on 
this issue with any further information that you provide today. 
I suspect that there may be differences in the priorities of 
the Federal judiciary and that of the GSA, but I am sure we 
will get a chance to hear more about that.
    Additionally, and I mention this at every hearing, I 
believe, that there are important questions we in Congress need 
to ask in order to understand the impact of a government 
shutdown on the Third Branch. For instance, if there is a 
government shutdown, what limitations are placed on judges; 
will access to the court system be restricted? It would be 
extremely troubling if a government shutdown doesn't just limit 
access to the executive branch, but to our Federal judicial 
system as well. The Federal judiciary plays a crucial role in 
our democratic system, and we must make certain that you have 
all the resources you need to ensure our Federal justice 
systems continues to set an example for the rest of the world.
    I look forward to your testimony and welcome you again. And 
I apologize for the fact that we are interrupted. That is part 
of our job, to vote.
    Mrs. Emerson. Judge Gibbons, I would now like to recognize 
you. If you would be so kind as to keep your remarks to 5 
minutes or less, we will have more time for questions.

                    Judge Gibbons' Opening Statement

    Judge Gibbons. Chairwoman Emerson, Representative Serrano, 
and Members of the Committee, I am Judge Julia Gibbons of the 
Sixth Circuit Court of Appeals and Chair of the Judicial 
Conference Committee on the Budget. As you know, with me today 
is Jim Duff, Director of the Administrative Office of the 
Courts.

                           JUDGE JOHN M. ROLL

    I thank you both for your remarks about Judge Roll. He was 
a fine judge and a fine man. And I use those terms in the way 
my mother would have used them, to mean the highest of 
compliments. There is a special poignancy to the way in which 
he died, as we are here today together, because he died trying 
to nurture the relationship between our two branches of 
government in speaking to his friend Congresswoman Giffords.

              IMPACT OF FUNDING CUTS ON THE FEDERAL COURTS

    I begin today by expressing our deep concern about the 
impacts on the judiciary of various proposals offered by some 
Members of Congress to shrink the size of the Federal 
Government through deep spending cuts. We have seen proposals 
to reduce spending to fiscal year 2008 levels and to fiscal 
year 2006 levels even. Such a budget-cutting approach may prove 
effective in some areas of Federal spending, but it would have 
a devastating impact on the Federal courts and the 
administration of justice.
    Unlike many executive branch agencies, we do not have 
programs that we can cut in response to a budget shortfall. So 
deep funding cuts would not reduce the scope or volume of our 
work unless Congress also makes dramatic reductions in law 
enforcement programs. We do not have the discretion to decline 
or defer cases based on resource constraints. In fact, the 
opposite is true; we are required to adjudicate the cases that 
are brought to us regardless of staffing and resource levels in 
the courts.
    Through new laws enacted and resources provided for law 
enforcement programs, Congress determines the jurisdiction and, 
to a large extent, the workload of the Federal courts. The 
President's policies carried out through the Department of 
Justice also play a role in our workload. Hundreds of new 
Federal laws have been enacted over the last 30 years that have 
significantly increased our jurisdiction. In turn, we have seen 
rapid workload growth, and our workload currently is at or near 
record levels in most filing categories.

             CHIEF JUSTICE ROBERTS' FY 2011 FUNDING APPEAL

    With this increase in workload in mind, I respectfully ask 
you to consider the March 18 letter from Chief Justice Roberts 
in which he asked Congress to provide a total fiscal year 2011 
appropriation to the judiciary of $6.92 billion, which is 
slightly above the 2010 appropriation. This is the amount 
needed to maintain our current staffing levels and provides no 
additional court staff to meet growing workload needs.

                         FY 2012 BUDGET REQUEST

    Turning to the details of our fiscal year 2012 request, we 
seek $7.3 billion in appropriations, which we have described as 
a 4.3 percent overall increase above the fiscal year 2011 
assumed appropriations level. In the absence of a final 
appropriation, we assume the funding level included in the 
full-year CR passed by House in December 2010. The 6.6 percent 
figure used by Chairwoman Emerson is the 2012 increase over the 
2010 enacted level. We listened carefully, and we heard what 
you said about being unable to afford 6.6 percent, and I think 
you know that while we have a history of requesting what we 
think we need for the courts to fund the growing workload, we 
also have a history of working with the Subcommittee in 
recognizing what is possible.
    Of the request before you, $258 million, or 86 percent, of 
the increase is for standard pay and nonpay inflationary 
adjustments and for adjustments to base reflecting increases in 
our space, information technology, defender services, and court 
security programs. The remaining $41 million is for new court 
support staff positions largely in probation and pretrial 
services offices and in bankruptcy clerks' offices, program 
improvements in our IT program, four new magistrate judges, and 
several smaller program enhancements. We are subject to the 
2011 and 2012 freeze on Federal pay, so our request does not 
include a cost-of-living adjustment for judges or staff.

                            COST CONTAINMENT

    Our request reflects our ongoing efforts to contain costs. 
We are in our seventh year of an intensive effort to reduce 
costs throughout the judiciary, and our cost-containment 
program is producing results. We have achieved the most 
significant cost savings to date in our space and facilities 
program, and GSA has been very cooperative with us in this 
area. My written statement includes more detail about cost 
containment, which continues to be a top priority for us.

                   STATEMENTS FOR THE HEARING RECORD

    I ask that my entire statement be placed in the record, 
along with those referenced in my written statement. I will, of 
course, be happy to answer questions.
    Mrs. Emerson. Without objection, Judge Gibbons.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
                             HEARING RECESS

    Mrs. Emerson. I think if you all don't mind, let us take a 
brief recess while we go vote. We have got the three votes. 
Then we will begin again with Director Duff's statement and 
then questions.
    So thank you all. I apologize.
    Judge Gibbons. We are at your disposal. We are appreciative 
of the opportunity to be here.
    [Recess.]
    Mrs. Emerson. Director Duff, we would love to hear from 
you. And if you could keep your remarks to under 5 minutes, or 
close to, then we can spend more time on the questions. Thank 
you.

                   Director Duff's Opening Statement

    Mr. Duff. Thank you. Good afternoon, Chairwoman Emerson, 
Representative Serrano, and Members of the Subcommittee. I am 
Jim Duff, Director of the Administrative Office of the U.S. 
Courts. It is a pleasure to appear before you today.
    I also want to thank you both for expressing your 
condolences concerning the death of Judge John Roll. We will 
certainly pass them along to his family. He was a hero and will 
be greatly missed.
    Since 1939, the Administrative Office of the U.S. Courts 
has provided a broad range of support to the Federal courts 
nationwide. We have evolved over the years to meet the changing 
needs of the judicial branch, but service to the courts has 
been and remains our basic mission.

                         FY 2012 BUDGET REQUEST

    For fiscal year 2012, we are seeking an appropriation of 
$88.5 million for the Administrative Office of the Courts. The 
requested increase is primarily made up of base adjustments to 
maintain current operations. As Judge Gibbons noted earlier, 
however, this budget request was developed last fall based on 
assumptions at that time, and once we receive the final fiscal 
year 2011 appropriation, we will update our fiscal year 2012 
request and provide that to the committee.
    The fiscal year 2012 request also includes funding for the 
same three new positions to address high-priority program 
requirements that are critical to the operations of the courts 
that were requested in the fiscal year 2011 request. 
Specifically, two of the positions support a comprehensive 
modernization and consolidation of the judiciary's nationwide 
accounting system. It is a multiyear effort that will provide 
the judiciary with significant improvements in its accounting 
of appropriated funds.
    The third position is requested to support an initiative to 
address judges' Internet security concerns, including Internet 
threats and the availability of judges' personal information on 
the Internet. This request, also originally in the fiscal year 
2011 budget request, was the first request that we made to fund 
additional staff from the AO's appropriation in 6--and now 7--
years. As I have said previously before, before the 
Subcommittee, I implemented a hiring freeze when I joined the 
Administrative Office of the Courts, a freeze for a couple of 
years. So we have not requested positions for now 7 years.

                        COURTHOUSE CONSTRUCTION

    Before I close with these openings remarks, let me mention 
briefly something Congressman Serrano mentioned, and that is 
funding for courthouse construction. For the second year in a 
row, the President's budget for the General Services 
Administration does not request funding for new courthouse 
construction projects that reflect the priorities of the Third 
Branch, as detailed in the Judicial Conference's 5-Year 
Courthouse Construction Plan. For 2012, the judiciary's 
courthouse priorities are Los Angeles, California; Mobile, 
Alabama; Nashville, Tennessee; Savannah, Georgia; and San Jose, 
California. Each one of these is critically needed to address 
major operational deficiencies at those locations. And I would 
like to include our 5-year plan in the official record.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    I urge the Subbcommittee to consider the priorities of the 
Judical Conference with regard to courthouse construction 
projects and include funding in your 2012 bill for the five 
projects I just mentioned.
    That concludes my oral remarks. I would be happy to answer 
questions and would like my full statement submitted for the 
record
    Mrs. Emerson. Thank you very much. Without objection, your 
full statement will be entered into the record.
    Mr. Duff. Thank you.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
                 IMPACT OF FY 2008 FUNDING FOR FY 2012

    Mrs. Emerson. So we are talking about the budget and the 
need to address our country's unsustainable debt. As I said 
earlier, we are going to have to reduce spending of our 
Subcommittee and have been asked to try to reduce it to 2008 
levels. But I must say, since 2008, the courts' workload has 
increased significantly in many areas, such as criminal and 
bankruptcy filings and supervision of offenders and defendants 
living in our communities. So I imagine it would be somewhat 
difficult for the judiciary to reduce its funding to 2008 
levels.
    With that said, could you all describe to me the impact on 
the judiciary if we did reduce your funding to fiscal 2008 
levels?
    Judge Gibbons.
    Judge Gibbons. Well, as you have referenced, this would be 
a very, very, very difficult situation for us. A hard freeze at 
the 2008 level for 2012 would require a reduction in current 
onboard staffing levels as of February 13 of this year of 7,872 
positions, or 3,936 FTE. And you will recall that we have--in 
total, the judiciary has about 31,000 employees, and 22,000 of 
those are in clerks' offices and probation and pretrial 
services offices. Historically any cuts have been taken from 
among that 22,000, the remaining being judges and judges' 
personal staffs.
    Funding for the courts would be 18.9 percent below the 2012 
budget request level. We would see serious and longstanding 
problems for the courts in terms of supervision of convicted 
felons who have been released from prison, delays in case 
processing, and that has different impacts depending on what 
kinds of cases we are delaying. Obviously, if we are talking 
about bankruptcy cases, we are talking about sometimes an 
economic impact. If we are talking about criminal cases, we are 
talking about potentially having to dismiss indictments under 
the Speedy Trial Act if we cannot get those cases handled in a 
timely fashion. In civil cases we are talking about serious 
hardship to individuals and businesses if they cannot get their 
disputes timely resolved.
    We are talking about a decline in service, reduction in 
clerks--the hours that clerks' offices are open; delays in 
improvements to our automation program, such as the updates to 
the Case Management/Electronic Filing System that we need to 
do. In the court security area there would be another very 
significant impact. We would have to eliminate 73 percent of 
our request for security systems and equipment. We would cut or 
lose approximately 685 court security officer positions, or 16 
percent, of the current positions.
    To give you a little bit of a feel for both the statistical 
side and the policy impact side, it would be a serious 
situation for us and for the public whom we serve.
    Mrs. Emerson. And I appreciate that, I really do. But let 
me also say that your requested 2012 levels are probably not 
feasible as well.
    Judge Gibbons. We understand.

                 IMPACT OF FY 2010 FUNDING FOR FY 2012

    Mrs. Emerson. It is interesting when you hear people come 
in, usually people would say, could we just have a marginal 
increase, and I notice that this year people are happy with 
flat funding.
    What would happen to you all, or could you sustain a 2010 
level?
    Judge Gibbons. Well, better. Let me just point out, one 
figure I gave you was not dependent on 2012 levels. But the 
first figure, the employee figure, the 7,000-plus positions was 
based on onboard staffing levels, not fiscal year 2012 request 
levels.
    Here is what we look like at 2010 levels for 2012. About 
552 positions would be lost, again, measured below current 
onboard staffing; the suspension of panel attorney payments for 
about 15 weeks--and, of course, that is all dependent on what 
might happen with respect to whether we would have to delay 
panel attorney payments in 2011; again, eliminating 73 percent 
of security equipment requests; 168 CSO positions, we feel. 
Some of the same impacts that I described from a policy 
standpoint, but, again, obviously, to a lesser extent.

                       BOWLES-SIMPSON COMMISSION

    Mrs. Emerson. Right. The Bowles-Simpson Commission proposed 
significant reductions in travel, printing and vehicle budgets. 
What are you doing to save money in those areas?
    Judge Gibbons. We spent about $111.7 million on travel in 
2010, or 1.6 percent of total judiciary obligations. We spent 
$18.7 million on printing and reproduction. A lot of our travel 
is case-related; that is, supervision travel by probation and 
pretrial services officers going to the homes of offenders to 
determine the extent to which they are complying with the terms 
of supervision. And then we also have judges and to some extent 
their staffs who have to travel to various places of holding 
court that may not be the residence of the judge.
    We have tried already to impose some limits on staff travel 
with judges for holding court, and we monitor very carefully 
the supervision-related travel. We have increased the use of 
video conferencing, and we have used various methods for 
training that do not require physically coming to the location. 
We have held our many national meetings at central locations 
that can be more economically reached. But I think that we can 
make some more modest improvements in this area.

                      EASTERN DISTRICT OF MISSOURI

    Mrs. Emerson. I know in the Eastern District of Missouri, 
for example, we have got judges coming down to the Southern 
Division courthouse, and then the Southern Division judge going 
up to St. Louis. So there is a lot of expense back and forth. 
And sometimes what happens is they perhaps will do the trial 
down in one spot, and then they will do the sentencing back up 
in St. Louis, which is over 100 miles away. Not only do you 
have the expense of the judge and the staff, but then there is 
that ripple effect upon the Marshals Service taking the 
prisoners up and back.
    I do think that in some cases you can--realizing that you 
don't have to pay the Marshals bill, but it still adds up in 
the whole cost of doing business--that there can be some more 
thought given to saving money just with regard to that kind of 
travel, because for one judge it could be $10,000 a year, 
$20,000 a year, and then it starts adding up. Once it is $10- 
here, $20- there, you start talking about real money.
    Judge Gibbons. Courts that have more than one place of 
holding court have to face and decide how they are going to 
allocate the cases, and it is a decision that statutorily is 
made by each court. And typically the court tries to value 
random assignment, which is Judicial Conference policy, but the 
courts take other things into account, too, such as geography 
and convenience. And it may be that in this era, travel costs 
will become something that courts should become more cognizant 
of as they work on how they are going to handle their cases.

               JUDICIARY'S USE OF INFORMATION TECHNOLOGY

    Mrs. Emerson. Perhaps it is one of those easy things to 
fix--or easier things to fix. Certainly, I would rather save 
money on that side of things as opposed to having to furlough 
or lay off staff. So you can get your jobs done, there is more 
than one way to skin the cat here.
    Let me ask you, and then I will yield to my colleague Mr. 
Serrano, how are you all in the judiciary using automation to 
reduce staffing levels in district, bankruptcy and appellate 
courts?
    Judge Gibbons. I can't tell you X project has saved us X 
amount of staff costs, but we have become very fully automated, 
and this has produced very significant savings for us. Our Case 
Management/Electronic Case Filing system has produced savings 
in docketing and in just the way we used to handle paper, which 
was pretty labor-intensive. We have made just great advances in 
the way probation officers receive the information they receive 
to supervise defendants. This really helps them in terms of 
having better information, but it has also enabled probation 
and pretrial services offices to dramatically reduce their 
support staff.
    Jim referred to the new Judiciary Financial Management 
System, which is going to consolidate the accounting that is 
now carried out in 94 federal court districts. So we will be 
doing it on a national basis.
    There are just many, many things that we have done, and I 
can't quantify it for you, but I think that we have--I think we 
have really done a good job within the judiciary. And going 
forward there are several other major projects we are working 
on that I could describe for you. But I think we have done 
well.
    When you asked about printing costs, I didn't mention the 
extent to which our electronic noticing and the electronic 
filing--the extent to which that saved on printing costs. That 
is another kind of saving we have seen.
    Mrs. Emerson. And thank you for that.
    Mr. Duff, do you have anything to add?
    Mr. Duff. I was going to add a lot of it is cost avoidance. 
We can attempt to quantify that.
    Mrs. Emerson. We are practicing a lot of medicine 
telephonically these days. Thank you.
    Mr. Serrano.

                 IMPACT OF H.R. 1 ON THE FEDERAL COURTS

    Mr. Serrano. Thank you so much. Thank you for your 
testimony.
    Around here in Congress these days, things are getting a 
little confusing. The last time we enacted a bill was for 
fiscal year 2010. We are working on 2011 now, with H.R. 1 
sitting out there, but yesterday we got the budget proposal 
from the majority party for 2012. So you have to keep up with 
the numbers, otherwise you could pass the wrong bill, and it 
will be 2 years into the future or something--or back.
    So my question still is how does H.R. 1--at the end of the 
day, we don't know what is going to happen. Right now we got a 
message saying that things are getting closer. The Speaker and 
the leader in the Senate are getting closer. But everything 
could fall apart, and H.R. 1 eventually may be the tool.
    Speaking about H.R. 1, how would it affect you? What would 
have to happen; how many people would you have to let go? How 
would it affect the caseload? Assume for a second that H.R. 1 
becomes law.
    Judge Gibbons. H.R. 1 is not a good result for us either. 
It is $143 million below a fiscal year 2010 hard freeze level. 
The impact on the courts would be very significant. We would be 
affected in the various ways that I described for Chairwoman 
Emerson with respect to a hard freeze at 2008 levels for fiscal 
year 2012.
    In terms of numbers, it is a little hard to say what the 
numbers would be because we would have to make some decisions 
about how to manage it. We have said we could lose up to 10 
percent of our current onboard workforce in probation and 
pretrial services offices and clerks' offices. That is 10 
percent of that 22,000 or so I talked about earlier. But we are 
a little careful in using that because we, for example, might 
decide that we wanted to furlough more people in order to 
terminate fewer people.
    So in order to say that it is an absolute loss, we would 
not want to--I guess we wouldn't want to spread alarm in that 
way at this point. Nevertheless, that is the figure we are 
working with, although there would be decisions made as to how 
to manage the cut. We would have to stop payments to CJA 
attorneys, we think, for about 5 weeks of the fiscal year. That 
causes some real problems for us, not just because we are not 
paying the lawyers for work they have already done and because 
many of them are sole practitioners and those in small firms 
who really depend on the income, but also it affects their 
willingness to seek appointment in the future. So that would be 
a very serious outcome for us.
    Mr. Serrano. You would have to furlough people?
    Judge Gibbons. Pardon me?
    Mr. Serrano. You would have to let people go?
    Judge Gibbons. You mean employees?
    Mr. Serrano. Yes.
    Judge Gibbons. It would be very hard for me to see how we 
could avoid that.
    Mr. Serrano. Do you know how many?
    Judge Gibbons. As I said, we are using a figure of 10 
percent, which would be roughly 2,200. But there is 
terminating, and then there are things like buyouts, and there 
are things like furloughs. The Executive Committee of the 
Judicial Conference would have to figure out exactly how we 
were going to handle reductions at that level. But it would be 
very serious, and I would not anticipate that we would handle 
it without the loss of significant numbers of employees.
    Mr. Serrano. So you are saying at least 2,200 could be 
affected. I know everything is in flux.
    Judge Gibbons. I think affected, yes. Whether those people 
will all outright lose their jobs, I am not sure.
    Mr. Serrano. Mr. Duff.
    Mr. Duff. I agree. A lot of those decisions will occur at 
the local court level as to how they go about it. Those overall 
figures and numbers are what we are facing, probably.

             CHIEF JUSTICE ROBERTS' FY 2011 FUNDING APPEAL

    Mr. Serrano. Right.
    On March 18, Chief Justice Roberts sent a letter to 
Congress regarding fiscal year 2011 for the Federal judiciary. 
In his letter, the Chief Justice appeals for a funding level of 
$6.92 billion for the judiciary. Could you discuss the funding 
level request and what it will allow you to accomplish in 2011? 
Of course, half of 2011 is gone already.
    Judge Gibbons. The figure selected by the Chief Justice is 
$75 million above a hard freeze at 2010 levels. What that 
enables us to do and what it would enable the Congress to do, 
actually, is avoid deferring Criminal Justice Act panel 
attorney payments during the year, because if you defer 
payments during any part of 2011, of course, you have created a 
problem for 2012, because those attorneys--you are going to be 
paying back into 2011 obligations out of 2012 funds. And it 
would also give us a small amount of money for security systems 
and equipment that are critically needed, and it would enable 
us to maintain current on-board staff.
    So it is $75 million above a 2010 hard freeze and would 
enable us to maintain current staff, not have to defer payment 
of CJA attorneys, and buy some much-needed security equipment.

           FUNDING AND STAFFING LEVELS OVER THE LAST 10 YEARS

    Mr. Serrano. Obviously, all funding affects workload. So 
how has funding and staffing kept up with workload for the past 
8, 10 years?
    Judge Gibbons. With your help, we think we have kept things 
fairly--we think we have kept fairly apace over the last 
several years. When I first became Chair of the Budget 
Committee, one of the big points we used in advocating our 
budget request was that our funding and our staffing had not 
kept up with our workload. But we appreciate very much the help 
you have given us in reaching a better place with respect to a 
correspondence between funding and workload.
    Mr. Duff. I agree. And thank you for the great support we 
have been getting.
    The one area where we could use additional help along the 
way and in the past 10 years have been judgeships, in 
particular in areas of the country that are very overworked; 
border courts, for example, where we need additional judges, 
frankly, to handle it. We have been shifting and doing 
intercircuit assignments to help ease the burdens in those 
courts. But that is the only area that I would mention 
additional need.
    Mr. Serrano. As I listen to you, I have a thought. Madam 
Chair, this morning the CJS subcommittee, Frank Wolf's 
Committee with Mr. Fattah, had the FBI Director there. We were 
talking about the increases they received over the years. And I 
know that there is a strong desire--and we have discussed this, 
you and I, both personally and publicly--to cut, cut, cut. And 
I understand the whole issue.
    But I think what a lot of people miss is some of those 
increases over the last 10 years, or, to be exact, since 
September 11, were related to a crisis that this country was 
going through. So, yes, if you look at homeland security as an 
entity, it is through the roof. Not necessary? Of course, 
necessary. If you look at, for instance, security alone for 
Federal judges--and it obviously unfortunately doesn't work all 
the time, otherwise we wouldn't have made the statements we 
made of condolences--but the security at the courthouses have 
gone up.
    And so much of that, the FBI received amounts of money that 
people would be upset about. But they were shifted, if you 
will, from following white-collar criminals and so on to 
following terrorists all over the world. I think in the 
deliberations of how we got into all this debt, if you will, no 
one takes into consideration that we were involved in three 
wars--one in Iraq, one in Afghanistan, and one at home trying 
to protect ourselves. That doesn't seem to play anywhere. A lot 
of that money was spent on that.
    Mr. Duff. Those are good points.
    Judge Gibbons. With regard to the courts in particular, a 
lot of the money--another area is the money spent on 
immigration enforcement, which, of course, has had a huge 
impact on our needs along the southwest border in particular.
    Mr. Serrano. Thank you.

                    WORKLOAD ON THE SOUTHWEST BORDER

    Mrs. Emerson. Thanks. And I don't disagree with you about 
all of the added security costs.
    Speaking just of the southwest border, I understand that 
nearly 40 percent of the felony defendants are processed in the 
five districts along the border where the executive branch has 
implemented enhanced immigration and drug enforcement 
initiatives. So describe for us a little bit how this workload 
has impacted the five border district operations, including 
their need for probation officers, district court staff, public 
defenders, and secure facilities, and obviously not the least 
of which are judicial vacancies, because having a judge with 
1,200 cases under his or her jurisdiction is pretty tough for 
one person to handle.
    Judge Gibbons. Well, the growth has been, as you know, 
phenomenal on the southwest border. We were very, very 
appreciative of the $20 million in supplemental funding we 
received to help with that and to help us keep apace. 
Nationally criminal filings grew 25 percent between 2000 and 
2010, and that growth was fueled by what happened on the 
border. As you noted, now 41 percent of all criminal cases are 
prosecuted in 5 of the 94 districts--those along the border. 
Criminal case filings in the District of Arizona in 2010 
increased nearly 50 percent.
    Efforts like Operation Streamline, which provides an 
expedited method of handling these prosecutions, drive workload 
not just in the court, but also in the pretrial services 
offices, where workload increased 14 percent. The workload has 
put a big strain on Federal defender organizations and panel 
attorneys. We have put additional magistrate judges there. The 
probation and pretrial staff has increased in the border States 
by 11.4 percent over this timeframe from 2008 compared to an 
increase of 3.3 percent for probation and pretrial services 
offices nationally. I am looking for my figure for the district 
courts and not finding the amount.
    [Clerk's note.--Subsequent to the hearing, the Judiciary 
provided the following additional information:]

    Between October 2008 and September 2010, staffing in the federal 
district courts along the Southwest Border increased 4.6 percent 
compared to an increase of 1.8 percent in all district courts 
nationwide.

    Mrs. Emerson. Obviously, the pressure in this particular--
--
    Judge Gibbons. The pressure is across the board.

              ALLOCATING RESOURCES TO THE SOUTHWEST BORDER

    Mrs. Emerson. In order to help meet the demand in the 
border district, do you reallocate existing resources in 
districts that have a smaller workload just to help assist 
those courts along the border?
    Judge Gibbons. Jim can address this in more detail because 
he is involved in what the Executive Committee does in adopting 
and executing the financial plan. But, yes, money is shifted 
around in terms of court allotments to send money to the areas 
of greatest need and not areas where the money is not so 
needed.
    Mrs. Emerson. Director.
    Mr. Duff. The only thing I would add is we also send judges 
to help in those districts that are overworked from districts 
where they are less burdened and have time available to 
volunteer in other overworked districts.
    Judge Gibbons. That has actually been a very, very 
significant thing for a number of years now with the border 
States. Senior judges from other parts of the country have gone 
there. They have helped out within those districts. But judges 
will go down, say, okay, I will take 100 sentencings for you, 
which is a big thing, or whatever it is. They have been 
assisted by their colleagues in places with less arduous 
caseloads.

                          COURTHOUSE SECURITY

    Mrs. Emerson. We need more judges, I guess.
    Let us talk just for a minute about courthouse security. I 
know that you all operate many courthouses around the country 
that don't meet current security standards. So are you all 
working with the Marshals Service and GSA to identify all of 
those facilities that don't meet your security standards?
    Mr. Duff. We are. As we have mentioned before, because of 
recognition that courthouse construction is going to be more 
difficult to obtain funding for, although the needs remain 
great on our priority list where we have asked for new 
construction of courthouses, we have lowered the scoring of 
security deficiencies in the formula--although it was always a 
part of new courthouse construction analysis--now having a 
security deficiency alone will not justify a new courthouse. We 
would encourage a similar priority list as we do with 
courthouse construction but have one just to address security 
needs.
    Mrs. Emerson. But how do you address them without building 
a completely new courthouse?
    Mr. Duff. Well, there are alterations and repairs in some 
instances to existing court facilities that are adequate to 
address the security concerns that we have, we found in many 
circumstances. So we are able to do for far less than we used 
to be able to do with regard to funding when we isolate the 
security need. It is a top priority.
    Mrs. Emerson. Let us just say hypothetically that a pot of 
funds would be available within the GSA for courthouse security 
purposes. Have you identified how much money you think would be 
needed for 2012?
    Mr. Duff. I don't know that we have a specific figure, 
overall figure, for the security needs there. We think a 
relatively small amount of between $4 million and $17 million 
per facility that we are asking for would be needed.
    Mrs. Emerson. What would be helpful for us is if you could 
clarify a little bit in a tighter way how much you think you 
would need.
    Judge Gibbons. I may be off. If so, the staff will tell me. 
I just misremembered something. But I believe at some point 
during the last budget cycle, we were asked to suggest a 
figure, and I think we suggested something in the neighborhood 
of $25 million in order to give us a small--to start on several 
of these facilities, see how it goes, and then obviously over a 
period of years we would try to address all the facilities.
    Is that right?
    Mr. Duff. That is exactly right.
    Mrs. Emerson. All right. Well, why don't you go back and 
look at what--the past proposal and get that to us sooner 
rather than later, and let us just take a look. I am not saying 
that it is something that we can do, but certainly if you give 
us an opportunity to see what the needs are, and then GSA would 
just use those funds for that purpose, that might be a little 
helpful.
    [Clerk's note.--Subsequent to the hearing, the Judiciary 
provided the following additional information:]

    Security concerns, such as the potential for prisoner escapes, 
threats to judges, weapons, bombs, and witness and jury intimidation, 
are inherent to courthouses and federal buildings. Over the years, the 
Judiciary has relied on major building projects to address these needs 
and more recently built replacement courthouses to meet modern security 
standards at locations where security and operational conditions were 
at their worst. However, with far too many aging buildings and 
competing real property needs, the General Services Administration's 
(GSA) Federal Buildings Fund (FBF) has been severly constrained, and 
the courts continue to operate in buildings with unsafe and high-risk 
conditions. Security deficiencies alone, however, do not always support 
the need for a new courthouse or a major renovation project.
    Currently, there is no existing appropriation that specifically 
addresses courthouse security deficiencies unless they are part of a 
major repair and alteration project or a new construction project. 
Especially during this time of constrained federal spending, the 
Judiciary recommends a specific sum of money to address deficiencies in 
existing buildings where physical security alterations are viable. The 
Judiciary suggests the Committee set aside a portion of funding within 
the GSA's FBF's Special Emphasis Program, to address security 
deficiencies in federal facilities housing the judiciary. The GSA and 
the judiciary would work collaboratively to assess the building 
conditions, viability of long-term use, and structural capacity for 
these stand-alone architectural solutions. Such solutions could 
include: building additional corridors, adding or reconfiguring 
elevators, building visual barriers, moving air-intakes, and enlarging 
security screening areas.
Types of Projects
    Projects that would benefit from improvements to security will vary 
in size, location, and delivery method, and would likely range in cost 
from $4 million to $20 million. The Judiciary has compiled lists of 
locations with critical security deficiencies in existing courthouses 
and federal buildings that house the judiciary. Based on that data, the 
Judiciary, the United States Marshals Service, and the GSA would work 
together to identify and prioritize specific buildings where security 
deficiencies can be addressed with architectural solutions. The 
following is a list of projects that the proposed GSA Special Emphasis 
Fund ``Capital Security Program'' would support:
          <bullet> Providing separate circulation (corridors) for the 
        public, jurors, and/or judicial officers from prisoner 
        movement;
          <bullet> Reconfiguring existing elevators if a sufficient 
        number of elevators exist, per code;
          <bullet> Adding a new elevator either inside the building or 
        on the exterior;
          <bullet> Reconfiguring screening areas for the public and 
        mail delivery to address crowded conditions and insufficient 
        space for security equipment and personnel;
          <bullet> Moving or securing air intakes to higher locations 
        so that they are inaccessible from the public street level;
          <bullet> Moving or securing air intakes to higher locations 
        so that they are inaccessible from the public street level;
          <bullet> Building visual barriers to separate judges' parking 
        from prisoner unloading areas;
          <bullet> Redesigning existing loading docks or vehicle sally 
        ports to accommodate secure and efficient movement of prisoners 
        for court proceedings.
    Feasibility studies will be needed to assess existing building 
conditions and develop detailed cost estimates. Each location will have 
unique challenges such as historic elements, possible abatement issues 
(e.g., asbestos), code restrictions, possible relocation of staff and 
offices, and other building conditions which must be analyzed and 
planned as part of any improvements to existing buildings. In addition, 
the size of the building and the number of floors involved will affect 
the total cost of each type of security improvement.
    Based on the Judiciary's analysis to date, as many as 45 buildings 
could benefit from this initiative to improve physical security in 
federal courthouses.

                          REDUCING SPACE COSTS

    Speaking of GSA, your budget request proposes nearly a 
billion dollars for GSA rent, including funding for an 
additional 538,000 square feet of space. I know you are trying 
to reduce your space costs. This is really difficult as new 
courthouses--not on your new list--but as courthouses continue 
to come on line. But I think that in a GAO study, they found 
you were occupying what would be considered excess space. We 
need to figure out how to fix this. Tell me what you think the 
best means would be to reduce these space costs.
    Mr. Duff. We have gone about as best we can in reducing 
projected space needs, engaging in courtroom sharing where it 
makes sense, with senior judges, for example, with magistrate 
judges, and we have completed a recent study with regard to 
bankruptcy judges where courtroom sharing makes sense.

                   GAO STUDY ON COURTROOM UTILIZATION

    You have mentioned the GAO study. We have taken a very hard 
look at that study, obviously, and find some very serious flaws 
in it. I will give you one example that is utilized in that 
study to say that we overbuilt courthouses, and that there are 
empty courtrooms in the new courthouses we built, and our 
projections were wrong.
    In the GAO study they singled out the new courthouse in 
Fresno, California, as an example where they went out--it is a 
brand new courthouse, beautiful courthouse--and they find empty 
courtrooms there and say, well, we overbuilt, we overprojected. 
Well, the fact is the Fresno court is probably the most 
overworked court in the country. The average caseload per judge 
there is over 1,200 cases a year. Twelve hundred cases; a 
hundred cases a month per judge. It is an impossible workload. 
And so we requested new judgeships for that district in 
California for year after year after year, and we built--the 
new courthouse was built with GSA in anticipation that those 
judgeships would be filled to help with the overburdened court.
    So the GAO study is, in our view, very flawed. But rather 
than get into a discussion about that study, we have taken very 
seriously the state of the budget and where we can save costs, 
save rent, reduce space needs. As I mentioned, we have done 
courtroom sharing as much as we possibly can. So that is one 
area where we are trying to save.
    Mrs. Emerson. So did you go back to the GAO and point all 
of these things out, and they come back to you and said what?
    Mr. Duff. Well, we didn't really get a very good response 
when we pointed out the shortcomings. We actually had a hearing 
on this, and I think our judges did a superb job of 
illustrating where the shortcomings in that study were. I don't 
think they responded in any substantive way that satisfied us 
certainly.
    Judge Gibbons. You know, if you look at this, it obviously 
would not be good stewardship of the taxpayers' money to build 
a courthouse that only accommodates today's needs. You have to 
look into the future. But when we try to look into the future, 
we get into this same point we get into with our caseload, 
which is that it is very hard to predict what is coming because 
it is not within our control. We handle what people bring to 
us. But in our efforts to look at our future judgeship needs, 
the number of senior judges we will have, our workload, I 
think, if anything, we have been guilty perhaps of too much 
optimism about the extent to which Congress was going to 
accommodate our judgeship needs. And we are now talking with 
GSA about a new planning process that would, among other 
things, inject less optimism.
    Mr. Duff. We have revised our projections.
    Mrs. Emerson. Thanks.
    Mr. Serrano.

     RESOURCE ALLOCATIONS TO FEDERAL COURTS IN THE U.S. TERRITORIES

    Mr. Serrano. Thank you.
    Let me ask you about one of my favorite subjects, which is 
the American territories. We may have discussed this in the 
past. I spend a bit of time every so often, whenever a program 
or a bill comes up, reminding people that we have American 
citizens who live in the Northern Mariana Islands, and Guam, 
and Samoa, and the Virgin Islands and Puerto Rico. Usually what 
happens with everything else is there is a formula that affects 
the 50 States, and then there are negotiations that take place 
about how to deal with the territories. And it is very sad, in 
many ways, how it is done. I would imagine that the Federal 
judiciary and the Federal courts are an overall situation that 
do not get into formulas; or do they?
    So what I want to know is how are the territories treated? 
I assume each territory has a Federal court system physically 
in place there. They don't have to go somewhere else. So how do 
you determine the judges? Is it based on population, or is 
there, pardon the expression of the word, politics in there as 
it is over here? And what is over here, let us be honest, if 
Puerto Rico--this is not a pro-statehood statement--if any of 
the territories had two Senators and Members of Congress, the 
treatment would be different. But since they don't, the 
treatment is different.
    Mr. Duff. It is basically the same formula we use within 
the 50 States. What we have found actually recently is that 
when a court in one of the territories is overworked, and we 
are required to send judges from the 50 States to a territory 
to help relieve the burden in the territory, that is an 
enormous expense. You talk about travel expenses, Madam Chair, 
this is one where we pushed to get a judgeship created in one 
of the territories recently and a judge put in place there to 
avoid the costs of having to send judges from the 50 States to 
help relieve the burden in the territories. In one sense, they 
benefited more recently. They don't always benefit, certainly.
    I agree that there are sometimes distinctions made that are 
troublesome. A recent example, we actually were able to get a 
judgeship and a new appointment because of the costs involved 
in having to send judges from the 50 States to help relieve the 
burden. But basically the answer is it is the same sort of 
formula that we use throughout the Federal court system.
    Judge Gibbons. We have lots of different formulas. We use 
one formula for assessing judgeship needs, other formulas for 
staffing needs, other formulas for determining how other 
resources are allocated to the courts. The same formulas are 
used in the territory courts as are used in the 50 States.

                          LAW CLERK DIVERSITY

    Mr. Serrano. That is good to hear. That is not the answer, 
I guess, with 99 percent of the people who come from other 
places, other agencies.
    As you know, in past hearings we have discussed the lack of 
diversity among law clerks. I understand that the Federal 
judiciary has instituted a new program to help address this 
issue. What can you tell us about this effort? Also, if you 
could provide for the record a diversity breakdown of law 
clerks by race and gender for appellate and district judges for 
the last say 5 years.
    Judge Gibbons. We will be happy to provide the statistical 
information.
    [Clerk's note.--Subsequent to the hearing, the Judiciary 
provided the following information:]
Law Clerks by Gender:
    <bullet> In the aggregate, in 2005, 59% of all law clerks were 
female and in 2009, 60% of all law clerks were female.
    <bullet> Over that 2005-2009 time period, female law clerks for 
bankruptcy judges grew the most, from 65% to 72%.
    <bullet> Female law clerks are the majority for all judge types 
except Appellate Judges, for which they were between 44% and 48% during 
the 2005-2009 time frame.
    <bullet> A far greater percentage of the career law clerks are 
female than male across all judge types (currently 75%), although their 
percentage is lowest in the appellate law clerk category (currently 
64%).
    <bullet> District judge term law clerks have been close to a 51-49 
female-male split over the 2005-2009 time period.
Law Clerks by Ethnicity/Race:

                        CHAMBERS LAW CLERKS (APPELLATE) by ETHNICITY/RACE: FYs 2005-2009
----------------------------------------------------------------------------------------------------------------
                                                            African                Asian      Native    Pacific
                                               Caucasian    American   Hispanic   American   American   Islander
----------------------------------------------------------------------------------------------------------------
FY 2005.....................................        86.8%       3.1%       1.8%       8.0%       0.3%       0.0%
FY 2006.....................................        82.8%       3.2%       2.0%       6.7%       0.2%       0.0%
FY 2007.....................................        87.1%       3.5%       2.4%       6.7%       0.1%       0.2%
FY 2008.....................................        86.7%       3.3%       2.2%       7.4%       0.1%       0.2%
FY 2009.....................................        87.6%       2.5%       2.0%       7.6%       0.1%       0.2%
----------------------------------------------------------------------------------------------------------------
The Judiciary's law clerk demographics and the corresponding percentages are generated from fiscal years 2005
  through 2009 as fiscal year 2010 is not available at the time of the hearing.


                         CHAMBERS LAW CLERKS (DISTRICT) by ETHNICITY/RACE: FYs 2005-2009
----------------------------------------------------------------------------------------------------------------
                                                            African                Asian      Native    Pacific
                                               Caucasian    American   Hispanic   American   American   Islander
----------------------------------------------------------------------------------------------------------------
FY 2005.....................................        86.0%       4.5%       3.3%       5.8%       0.1%       0.2%
FY 2006.....................................        84.9%       4.1%       3.4%       6.0%       0.2%       0.1%
FY 2007.....................................        86.1%       3.9%       3.6%       5.9%       0.1%       0.2%
FY 2008.....................................        86.1%       4.1%       3.3%       6.2%       0.1%       0.2%
FY 2009.....................................        86.1%       3.9%       4.4%       5.4%       0.1%       0.1%
----------------------------------------------------------------------------------------------------------------
The Judiciary's law clerk demographics and the corresponding percentages are generated from fiscal years 2005
  through 2009 as fiscal year 2010 is not available at the time of the hearing.


    Judge Gibbons. You and I have talked about this before, and 
I have said we are working on it, but we are not where we need 
to be on this issue. The Committee on Judicial Resources is the 
committee of the Conference that is charged with working on 
this issue, and it has an ad hoc Subcommittee on Diversity. And 
under the auspices of that subcommittee, there is a new pilot 
project with the Just the Beginning Foundation in which 
students--minority students, economically disadvantaged law 
students--are placed as interns in Federal judges' offices. 
There are currently 37 students who will be interning in the 
pilot program. I believe that the hope would be to grow that 
over the next several years.
    There are some outreach efforts where the Administrative 
Office staff has met with various congressional leaders, 
directors of the Congressional Black Caucus, the Hispanic 
Caucus, and the Asian Pacific American Caucus, to discuss our 
minority recruitment and hiring efforts. I think one of your 
staff people, Representative Serrano, attended such a meeting.
    AO staff has talked with the National Latino Law Student 
Association. The Subcommittee is sending correspondence to law 
school deans in an effort to recruit minority applicants; 
sending correspondence to hiring partners at the Nation's top 
law firms, suggesting that some of their rising-star minority 
lawyers might want to come back and clerk for a year before 
returning to the law firm. They are urging various external 
organizations to help us improve our opportunities to hire 
minority clerks. And then there is an effort that is ongoing to 
urge chief judges to take into account diversity when 
appointing magistrate judges. So there are a number of things 
under way, but we have got a ways to go.
    Mr. Serrano. One of the things that we should always remind 
ourselves of--and I know you know this, but I think for the 
record it has to be said--these issues are not about simply 
getting some folks into certain positions. It is about groups 
that traditionally have been left out, to a certain extent--in 
many cases, years ago, to a full extent--people who want to be 
part of the strength and the structure of the country and want 
to serve the country. When a person says, I want to be in the 
Federal court system, and I want to work there, that is not a 
person who doesn't want to be part of the society. So it is 
just the opposite.
    But we have had situations here which are very delicate to 
discuss, but we had Supreme Court Justices who told us, well, 
we don't have diversity because we recruit for clerks from 
Harvard and Yale. I have said, well, recruit somewhere else 
every so often. It is not just those two schools.
    I am glad that you said that there is communication with 
law schools throughout the country to make it better.
    Mrs. Emerson. I agree. The University of Missouri graduates 
are as good as Harvard or Yale. And it just annoys me more than 
you know.

                      INFORMATION TECHNOLOGY COSTS

    Let me ask you all about your information technology 
request. This is important just because, interestingly enough, 
we had a hearing with the head of the GSA Information 
Technology, Vivek Kundra, who is the CIO for OMB and a GAO 
expert. We do not have a great track record in this government 
on IT, and I can't begin to tell you how many probably billions 
if you add it all up of dollars have been spent. And it has not 
been well spent whatsoever.
    Anyway, you are requesting $550 million. Of that $550 
million, how much is for developing new IT programs versus 
maintaining the existing systems?
    Judge Gibbons. I am not sure I have information that is 
directly responsive to the $550 million figure. I will answer 
that question more directly. I do have information about the 
$396 million that is requested for the Judiciary Information 
Technology Fund. And that amount, it is broken down in a number 
of ways, but almost $100 million, $99.7 million, is for systems 
and applications. And within that $100 million, $33.3 million 
is for development, $66.4 million for operations and 
maintenance. But I am told that operations and maintenance can 
also include sometimes development activities, such as repair 
of defects and some enhancements.
    And then, if you are interested, the rest of that $396 
million goes to allotments to the courts, infrastructure and 
collaboration that support the national IT program, voice and 
data transmission services and telecommunications equipment, 
courtroom technologies in new and renovated buildings, and 
staff who provide IT development management and maintenance for 
the courts. We have been spared the bad situation of having to 
fix stuff that was not done properly. We have had a process 
that, thankfully, has worked.
    [Clerk's note.--Subsequent to the hearing, the Judiciary 
provided the following clarification:]

    Chairwoman Emerson's figure of $550 million refers to FY 2012 
projected obligations for the entire Judiciary Information Technology 
Fund (JITF). Judge Gibbons in her response was referring to FY 2012 
JITF projected obligations for only the courts' Salaries and Expenses 
account which is the largest contributor to the JITF (about 75 
percent). Other Judiciary accounts that make deposits to the JITF are 
the U.S. Court of International Trade, U.S. Sentencing Commission, 
Administrative Office of the U.S. Courts, and the Court of Appeals for 
the Federal Circuit. Fees received by the Judiciary for providing 
electronic public access to court information are also deposited into 
the JITF. Below is a table that breaks out FY 2012 projected 
obligations for the entire JITF.

------------------------------------------------------------------------
                                                              FY 2012
                                                             Projected
      Judiciary Information Technology Fund (JITF)          Obligations
                                                           (in millions)
------------------------------------------------------------------------
Development.............................................           $48.0
Operations and Maintenance..............................          $121.4
Court Allotments........................................          $123.2
National IT Program.....................................           $81.3
Telecommunications Program..............................          $113.1
Courtroom Technologies..................................           $29.3
Centralized IT Staffing.................................           $32.3
                                                         ---------------
    Total...............................................          $548.6
------------------------------------------------------------------------


    Mrs. Emerson. So you have confidence that the Judiciary 
does have the IT project and contract management staff to 
execute such a large IT program?

                    INFORMATION TECHNOLOGY PLANNING

    Judge Gibbons. Yes. We have a planning process, but, more 
importantly--and that includes both staff and judges through 
the Conference committees and ultimately the Judicial 
Conference. But, more importantly, I am convinced through 
talking with some of the folks in the Administrative Office 
that one of the things that really makes it work and has made 
it work is the way we have staged and tested and managed the 
systems as they have been implemented, and we apparently have 
folks who have very significant project management skills who 
have really done a good job in helping us do this. So it 
appears, thankfully, that so far, so good on that one.
    Mrs. Emerson. Before starting any kind of IT program, do 
you do a cost-benefit analysis?
    Judge Gibbons. Oh, yes. That is a part of the formal 
project management process, and it is also a part of the 
planning process. It is taken into account along the way. There 
is also something called identifying quantitative and 
qualitative tools and techniques to manage cost and mitigate 
risk.
    Mrs. Emerson. Well, Mr. Serrano is, I think, a true geek 
when it comes to IT, which is a compliment. He loves it all.
    Mr. Serrano. I also played a judge on Law and Order once. I 
had to do one scene seven times because I kept stepping on the 
robe.
    Mrs. Emerson. How did you get that gig?
    Mr. Serrano. In the Village Voice they asked me, if you 
were not a Member of Congress, what would you be doing? I said, 
I would love to either play center field for the Yankees and 
act or sing. But I have no talent. So they said, do you want to 
read a part? I read a part. So they send me a script and they 
say, there is only one problem, you are playing a Hispanic 
judge, and there is only one problem with him. I said, oh, my 
God, he is not a drug-dealing thug. He said, no. He is very 
liberal.
    Mrs. Emerson. Perfect.
    Mr. Serrano. It was written for me. It was a great 
experience. Not that I pay attention, but it came out on DVD. 
It is season five, disk three, episode one.
    Mrs. Emerson. Please go ahead.

                  LACK OF FUNDING FOR NEW COURTHOUSES

    Mr. Serrano. You might have answered this question. If you 
did, you can either answer in a different way, or I will just 
go read the transcript. But what is the impact of GSA's 
decision to include zero funding for new construction of 
courthouses?
    Judge Gibbons. Well, we are not happy about having our 
priority projects not included in GSA's request. Obviously, 
there is a pot of money that it has out of which it is 
requesting construction, and by whatever process they use, no 
courthouses were included. And obviously our position is we 
would like to have our priority projects on a list somewhere.

                 HAWAII FEDERAL BUILDING AND COURTHOUSE

    Mr. Serrano. Of course, there is a courthouse in Hawaii.
    Judge Gibbons. Interestingly, we have learned, after 
hearing that there were questions about that yesterday, that is 
not the courthouse part of that building. It has nothing to do 
with the courts. It is----
    Mr. Serrano. The President didn't get his way and put a 
courthouse back home?
    Judge Gibbons. It is a Federal building and courthouse. And 
the project that is being proposed, we understand, is not 
related to the courthouse part of the structure. And what needs 
to be done in the courthouse part of the structure, I believe, 
has already been done.
    Mrs. Emerson. Well, you are wonderful to give us that 
clarification.
    Mr. Serrano. Because it became a big issue yesterday.
    Mrs. Emerson. We kind of got carried away.
    Mr. Serrano. We were saying, well, it makes sense; the 
President is from Hawaii. Notice I got that in, that he is born 
in Hawaii. And the chairman of Appropriations in the Senate. So 
we figure Hawaii made sense.
    Judge Gibbons. We were trying to figure out yesterday what 
this was we were supposed to be grateful for. Then we 
ascertained.
    Mrs. Emerson. Thank you very much. It is very helpful to 
us.
    Mr. Duff. I would say we have developed good working 
relationships with GSA, and I think they are under some 
pressures from OMB on what they submit. But we really would 
like to see our priority list for courthouse construction 
passed on through GSA.

                         BANKRUPTCY MEGA-CASES

    Mr. Serrano. Just one last question. The so-called 
megacases--the Madoff-type things--are those cases still having 
an impact on court resources?
    Judge Gibbons. Are you asking about bankruptcy cases that 
have been called megacases?
    Mr. Serrano. Right.
    Mr. Serrano. Dealing with 100 million in assets or more or 
1,000 creditors.
    Judge Gibbons. They do have an impact. But the handling of 
those cases is really, I think, quite a success story because 
the courts and the judges that have had those cases have really 
rallied around and figured out ways to handle them, and they 
have done so. I think it is really a tribute to the courts that 
have figured out how to handle those cases properly and with 
dispatch.
    So, yes, they have an impact, but it is one that is seen 
generally within the budget of the bankruptcy courts as opposed 
to something we are saying to you we need help with. We are 
doing fine on that.

                  Chairwoman Emerson's Closing Remarks

    Mrs. Emerson. Judge Gibbons and Mr. Duff, thank you very, 
very much.
    Mr. Duff, I want to tell you before I close the hearing, we 
are really very thrilled that you were kind enough to allow 
Karen Thomas to be a detailee for the Subcommittee this year. 
She is doing a great job--seriously, a great job--and I don't 
know what we would do without her.
    Mr. Duff. That is very nice to hear. We are glad to be of 
help. Glad she is of help.
    Mrs. Emerson. Thank you. I am certainly grateful, and I 
know I can speak for Mr. Serrano when I say that you have saved 
us, and she has more than met the expectations.
    Mr. Duff. That is great. It is good to hear. We are 
grateful for the opportunity she is getting here.
    Mrs. Emerson. Thank you.
    Mr. Duff. I don't want to make Congressman Serrano feel too 
bad; I will buy the DVD, but my great uncle did play center 
field for the New York Yankees. Earle Combs. You wouldn't 
remember.
    Mr. Serrano. Earle Combs; of course.
    Mr. Duff. With the 1927 Yankees.
    Mr. Serrano. Murderers' Row.
    Mr. Duff. Murderers' Row. He was the lead-off hitter. From 
Kentucky.
    Judge Gibbons. I am surprised he hasn't worked that into 
his testimony at an earlier time.
    Mr. Serrano. You can tell I am no longer chairman, 
otherwise he would have.
    Mrs. Emerson. Thank you all so very much.
    Mr. Duff. Thank you, Madam Chair.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
                                             Thursday, May 5, 2011.

DISTRICT OF COLUMBIA COURTS AND COURT SERVICES AND OFFENDER SUPERVISION 
                                 AGENCY

                               WITNESSES

ERIC T. WASHINGTON, CHIEF JUDGE, DC COURT OF APPEALS, AND CHAIRMAN OF 
    THE JOINT COMMITTEE ON JUDICIAL ADMINISTRATION
LEE F. SATTERFIELD, CHIEF JUDGE, DC SUPERIOR COURT
ADRIENNE R. POTEAT, ACTING DIRECTOR, COURT SERVICES AND OFFENDER 
    SUPERVISION AGENCY
    Mr. Diaz-Balart. Thank you very much for being here this 
morning. Today's hearing is on the D.C. Courts, and the Court 
Services and Offender Supervision Agency. Similar to how a 
state government funds state courts in the state court system, 
the National Capital Revitalization and Self-Government 
Improvement Act of 1997 made funding for these agencies the 
responsibility of the Federal Government. It is just 
interesting that the budgets for these agencies are not even 
considered by the Mayor or the D.C. City Council. They are 
proposed by the agencies and transmitted with the President's 
budget to us, so it is part of the Federal process. Three 
quarters of the funding provided in the District of Columbia 
section of the Financial Services Bill is for those courts and 
supervision activities.
    The purpose of today's hearing is to learn more about your 
activities and your resource needs. So today I would like to 
welcome our witnesses, again, as I said before, it is a 
pleasure to have you here, Chief Judge Washington of the Court 
of Appeals, Chief Judge Satterfield of the Superior Court and 
Acting Director, Adrienne Poteat.
    Thank you all very much for being here today. It is a 
privilege to have you here. Thank you for your testimony. 
Obviously, an independent judiciary that all the citizens can 
trust and respect is fundamental to our Nation, to our 
democracy, and to our rule of law. Each citizen has the right 
to a fair resolution of any legal dispute occurring within the 
borders of this, our Nation's Capital. The D.C. court system 
does an incredible job. You all are very busy. I understand 
that D.C. Superior Court has over 10,000 visitors a day. In 
addition, the Court Services and Offender Supervision Agency 
supervises just over 23,000 offenders and defendants. Still 
resources will be very limited, and you know that we, like 
everybody else, are in this struggle. Though resources are 
going to be very limited next year, we here in this committee 
will try to provide sufficient funding to complete what is 
obviously a very important mission, what you have to do day in 
and day out.
    However, we will ask you to work hard to find efficiencies, 
to find savings within your budget. So while crime rates in the 
District are on an overall decline, Washington, D.C. still has 
some safety challenges; it is still a relatively dangerous 
city, at least at certain times and in certain parts. So your 
agencies play such an important role in protecting the people 
who live, work, and visit our Nation's Capital.
    We really appreciate your hard work and your dedication, 
and we look forward to your testimonies for the fiscal year 
2012 budget request. I would like now to recognize the Ranking 
Member, someone who needs no introduction, my friend, Mr. 
Serrano.
    Mr. Serrano. Thank you so much, Mr. Chairman. This is my 
day with the Diaz-Balarts. I just finished doing an interview 
with your brother Jose with the Telemundo Network at 8:45. I 
took off my makeup because I told him I did not want to come to 
you with his makeup. But as we know, it is one show you will 
never be interviewed on.
    Mr. Diaz-Balart. I will never be interviewed on, 
unfortunately, that is right.
    Mr. Serrano. But he sends his hello. He will call you 
later. I would also like to welcome Chief Judge Washington, 
Chief Judge Satterfield, and Acting Director Poteat to our 
hearing today. We appreciate your service and look forward to 
hearing your testimony today about the needs and status of the 
D.C. Courts and of the Court Services and Offender Supervision 
Agency.
    The District of Columbia is in a unique situation in our 
Nation with the functions of both a city and a state-like 
entity, and needs the support of the Federal Government as a 
rule. Our support of the D.C. court system is no exception. We 
expect a level of service and expertise equal to that of other 
jurisdictions in our Nation, and over the past years have 
provided funds consistent with that mission. This year's budget 
request includes slight increases in operations and services, 
and a larger increase in the capital account. I look forward to 
hearing more about the projects you have in mind for this 
funding. In a tight budget climate it is important that we are 
adequately able to weigh the needs of all the entities that 
fall under our jurisdiction and ensure that we are meeting 
pressing needs and getting value out of taxpayers' investments. 
Again, we welcome you to our hearing, and look forward to 
asking you questions about the Courts and Court Service and 
Offender Supervision activities, and I thank you, Mr. Chairman.
    Mr. Diaz-Balart. Thank you, Mr. Serrano. If I could ask of 
the witnesses today, if you would try to please keep your 
statements to five minutes if possible, that would leave us 
more time to converse, and talk, and ask questions. With that, 
it is a privilege to now recognize Chief Judge Washington for 
an opening statement. Thank you for being here, sir.

                      DC Courts Opening Statements

    Judge Washington. Thank you very much, Congressman Diaz-
Balart, Congressman Serrano, and the rest of the Subcommittee 
members who may hear this testimony. Thank you for this 
opportunity to discuss the fiscal year 2012 budget request of 
the District of Columbia Courts. My name is Eric T. Washington, 
and I am the Chair of the Joint Committee on Judicial 
Administration in the District of Columbia, the policy-making 
body for the District of Columbia Courts. I also serve, of 
course, as Chief Judge of the District of Columbia Court of 
Appeals.
    With me this morning are Chief Judge Lee Satterfield of the 
Superior Court of the District of Columbia, and Ms. Anne Wicks, 
our Executive Director, along with other staff members from our 
court system.
    Before I begin my substantive testimony here today, I would 
like to take just a brief moment on behalf of the District of 
Columbia Courts to express our concern for the people in 
Chairwoman Emerson's district who have been hurt by this week's 
flooding. Our hearts do go out to all of them and out to all 
the Americans who are recovering from the recent natural 
disasters that have wreaked havoc both in the South and in the 
middle parts of our country.
    Congressman Diaz-Balart, Congressman Serrano, we live in a 
changing environment, facing new challenges to our Nation, our 
Nation's Capital, and our court system. Whatever challenges we 
face, the fair and effective administration of justice remains 
crucial to our way of life. In this time of economic adversity 
and heightened emphasis on cost effective government, the 
District of Columbia Courts are committed to responding to and 
meeting the changing needs of our citizenry. With careful 
stewardship of public resources, we work to fulfill our 
mission, which is to protect rights and liberties, uphold and 
interpret the law, and resolve disputes peacefully, fairly and 
efficiently, here in the Nation's Capital.
    Focusing on issues in our strategic plan, the D.C. Courts 
strive to resolve cases fairly and timely, to broaden access to 
justice and service to the public, to build a strong judiciary 
and workforce, to improve court facilities and technology, to 
provide a safe and secure environment, and to build the public 
trust and confidence, Congressman, that you mentioned earlier.
    We appreciate the support of Congress, which makes possible 
the achievement of these goals for our community. Congressman 
Diaz-Balart, we look forward to working with you, of course, 
Madam Chairwoman Emerson, and Congressman Serrano, along with 
the rest of the Subcommittee members on the highest priorities 
identified in our fiscal year 2012 budget request as described 
in my written testimony, which has been submitted and--which I 
ask be made part of the record of this hearing. Thank you. A 
critical focus of our 2012 budget centers on the protection of 
the public. To further the rehabilitation of girls in the 
juvenile probation system and build on recent initiatives 
serving this population, we have proposed funding for a 
community-based Drop-In Center to provide services tailored to 
meet the needs of female offenders. Since the District of 
Columbia does not have a secure detention facility for girls, 
the Courts' Drop-In Center will provide an option to protect 
public safety while keeping girls in the community under 
intensive supervision, where they can maintain contact and 
build better relationships with their families.
    This alternative to detention provides a structured 
environment for girls after school and on Saturdays, in which 
tutoring, counseling, and recreational services will be 
available. The drop-in center model has proven to be successful 
in reducing school suspensions and re-arrests.
    Also, to enhance the safety of domestic violence victims, 
additional court staff are needed to enter protection orders 
into the police database within 24 hours of the issuance of a 
protection order by the judge, so the police can enforce these 
orders during the very vulnerable periods of time right after a 
violent episode has occurred.
    As part of the Courts' initiative to ``Build a Great Place 
to Work,'' we are focused on enhancing employee engagement. 
Research has shown that a highly engaged workforce results in 
employees who are willing to put forth discretionary effort in 
the performance of their jobs. This enhances organizational 
performance and improves public service. To further our efforts 
in this area, funding is being sought to build our internal and 
external communications capacity and to foster the strategic 
transformation of our Human Resources Division to support this 
``Great Place to Work'' initiative.
    Resources for capital improvements--which Congressman 
Serrano referred to, do remain a critical priority for the 
Courts as we continue to implement the Courts' Facilities 
Master Plan for our five buildings that are located on our 
Judiciary Square campus. We do that in order to ensure that our 
infrastructure is sound and our security first rate for the 
10,000 members of the public who visit our courthouse each day.
    We believe the Courts' 2012 capital budget request 
addresses these responsibilities in a comprehensive and 
responsible manner, consistent with our Master Plan, which lays 
out space requirements and maintenance needs. Facing a 
significant space shortfall today, and not surprisingly, one 
that is expected to increase in the future, the Master Plan 
recognized the need to renovate the Historic Courthouse for use 
by my court, the Court of Appeals, but also calls for space to 
be provided through the construction of an addition to the 
Moultrie Courthouse and the renovation and reoccupation of a 
building we have affectionately known as Building C.
    With support of the President and Congress over several 
years, the Courts have invested significant resources in 
improving our facilities to meet health and safety standards 
and to function with greater efficiency for the public. As I 
mentioned, the Historic Courthouse has been renovated and is 
now occupied by the Court of Appeals. Renovation of Building C 
is underway and is expected to be completed by year's end. 
However, much remains to be done. The Courts' fiscal year 2012 
budget request seeks resources to expand the Moultrie 
Courthouse to meet health and safety building codes and to 
provide appropriate facilities for the public. The halls of 
justice in the District of Columbia must be well maintained, 
efficient, and adequately sized in order for us to achieve our 
goal of providing excellent service to those who live, work, 
and do business here in the Nation's Capital.
    Funding for the Moultrie Courthouse, our largest building 
and home to the majority of our Superior Court trial 
operations, is the focus of most of the Courts' fiscal 2012 
capital funding request. Funding is needed to continue the 
renovation of the interior of the Moultrie Courthouse and to 
reconfigure and backfill space that has become vacant in 2011, 
as a result of our ongoing efforts to consolidate all of our 
Family Court activities and related services in one area of the 
Moultrie Courthouse.
    The creation of additional courtrooms is critical to our 
ability to timely and efficiently address the number of cases, 
which are overwhelming filed each year in our courts. The 
maintenance of the existing infrastructure, including upgrading 
mechanical systems and complying with fire code regulations, is 
necessary to ensure the safety of the building's occupants and 
to preserve the integrity of the Moultrie Courthouse, our main 
trial court facility. The Moultrie Courthouse addition, which 
is the final component of our Facilities Master Plan designed 
to address the Courts' pending and future space needs, will add 
108,000 square feet of new and renovated space to our Moultrie 
Courthouse.
    Congressman Diaz-Balart, Congressman Serrano, the District 
of Columbia Courts have long enjoyed a national reputation for 
excellence. We are proud of the Courts' record of administering 
justice in a fair, accessible, and cost-effective manner. And 
we are proud of our decade-long history of completing our 
capital projects on schedule and within budget. We appreciate 
the President's support for the Courts' funding needs in 2012 
and the support we have received in the past from Congress.
    We recognize the funding constraints facing our nation 
during these difficult times and have focused our budget 
request to meet only the Courts' highest priorities. Adequate 
funding for these priorities is critical to our success, not 
only next year but in future years. We look forward to working 
with you through this appropriations process and sincerely 
appreciate the opportunity to personally present to the 
Subcommittee our fiscal year 2012 budget request. Thank you 
very much.
    [The prepared statement of Chief Judge Eric T. Washington 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    Mr. Diaz-Balart. Thank you very much, Chief Judge 
Washington, for your statement. I would now recognize Chief 
Judge Satterfield and ask if you have any statements that you 
would like to present to the Committee.
    Judge Satterfield. I am going to be brief, because I join 
in Chief Judge Washington's statements. I am here to answer any 
questions you may have regarding Superior Court operations, and 
I want to thank you for having us.
    [The biography of Chief Justice Satterfield follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Diaz-Balart. Thank you, sir. Thank you very much. Now I 
recognize Director Poteat from the CSOSA, which is the Court 
Services and Offender Supervision Agency. Director, thank you 
for being here.
    Ms. Poteat. Thank you. Good morning, Deputy Chairman Diaz-
Balart, Ranking Member Serrano, and Members of the 
Subcommittee. I am pleased to appear before you today to 
present the fiscal year 2012 budget request for the Court 
Services and Offender Supervision Agency (PSA), which includes 
the Pretrial Supervision Agency of the District of Columbia. 
CSOSA received certification as an independent executive agency 
on August 4, 2000.
    With implementation of the Revitalization Act and the 
creation of CSOSA, the Federal government took on a unique, 
frontline role in public safety in the District of Columbia. 
CSOSA's community supervision program supervises sentenced 
adult offenders, released to the District of Columbia, by the 
Federal Bureau of Prisons and adult probationers sentenced by 
the Court. PSA supervises pretrial defendants in the U.S. 
District Court for the District of Columbia and the Superior 
Court.CSOSA'S fiscal year 2012 budget request of $216.8 million 
is comprised of a $156.1 million request for the community 
supervision program (CSP) and $60.7 million for pretrial. It 
equals an increase of $4.4 million, or 2.1 percent, over the 
fiscal year 2010 enacted budget. The $4.4 million fiscal year 
2012 increase consists of $1.1 million in program changes and 
$3.4 million in inflationary adjustments necessary to continue 
current program service levels.
    As of September 30, CSP supervised a total of 16,166 
offenders, including 9,866 probationers and 6,300 supervised 
releasees and parolees. The demographics of our population 
suggest many challenges; 70 percent have a history of substance 
abuse; 32 percent of our employable offenders employed; 37 
percent have less than a high school diploma or GED. And eight 
percent have unstable housing, most living in shelters.
    Since its inception, CSOSA has accomplished its mission 
through the use of four operational strategies, effective 
offender risk and needs assessment, close supervision, 
treatment and support service, and partnerships. Our Auto 
Screener risk and needs assessment tool quantifies the 
offenders' criminal and substance abuse history, mental health, 
community and social support attitude and motivation and other 
factors that are predictive of future criminal activity. It 
also identifies the offenders' behavioral health needs.
    Our close supervision strategies include direct supervision 
of most offenders in field units located in the District of 
Columbia, in the neighborhoods where these offenders reside. 
This enables our offices to have an active community presence, 
collaborate with our neighborhood police officers, and foster 
effective partnerships with faith institutions, local social 
services providers, and employers.
    CSOSA provides a range of treatment and support services to 
offenders based on needs assessment and drug testing results. 
These include contract substance abuse and sex offender 
treatment, transitional housing, education and employment-
related services. In September, 2009, we partnered with the 
D.C. Department of Corrections, the U.S. Parole Commission, and 
the Bureau of Prisons to implement the Secure Residential 
Program pilot to provide an alternative placement for parolees 
and offenders on supervised release who face revocation. We are 
currently implementing several program initiatives, all 
accomplished through reallocation of existing resources. First, 
we have expanded our women's program to address the increasing 
rate of women offenders with co-occurring substance abuse and 
mental health issues. We recently converted one 15-bed unit of 
Re-entry and Sanctions Center (RSC) to serve female offenders 
and designated three supervision teams to supervise women only. 
We have also implemented kiosk-based reporting for our lowest 
risk offenders. They now report once a month to a kiosk to 
update their housing, employment, and collateral contacts and 
receive instructions for drug testing, instead of reporting in-
person to a supervision officer.
    CSP currently supervises approximately 807 defenders under 
the age of 21, in which of 50 of them are jointly supervised by 
the D.C. Department of Youth Rehabilitation Services. We are 
working with the D.C. Superior Court Pretrial Services, the 
D.C. Department of Youth Rehabilitation Services, and D.C. 
Court Social Services to improve the management of these cases.
    I will now turn to the fiscal year 2012 Pretrial Services 
Agency Budget Request of $60.7 million, which includes $1 
million to relocate PSA's drug testing lab. PSA conducts a risk 
assessment at intake for each defendant and recommends to 
judicial officers the least-restrictive conditions necessary to 
promote future court appearance and minimize the defendant's 
potential risk to the community. They also partner with MPD to 
identify misdemeanor arrestees who can be released safely from 
the police station pending initial court appearance.
    As of September 30, 2010, PSA supervised 6,850 defendants. 
In fiscal year 2010, they prepared over 16,000 pretrial 
services reports and conducted over 12,000 citation release 
investigations. They also completed over 3,000 criminal history 
reports for consideration of release in D.C. Code and drunk 
driving cases.
    In fiscal year 2010 they performed over 300 mental health 
assessments and placed over 1,600 defendants in a specialized 
supervision unit. They also expanded support of the D.C. 
Superior Court Mental Health Diversion Court to encompass 
felonies as well as misdemeanors. PSA's Forensic Toxicology 
Drug Testing Lab processes urine specimens for CSOSA and 
Pretrial. Fiscal year 2010, the lab conducted almost 3.5 
million drug tests on over a half a million urine samples 
collected from both defendants and offenders, as well as 
juveniles and adults whose matters are handled in the D.C. 
Family Court.
    We continue to make great strides in providing 
comprehensive supervision services for offenders and defendants 
in the D.C. Washington community. That concludes my testimony. 
I will be pleased to answer any questions you may have.
    [The CSOSA testimony follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Diaz-Balart. Thank you very much, Madame Director, for 
your testimony. You know, it is pretty evident that this 
Committee, and the Committee Chairman, the Sub-Committee 
Chairwoman--I think all of us are committed to addressing our 
country's unsustainable debt.
    And you know, it is not an easy task to do, but it is going 
to be important that every agency look for ways to be more 
efficient. With that in mind, and realizing that obviously your 
public safety role is crucial, it may or may not be reasonable 
to expect that you can go back to the 2008 funding levels. What 
would be the impact? What would the impact be of reducing your 
funding to fiscal year 2008 levels?

              IMPACT OF FUNDING AT FISCAL YEAR 2008 LEVEL

    Judge Washington. Well, funding the courts at the 2008 
levels, we estimate would result in an operating budget 
reduction of approximately $24 million, or a 9 percent 
reduction below our current budget. Approximately 73 percent of 
the Courts' budget is for personnel use, so a reduction of this 
magnitude would result in a significant reduction to the 
Courts' current work force, thereby negatively impacting the 
court's operations.
    Unlike most Federal agencies, as you know, most of our work 
is dealing directly with people. We cannot control how many 
people come in, and as you know, we are extremely busy, not 
only our trial court but our Court of Appeals are some of the 
busiest courts in the country. And so a 15 percent reduction in 
our workforce or a hiring freeze would be very difficult for us 
to sustain and continue to provide the services that are 
deserved by the citizens and those who live, work, and do 
business here in the District of Columbia. We would have to cut 
contractual services, probably. The vacancy rate of agencies is 
typically about five to six percent. So just contrasting that 
with the 15 percent vacancy rate that might be realized if we 
went all the way back to 2008 gives you some sense of how 
difficult it would be for us to manage that and continue to 
provide great service.
    I can tell you that several years ago our vacancy rate had 
risen to about 15 to 20 percent because of a lack of funding. 
Congress and the President, understanding the impact on the 
community, funded our unfunded positions so that we could 
reduce that level of vacancy because of the impact it was 
having on service provision.
    I think it would have a dramatic impact on our ability to 
do all the things that we are trying to do to protect the 
community. I would say that felonies, child protection, child 
support, juvenile delinquency, that we would have to look at 
all of those areas when we are talking about cutting staff 
because we really do not have an ability to determine where we 
are going to have staff needs.
    Mr. Diaz-Balart. Let me pose the same hypothetical going 
back, as opposed to the 2008 level, to the 2010 level. How 
would that affect you and what is the difference?
    Judge Washington. Well, I think the Courts would clearly be 
able to operate and perform their current functions if we went 
back to the 2010 levels. But there are several initiatives that 
affect public safety that would not get implemented. The 
expansion of services for females on juvenile probation is 
really very important and critical to our maintaining safety 
and security of our communities. And again, the lack of a 
secured detention facility for girls makes it a critical part 
of what we think is important and needs to be done in order to 
promote safety here in the District of Columbia.
    The reduction in the capital budget, as you know 
Congressman better than I, just delays and it pushes out and 
increases dramatically the cost of our capital improvements, 
all of which I think this Congress has recognized and this 
subcommittee and Committee have recognized, year after year, 
are critical for us to meet our space needs. We have been 
diligent and the Congress has been wonderful about 
appropriating money for us to do that, to meet our space needs. 
If we have to delay those in any significant way, which the cut 
back to 2010 levels might force us to do, it is going to mean 
that the incremental changes we will be able to make with the 
money that has been provided or may be provided at the 2010 
levels will just stretch our plan out and cost us a lot more 
money and take us a lot more time to get it done. Commending 
our capital buildings project team, we have, in every project, 
consistent with our testimony to this Committee and to others, 
kept to our timetable and have brought in our projects on time, 
within budget. And we would like to continue to be able to do 
that.
    Mr. Diaz-Balart. Judge, your request proposes funding for 
nine new law clerks.
    Judge Washington. Yes.
    Mr. Diaz-Balart. I believe and understand that we kind of 
know that the D.C. Court of Appeals has one of the highest 
caseloads in the country. If you could tell us how the hiring 
of these law clerks will impact the disposition of the cases in 
your caseload.

                         REQUEST FOR LAW CLERKS

    Judge Washington. Thank you. Yes. We intend to use these 
law clerks. The reason I asked for nine law clerks, or 
additional law clerks, was to be able to use them in a way that 
was flexible to meet the case processing needs of the Court of 
Appeals. As you know, our counterparts in the Federal Court of 
Appeals have four law clerks per Judge. We currently have two. 
Originally I thought that we certainly could process more cases 
had we had more staff support to assist the Judges in preparing 
for the cases on the calendars. Many of my colleagues sit on 
many more calendars per month than typically is sat on by 
Judges in the Federal Circuit.
    But additionally we have one of the smallest central legal 
staffs of any appellate court in the country. The central legal 
staff in most Federal appellate courts, and in most state high 
courts, handle a lot of the summary cases, preparing them for 
the Judge's review. At this point, because of its size, we have 
only five attorneys in our central legal staff, and the number 
of motions we have, we cannot get them involved and engaged in 
handling summary merits decision cases. So with these law 
clerks, I can help supplement those judges who need additional 
help, and have additional help for senior judges, to get merits 
opinion cases resolved. But I can also take some of the law 
clerk positions to help bolster our central legal staff and 
perhaps move, which I hope will move cases more quickly and 
efficiently, especially the cases that are appropriate for 
summary affirmance or a summary decision through the process 
more quickly.
    Mr. Diaz-Balart. Thank you Judge, and I want to make sure 
that we quickly go to the Ranking Member because the vote has 
not been called yet, unfortunately. So before I do that, both 
in the opening statement and your response to the question, 
Judge, you mentioned the issue of the drop-in center for 
juvenile girls. And it seems that the primary focus of 
supervision of the juvenile offenders has been to males. And 
again, your request proposed an increase for a new drop-in 
center for juvenile girls. Prior to this initiative, it appears 
that programs for young women were really kind of lacking. Can 
you explain how you supervise juvenile girls now and what 
impact the new center would have on female offenders?

                   DROP-IN CENTER FOR JUVENILE GIRLS

    Judge Washington. With your permission, I will turn to my 
colleague Judge Satterfield to answer that question.
    Judge Satterfield. Thank you. We have a series of probation 
officers who are trained for some of the unique issues that 
girls pose in terms of supervision. Because as you mentioned, 
throughout the many years, all these systems have been geared 
toward supervision of males. So, our Director of Court Social 
Services, who is a forward-thinking person, created a 
leadership for girls program with the idea that they are going 
to focus on the specific issues and expand our ability to 
supervise girls.
    The Drop-In Center is another tool to help do that. We 
already have two Drop-In Centers that we use in the city, and 
they are designed to provide supervision during the most 
critical times of day where youth seem to get into trouble, 
that is in the evening hours before their parents are home. So, 
we take them from when they get out of school into that time 
period and work with them. They eat there, they get counseling 
there. This girls' Drop-In Center is designed to duplicate what 
we have been doing in the other two Drop-In Centers in the 
city.
    Mr. Diaz-Balart. And you can show quantified results of 
those two drop-in centers that you have so far, right?
    Judge Satterfield. Well, we are seeing very good results. 
We have commissioned a national study on reoffending that we 
are in the process of completing through a national 
organization, which will give us a better idea of how we are 
doing from that objective view, but subjectively, yes.
    Mr. Diaz-Balart. All right. Thank you. And with that, even 
though there is a number of other questions, let me recognize 
the Ranking Member while we still have the time. Thank you, 
sir.
    Mr. Serrano. Thank you, Mr. Chairman. Ms. Poteat, can you 
tell us how CSOSA is working with the community college, at 
UDC, to assist offenders who are furthering their education and 
skill sets?
    Mr. Poteat. Yes. One of our members here--in fact, two of 
them, Cedric Hendricks and Jasper Ormond have been very engaged 
with meeting with the members of UDC to get offenders placed in 
those college programs. In addition, they have been trying to 
get the college to have a program for those offenders in the 
Bureau of Prisons' out-of-state facility in Rivers, North 
Carolina so that they can engage in some kind of college 
courses as well.
    We do referrals for those people that have completed the 
GED and are interested in college courses, so that they can 
enroll at the campus.
    Mr. Serrano. And you are getting the assistance you feel 
that you should be getting?
    Mr. Poteat. Yes, we are getting the assistance. Yes. 
Everything could always be improved significantly, but for the 
most part, yes.
    Mr. Serrano. Okay. So, we look forward to a good 
relationship, you believe.
    Mr. Poteat. Yes.
    Mr. Serrano. Okay, because it is so important that as we 
deal with these issues, we also deal with educational needs and 
furthering those opportunities. Judge Satterfield, the Superior 
Court is one of the busiest courts in the nation. How have the 
tight quarters in the Moultrie Courthouse affected the day-to-
day operations of the Superior Court system?

                       IMPACT OF SPACE SHORTFALL

    Judge Satterfield. Well, it slows things down. You do not 
have a sufficient number of courtrooms to be able to carry out 
all of the business in the court. Also, in really moving cases 
efficiently, you need to work with our partners, like CSOSA and 
Pretrial Services, to have them on-site as well. We have a 
horrible space situation where we have to stop giving out space 
to our partners. When they are out of the building, out of 
space, it slows things down, not to have them present on-site. 
So, it does delay things. And obviously, having a better work 
environment, I think, would increase our productivity with our 
staff as well.
    Mr. Serrano. And how many rooms do you have?
    Judge Satterfield. I had that number in here somewhere. You 
are talking about courtrooms?
    Mr. Serrano. Yes.
    Judge Satterfield. About 80 courtrooms, we have a total of 
more than 80 judicial officers and then, in order to maintain 
the performance levels that we are at now, we use a number of 
senior judges. Without them, we would not be able to maintain 
the levels we are now.
    Mr. Serrano. Let me ask you folks, there is a large 
discrepancy between the programs and initiatives included in 
the Courts' request and the President's request, which is not 
unusual. We see this all the time, historically. How would you 
prioritize the programs that were not included in the 
President's request? That is, which programs are your highest 
priority?

                           BUDGET PRIORITIES

    Judge Washington. Our highest priority programs are the 
programs that we have testified about here today, primarily, 
programs that involve ensuring the public safety and increasing 
the effectiveness of our workforce, and on the capital side, 
providing adequate space. So, what the President has done in 
his budget is he supports these initiatives. We know that the 
President and Congress have continued to support these 
initiatives, which we greatly appreciate. But the levels of 
that support have been less than we can utilize effectively and 
efficiently to ultimately reduce costs, in the long run, for 
these same programs and services. And so, what we are looking 
for, in terms of our budget initiatives, is greater funding in 
areas where the President has already provided us with some 
funding.
    We again, through a number of cost-saving efforts on the 
part of the Courts, have been able to reprioritize some of our 
resources to help to move some of the projects along and 
especially in providing a secure environment for our employees 
and the 10,000 people that come to our building every day. But 
certainly, the improvements that we could see if we got 
adequate funding in those areas that I have mentioned, our 
priorities would be the most helpful things for the Courts.
    Mr. Serrano. Right. I know we have a vote pending here. But 
I just have one question that is really a follow-up to that 
last question. Can you describe some of the measures you have 
undertaken in these tight fiscal times? I understand that you 
have already cut drug treatment and mental health programs. 
These are dire steps, to say the least. What other costs have 
been cut from the budget in recent months?

                              COST SAVINGS

    Judge Washington. Well, with respect to reduction of 
services and cost savings, we try to achieve cost savings in a 
number of ways, not just by cutting operations. We have held 
positions open that we could have filled in order to slow the 
rate of the costs on our operational side. Again, 73 percent or 
more of our budget is personnel. So if we are going achieve any 
savings, we had to stop hiring at some point. And while we have 
not implemented a freeze and we are looking at each position 
very carefully, we are doing it with an eye towards being very 
conservative and hiring only those individuals we need.
    In the Court of Appeals, we had a mediation pilot program. 
We did not get the position we needed to actually staff the 
mediation program the way that we had envisioned it, and we 
have been using temporary personnel. We have stopped that 
because that is a very costly item, to bring in temporary 
personnel to run programs. The programs themselves really 
require expertise that we cannot get by just hiring temporary 
people to come in. That is one of those things we tried to 
change, use resources differently in order to help move and 
process cases.
    So, we are looking at all those kinds of cost savings 
measures. Anything that we can do that does not impact on case 
processing and the effective and efficient and timely 
disposition of cases we are looking at, Congressman.
    Mr. Serrano. Okay. Thank you.
    Judge Satterfield. And we have used technology in the 
system that the Congress funded some years ago; it enabled us 
to use less people, because we are becoming more paperless, in 
terms of having our cases processed and ensuring the quality of 
the work that is being done in the paperwork.
    Mr. Serrano. Thank you.
    Mr. Diaz-Balart. Thank you, Mr. Serrano. The vote has been 
called. We have nine minutes and 40 seconds before the close, 
so that should be enough. I recognize Congresswoman Lee.
    Ms. Lee. Thank you very much, Mr. Chairman. Good morning.
    Mr. Diaz-Balart. Good morning.
    Ms. Lee. Really glad you are here, and thank you very much. 
And let me just preface this by saying that many of us, as 
Members of Congress, are also residents of the District of 
Columbia at least two days a week, three days a week. And so I 
just have to thank you for what you are doing for the residents 
of the District of Columbia, the citizens of the District of 
Columbia, and the entire city.
    My children, in my last life, they attended D.C. public 
schools. I worked for Ron Dellums, who chaired the District of 
Columbia committee. And so the issues that are historical here 
in the District, we are still grappling with. And I want to 
thank you for what you are doing to ensure public safety in the 
city. And I think the discussion always, especially in this 
committee, always centers around money; it is the 
Appropriations Committee. The deficit, of course, cuts, that is 
the reality of what we have to deal with. But also, I believe 
when it comes to public safety, sometimes we can be, what is 
it, pennywise and pound-foolish? I think you all are doing a 
very good job with minimal resources. I wanted to ask you, have 
you looked at what happened, in terms of a possible increase in 
crime, if your budget decreased?
    Just looking at these statistics that Director Poteat laid 
out, in terms of the 37 percent have less than a high school 
diploma, 70 percent have a history of substance abuse, 30 
percent mental illness, mental health issues. What would happen 
to these people, in terms of the crime rate in Washington, 
D.C.? And what if, in fact, your budget were reduced to 2008 
levels? I would like to see it increase but I would like to see 
that relationship between the budget and the crime rate.
    Ms. Poteat. That is one of the things that we are tackling 
consistently. We realize that public safety is paramount. And 
so, therefore, one of the things that we have done is 
restructure some things internally. For instance, with our low-
risk offenders, I talked about putting them on kiosk. And the 
reason we did that is that we free up some of those offenders 
that require minimum supervision to just check in on the kiosk 
box. That way, the supervision officer can now focus more 
heavily on the high-risk offenders.
    So, what do we do? One of the things we have been creative 
in is our call-ins. We do that periodically. In fact, we had 
one today at our Rhode Island Avenue site. Anybody that is 
high-risk, that could be a menace to the community, they could 
be using PCP, whatever the criteria, we call them in and give 
them a lecture to say that, ``We are on to you, we are watching 
you, and we are going to increase some supervision requirements 
internally.'' MPD attends those call-ins as well.
    Another thing that we have implemented is that we are 
focusing more on the risk and needs of the highest risk 
offenders: those that are PCP users, getting them in the 
substance abuse treatment programs. We realize right now that 
we can only address 25 percent of our population with substance 
abuse issues. That means that we have had to decrease the 
number treated, but focus on the highest of the highest risk. 
What do we do with the others? We can do internal group 
sessions. We have a violence reduction program that three staff 
members are doing at 25 K Street. It is, I am going to say, a 
30-week program; it is very intensive and conducted in various 
stages. They talk about anger management, critical thinking, 
and alternatives to the way that they used to do things.
    GPS: We have increased the number of GPS, so that would be 
very critical for us if we were to have to eliminate that. And 
we have trained over 800 law enforcement partners so that now 
they can monitor and track our offenders throughout the city. 
It is not just high-risk, it could be mental health cases or 
sex offender cases.
    Ms. Lee. Let me just ask, is it a stretch, then, to say 
that if your budget were reduced, possibly the crime rate would 
go up, or do you think it would stay the same?
    Ms. Poteat. We feel that the crime rate would go up because 
there are other contributing factors: housing and employment. 
Without that, those offenders more than likely will recidivate. 
If you do not have jobs for them to do, they are going to 
commit some type of crime. Those crimes eventually are going to 
the courts, then the courts are going to be bombarded with 
cases, and then the Federal Bureau of Prisons will be 
overloaded with people that have to be revoked and go back to 
the institutions.
    I talked about the number of people that are concurrently 
homeless. When you do not have adequate housing, that is a 
contributing factor to people not being able to adapt well, and 
they may break into homes so they can find adequate places to 
sleep, because some of the shelters are full. Sex offenders can 
only reside in one shelter. So you are, again, putting the 
community at some type of risk.
    Ms. Lee. Thank you very much.
    Judge Satterfield. Can I answer that? Because with a 
reduction, we do not get to our cases in a timely manner. That 
means they have to be supervised longer by agencies like 
Pretrial Services before a resolution on guilt or innocence. 
Then we do not get them to rehabilitation until that has been 
done. So, everything is stretched out. If there are reductions, 
we cannot get to the matters and resolve them in a timely 
manner. It just turns out to be more costly, and you have more 
people under supervision than you need to.
    Mr. Diaz-Balart. Thank you. Congresswoman, by the way, 
talking about great timing, I am looking at the clock that is 
counting down here to the vote.
    Let me again thank the Ranking Member, thank our 
colleagues, but more importantly, thank you, the very 
distinguished panel for spending your time with us today. I 
think it was very, very important. I think we learned a lot. I 
clearly did, yes. If there are any questions for the record, 
obviously, we can submit them and I am sure there will be some 
other questions. And I know that the Ranking Member has some 
questions, and I am sure there will be others.
    But again, let me thank you for your time. It has been a 
privilege to have you here. And with that, we close the 
meeting. Thank you.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
                                          Thursday, April 14, 2011.

                           U.S. SUPREME COURT

                               WITNESSES

ANTHONY KENNEDY, ASSOCIATE JUSTICE OF THE SUPREME COURT OF THE UNITED 
    STATES
STEPHEN BREYER, ASSOCIATE JUSTICE OF THE SUPREME COURT OF THE UNITED 
    STATES

                       Introduction of Witnesses

    Mrs. Emerson. Good morning. The hearing will come to order.
    Welcome, Justices Kennedy and Breyer, and thank you all so 
much for being here today. You both have testified before the 
Committee several times, and we appreciate your willingness to 
meet with us again.
    Please give my regards to Justice Thomas and my colleagues: 
Joe's and Mr. Womack's as well. It seems strange that he is not 
here this year.
    But, anyway, we appreciate so much that you all are here 
and look forward very much to meeting with you, and we will do 
our best to meet your resource needs this year.
    An independent judiciary, trusted and respected by all 
citizens and committed to fairly and expeditiously resolving 
difficult and controversial questions, is fundamental to our 
Nation. Although the Supreme Court budget is not large in 
comparison to other Federal programs, I am pleased that you are 
here today. Because, outside the confirmation process, today's 
hearing is one of the few instances when we actually get to 
interact with the judicial branch. It is, in my opinion, a 
worthy interaction, as we recognize and respect the 
prerogatives of each branch.
    As you all know, the Committee is working to reduce overall 
non-security domestic spending to fiscal year 2008 levels, and 
we will ask you all if there are any areas of your budget that 
could be reduced, but, also, at the same time, be sure that we 
will make certain the Court has the resources it needs to 
fulfill your constitutional responsibilities.
    Justice Kennedy and Justice Breyer, I look forward to 
hearing from you about the resources necessary for the 
operation of our Nation's highest court, as well as any 
thoughts you have regarding our Nation's courts as a whole.
    And now let me recognize my good friend and colleague, Joe 
Serrano.
    Mr. Serrano. Thank you so much, and congratulations on the 
Cardinals.
    Mrs. Emerson. Thank you. We finally have hit our stride 
hitting. Now all we need to do is to learn how to pitch, and we 
will be in good shape.
    Mr. Serrano. Don't get used to it. It may fall apart.
    Thank you, Madam Chair, and I would also like to warmly 
welcome Justice Breyer and Justice Kennedy back before this 
subcommittee. Seeing as they have both been here before, I must 
really commend them, knowing what they may be in for, for 
showing up again.
    As I have said in past years, this is one of the rare 
opportunities for our two branches to interact. Because of 
this, our questions sometimes range beyond strict 
appropriations issues. As our Nation's highest court, many of 
us look to you for important insights into issues affecting the 
Federal judiciary as a whole.
    There is no question that these are difficult budget times. 
However, as we look for savings, we must be careful not to 
affect the ability of our Federal judiciary to hear cases and 
dispense justice in a fair and timely manner. We must also be 
sure to provide the Supreme Court, as both the final authority 
on our Constitution and the most visible symbol of our system 
of justice, with sufficient funds to undertake not just your 
judicial functions but your public information functions as 
well.
    We look forward to your testimony, and I join the 
Chairwoman in having you please bring our warmest regards to 
Justice Thomas, who I know loves to come to these hearings.
    And, of course, as a person who represents the Bronx, New 
York, a special hello to Sonia Sotomayor. We are very proud of 
her in my congressional district. As you know, I was born where 
her parents were born, in Puerto Rico; and we take great pride 
in her ascension to the Supreme Court.
    Thank you so much.
    Mrs. Emerson. You know, as a matter of fact, speaking of 
Justice Sotomayor, she may be playing on our congressional 
softball team this year. Just so you know. That way you will 
have to come to our game. And I know she and a couple of the--
--
    Mr. Serrano. When did she become a Member of Congress?
    Mrs. Emerson. She and a couple of the other Cabinet 
Secretaries who are female have indicated a desire to play on 
the team.
    Mr. Serrano. Talk about the branches getting together. I 
will have to show up.
    Mrs. Emerson. I would now like to recognize Justice 
Kennedy. If you would be so kind as to keep your comments to 5 
minutes or under, we will have more time for questions.
    Thank you so much.

                           Opening Statement

    Justice Kennedy. Thank you, Chairman Emerson, Mr. Serrano, 
Members of the Committee. It is a privilege to appear before 
you with my colleague, Justice Breyer.
    The Chief Justice and all of my colleagues send greetings 
to you. We will have lunch together tomorrow, and they will be 
pleased to hear that you send them warm regards.
    You mentioned the independence of the judiciary. We talk 
often of separation of powers and checks and balances in 
interchangeable terms. We use them to cover one concept. 
Really, they have a different thrust. Separation of powers 
means each branch of the government has powers that are its 
own. You have the power of the purse. We have the judicial 
power. The President, the Commander in Chief, and so forth. 
That is separation of powers.
    Checks and balances presumes that the benches can't be 
completely separate. We have to interact at some points. And 
one is when we present to you our budget request, and it is the 
time at which you can inquire about our operations to make sure 
that they are efficient.
    The courts, by tradition, are cautious, prudent; and it has 
always been our tradition to be extremely careful in the budget 
request that we submit to the Congress. I can assure you that 
the Chief Justice went through the budget recommendations of 
our own staff with great care before we presented the budget 
request for fiscal 2012.
    Many of those staff, our principal officers, are here today 
with Justice Breyer and me: Jeff Minear, who is Counselor to 
the Chief Justice; Kevin Cline, who is Director of Budget; Pam 
Talkin, the Marshal of the United States Supreme Court; William 
Suter, the Clerk of the Court; and Kathy Arberg, our Public 
Information Officer. I might say that we have a staff working 
under, principally, Jeff Minear and Kevin Cline, who talks on a 
regular basis with your staff, and this is an oversight 
function in itself. My understanding is that your staff has 
been extremely helpful and cooperative; and, Madam Chairwoman, 
if you could extend our thanks to your staff for that.
    Our budget request for fiscal 2012 is a reduction, if you 
take an assumed budget for fiscal 2011. And we worked very hard 
to get that reduction because we are quite conscious of the 
fact that the government must be extremely careful in its 
stewardship of the taxpayers' dollars.
    Our budget request for fiscal 2012 is $75,500,000. That is 
a reduction of $706,000 from the assumed budget in fiscal 2011. 
Even with the assumed reduction, we have been able to find cost 
containment measures to enable us to ask for 12 additional 
positions for the police. We actually need more than that for 
police. We need probably double, and we need other personnel. 
But we have, in light of budgetary constraints, confined our 
request to that. That is urgent that we have that.
    We have a command center that has to be manned 24 hours a 
day. It is cost effective not to pay overtime; and our police 
work, as you know, is becoming much more sophisticated.
    Our Court has its own Web site, and I can tell you about it 
later if you are interested, which has to be operated 24 hours 
a day, and so we do need those extra positions.
    We are going to ask next fiscal year for a small amount to 
investigate the possibility of having payroll and personnel 
functions contracted out to another agency of the government. 
We can't use the Defense Department or HHS or a congressional 
payroll mechanism. We are too small. So we have an outside 
contractor, but we find out that there are certain government 
agencies that are also quite small that have a program that we 
can use and that will cost us some money for startup and 
investigation, but, in the long term, it will save money.
    We are about seeing the end of the courthouse modernization 
renovation project. It has gone way over time, but it is within 
budget. There will be claims on both sides, as happens with a 
long project, but, pending the outcome of those claims, it 
looks like we are in budget, and the construction people will 
be out of the building site I think by around April 30. Then 
landscaping can begin; and our court building, which has been 
undergoing this renovation since 2004, will once again be open.
    I think that concludes my remarks, Chairwoman Emerson.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Mrs. Emerson. Thank you, Justice Kennedy.
    Justice Breyer.
    Okay. Let's go ahead, and we will start the questions.
    I know you will be very happy to have the construction work 
completed; and, it is one of those questions that I want to ask 
about because, you know, when I have so many constituents who 
come to Washington the first time, and this is the time of year 
they are visiting, they have asked about the front door of the 
Supreme Court. And I also know that there was concern raised by 
some Members of the Court and also some of our colleagues with 
regard to the fact that you were closing its main door.
    But then, again, tragic incidents like that which happened 
last year at the courthouse in Las Vegas, at the Pentagon, more 
recently, the tragedy in Tucson, remind us of the importance of 
security. It is my understanding, though, that visitors can 
climb the steps to the main entrance and still can exit the 
building from that entrance. And I further understand that the 
new visitor screening process was contemplated and funded 
during the modernization process. You know and we all know that 
both the White House and the Capitol have elaborate screening 
processes, and there is no reason that you all should not as 
well.
    Justice Kennedy, can you describe the process the Court 
used in deciding to change its visitor screening procedures? 
And then a couple of other questions along that line: Are 
visitors still welcome to climb the steps to the main entrance? 
Can they exit using the main entrance?
    And then I will ask Justice Breyer for any comments he 
might have on that.
    Justice Kennedy. There is a symbolism in going up the steps 
to the Supreme Court and a symbolism to make sure that it is 
open. In the Cold War and just after the Cold War, when we had 
visitors from Eastern Europe, they were amazed that our courts 
were open. Well, of course, they are open; and the steps 
symbolize that.
    As part of the reconstruction of the Court--renovation of 
the Court, I should say--we had actually some experts on 
exhibits and visitors, and they found that the atrium to the 
Court, which is un-air conditioned, is just stifling in the 
summer, quite unwelcoming. The minute the visitors went in to 
the Great Hall, we had to have screening devices in the Great 
Hall of the Supreme Court. The restrooms were on either side. 
It was just not a welcome or dignified entrance for visitors, 
quite apart from security.
    Then, when we looked at security, the security people said 
there is no way that you can do this, and we agreed with that 
and spent--it is classified--millions of dollars on an updated 
security facility so that they enter under the steps. When you 
go into the Court now to the ground level, it is slightly 
confusing for the visitor, because some visitors don't know 
that they can go upstairs and see the Court. So we are working 
on new brochures, signage, and so forth so that it will 
continue to be a good experience.
    But just insofar as the looks of the Great Hall, it is 
greatly improved, quite apart from security; and from security, 
it is mandatory.
    Mrs. Emerson. I appreciate that.
    Justice Breyer, do you have any comments?
    Justice Breyer. Well, I wrote some comments.
    We have many difficult questions in the Court, and we don't 
always agree, and that is because they are difficult and there 
are two sides to the question. This was one of the questions 
where, in my mind, it was a close and difficult question. And, 
as you pointed out, there is security considerations on one 
side, and the other side is the traditional idea of people 
being able to walk up the steps and go into the room.
    So we disagreed. I thought we should have left it open. I 
read the same papers and others read the same papers and came 
to the conclusion that we should close it off from people 
coming up.
    I am glad I wrote the paper, because my reason, really, is 
I don't want it to get lost. Eventually, things will calm down, 
I hope, and eventually, at that time, the security needs may 
diminish, and eventually, at that time, I hope it will be 
possible for every American to walk into that plaza, walk up 
the steps, into equal justice under law and walk into the 
building. That is why I wrote it.
    Mrs. Emerson. Thanks.

                       ADDITIONAL POLICE OFFICERS

    Now, Justice Breyer, you and Justice Thomas last year--and 
Justice Kennedy discussed this briefly in his remarks--about 
the need and actually made a very compelling argument for 
additional police officers at the Supreme Court. And when we 
had last year's hearing we never anticipated that the fiscal 
2011 budget process would be dragged out until today. But, 
nonetheless, it has, far longer than I know our co-chair, 
Ranking Member Mr. Serrano, and I had hoped.
    But, once again, you all have proposed 12 additional police 
officers to operate your modern police command center and also 
to enable you to secure additional entryways once the 
modernization is completed. So can you all explain how this new 
command center is going to improve security at the Court?
    Justice Kennedy. Our Court is open 24 hours a day because 
we have a Web site that is always up. I tell my law clerks, one 
of us has to work until 2:00 in the morning, and it is not me. 
So the law clerks are there late in the evening.
    We have eight acres of grounds which have to be protected, 
and a number of our officers now have to spend time learning 
about cyber security threats and so forth, and that is part of 
the command center.
    The command center has to be manned, and it should be 
manned, by more than one person; and we think it is 
unproductive and not sound cost responsibility to pay overtime. 
And so that is why we need--actually, our people said we needed 
25, and the Chief Justice and the staff went over it, and we 
can live with the 12. We do consider the 12 urgent, and it is 
in the context where I have explained, again, if you assume 
fiscal 2011 as a baseline, of a reduction of some $706,000, 
even with the new police.
    It also takes time. They have to go through special 
training, and we have to implement them. So the 12 will be 
quite workable.
    Mrs. Emerson. Thank you.

                     CHANGES IN JUSTICE PROTECTION

    Can you tell me, to the extent that you can say it in 
public, has the shooting in Tucson resulted in any changes in 
your protection when the Justices are away from the Supreme 
Court building?
    Justice Kennedy. Let me just say this, since you mentioned 
it. The Ninth Circuit is my circuit. I was on that circuit 
court, and I am now the circuit justice for that.
    Chief Judge John Roll was one of the fine judges in the 
United States system. We know who our good trial judges are. He 
was one of them. He had a marvelous background. He was on the 
Criminal Rules Committee, Justice Breyer, and would be called 
by judges from around the country if there were a particular 
problem. And that shooting left his wife Maureen and three 
children. He was the chief judge of the district. Arizona is a 
single district.
    The judges have picked up right where they left off, in 
part because of the commitment that he showed. Our judges are 
among the most dedicated, principled, public servants in the 
world, and it is urgent for the Congress to make provisions so 
that we can continue to attract to our bench practitioners who 
are preeminent in the practicing bar.
    Now, anytime there is an incident like that, we take a 
second look at our procedures. We have threat assessment going 
on at all times. Again, that is part of our police force, and 
we are always aware of security threats.
    Mrs. Emerson. Justice Breyer, do you have any comments?
    Justice Breyer. I agree with the Justice.
    Mrs. Emerson. Okay. Thank you very much.
    Mr. Serrano.
    Mr. Serrano. Thank you so much.

                        SUFFICIENT BUDGET LEVEL

    We are always very careful on the House floor or in 
committee hearings never to speak to anyone in the audience. So 
I will be very careful about that rule and simply say that some 
visitors to this building should be aware of what is happening 
today, which is a unique situation.
    We know the Supreme Court is this body of men and women who 
interpret our Constitution and make so many important decisions 
that affect all our lives, but the Supreme Court is also a 
place where people get hired and salaries have to be paid, and 
the building itself is a tourist attraction. So, to some, this 
hearing may seem a little different than what you expect, but 
it is that other part of legislating and appropriating when you 
have to make sure that those places which are part of our 
society and our government, such as the White House and this 
Capitol Building and the museums and all the other things, but 
also the Supreme Court are properly funded.
    So issues of whether the door is open or not are very 
important, and going up those steps are very important, and 
they take on a new significance. We all, in a bipartisan 
fashion, want to make sure that the building is in good shape 
and that the tourists who come there get to see the proper 
presentation and that it is something that we can be proud of, 
as we are, but we have to make sure that it happens all the 
time.
    Notice how I did that without speaking to anyone in 
particular directly.
    I just want you to know, later today we will vote on 
finishing the fiscal year 2011 process at last, hopefully. For 
salaries and expenses, the Supreme Court budget is held to last 
year's level of $71.8 million. Is this level sufficient for 
your staffing needs?
    Justice Kennedy. My understanding--and I am going to look 
at our experts after I answer the question--is we can live with 
it 2011, but we need what we are requesting in 2012. Yes.
    Mr. Serrano. That starts tomorrow, that fight. So what you 
are telling us, it may be okay what we do today, but tomorrow 
you need some other things.

                         FEDERAL COURT SECURITY

    The Court officers, the police officers that were 
mentioned, is this part of a larger need for security not only 
at the Supreme Court but the courts throughout the Nation? I 
mean, the incident in Arizona was one where a judge was 
stopping by a local congressional event. But we know in the 
past there have been issues in recent years where the security 
and the safety of judges throughout our system have been 
threatened. What are the security issues, if any, at the Court? 
Again, within those things that you can tell us in public.
    Justice Kennedy. Remember that the Federal courts have the 
responsibility to adjudicate criminal prosecutions. Last fiscal 
year, we had 100,000 people indicted in the United States 
district courts. These people are in organized crimes, they are 
in drugs and so forth. Then there is the correctional 
population for which the courts have a lessened responsibility 
but still some ongoing responsibilities, and this population 
alone means, because of witnesses and threats and so forth, 
that we must be very, very careful in the United States 
district courts.
    The responsibility for security is generally divided into 
two parts. There are court security officers hired in the 
various districts, just like we have our own Supreme Court 
police and the United States Marshal Service operating out of 
the Justice Department, and we have constant studies and 
recommendations from those agencies.
    That is one reason why courthouse construction is so 
expensive. If you are talking about a courthouse, a trial 
courtroom has to have four entrances: one for the judge, one 
for the jury, one for the defendant in custody, one for the 
public. Well, that sounds simple enough, four entrances, but if 
you have a multiple courtrooms, then it gets extremely 
complicated, and so security drives the costs, not just 
personnel but construction.
    Justice Breyer. I would add one thing. I have been on the 
Court now--I don't like to admit this--but for more than 16 
years; and, during that time, I think our Court police--because 
that is our responsibility directly. We have the Court police. 
We are in charge of our Court police. I have always found them 
to be excellent. I mean, there has never been a moment in that 
time that I have experienced anyone feeling nervous or that I 
have experienced any lack of efficiency, and the public I think 
reacts with them well. So I would say from my own personal 
experience that the management of the Court police by the 
Supreme Court and the people they have chosen to do that have 
done very well.

                      CODE OF CONDUCT FOR JUSTICES

    Mr. Serrano. Recently, there have been several proposals to 
apply the Judicial Conference's Code of Judicial Conduct to 
Supreme Court Justices and to make recusal decisions by the 
Justices more transparent to the public. Currently, the Code of 
Judicial Conduct applies to all other Federal judges, but it is 
only advisory for Supreme Court Justices. Do you have any 
thoughts on these proposals? Do you believe that the Code of 
Judicial Conduct should apply to Supreme Court Justices, or are 
there good reasons for not doing so?
    Justice Kennedy. I will let my colleague, Justice Breyer, 
comment on my answer and add his own insights.
    The code of conduct does apply to the justices in the sense 
that we have agreed to be bound by them. Those rules are 
public, and if there is some question that we haven't complied 
with the letter or spirit of those rules, there can be comment 
about that.
    Of course, the Court has to follow rules of judicial 
ethics. That is part of our oath. That is part of our 
obligation of neutrality.
    Insofar as making them binding, there is a legal or 
constitutional dissonance problem. Those rules are made by the 
Judicial Conference of the United States, which are district 
and appellate judges; and we would find it structurally 
unprecedented for district and circuit judges to make rules 
that Supreme Court judges have to follow. So there is a legal 
problem in doing that.
    I really think there is no problem at all, since by 
resolution we have agreed to be bound by those. We are also, of 
course, bound by the ethics and government statutes for 
conflicts of interest and so forth.
    Justice Breyer. The answer to your question, should the 
justices be bound by the same rules of ethics, I think is yes. 
All right.
    The second, different question is, does that mean you 
should legislate? Then I think the answer is no. And the reason 
that I get to the two different answers is because I personally 
have seven volumes of ethics rules, the same that every 
district judge has, right in my office. And when I find a 
difficult question, I go to those volumes, try to apply them 
exactly as the district judge would, and I have people whom I 
call who are ethics experts, really, if I find a difficult 
problem.
    So why not legislate? The only reason not to legislate, I 
suppose, is, one, the kind of theoretical, getting to a problem 
with can you legislate and where and the Supreme Court, which 
people love to debate, and I love, when they have such a 
question of where does the power lie, not to answer the 
question and to go on to something else because I think it 
produces heat and not too much light.
    The other reason I think perhaps never happens anymore, but 
when I worked on the staff of the Senate, sometimes a bill, 
which we thought was perfect, would get to the floor of the 
Senate, and the words that came out didn't seem to be quite the 
same words that went in. And so I didn't know always what was 
going to happen when legislation started.
    But those are rather detailed, technical, and they are not 
real objections. Your basic question is right, and I think it 
is followed. I think all the justices do what I do, which is we 
do follow the rules. They do apply, and somehow it has gotten 
around they don't. Well, they do. I mean, I apply them.
    And I would add one other thing. It is a different thing, 
which I discovered, being a Supreme Court Justice in respect to 
ethics and disqualification than a district court or court of 
appeals. When I was in the court of appeals or a district court 
and a tough question came up, I would say I take myself out of 
the case. Who cares? They will find somebody else.
    But you can't do that on our Court. So you have to think 
about it in a different way, and you have to remember you also 
have a duty to sit. Because there is no one to replace me if I 
take myself out, and that could sometimes change the result.
    Mr. Serrano. Right.
    Justice Breyer. So I have to think long and hard in a way I 
didn't have to think long and hard on the court of appeals.
    Justice Kennedy. If I may just add, as Justice Breyer 
indicates, if we have one of us recuse from a case and we come 
out four to four, we have wasted everybody's time. It could be 
a criminal conviction automatically affirmed. And so we do have 
special problems.
    We have in the Judicial Conference of the United States the 
Committee on the Codes of Judicial Conduct, and I served--I was 
one of the--I think there were five of us that served on that 
committee for more years than I like to remember, and that 
committee is a very hardworking committee. It gets requests 
from judges setting forth what the ethical problem is.
    The judge is in the middle of trial. He or she has invested 
years and years of time. Suddenly, there is a marriage in the 
family, and there is a conflict of interest because the new 
spouse owns some stock. Does that judge have to leave after, 
you know, investing years in the litigation?
    Those are the kinds of things we try to answer. And the 
committee is open and receives questions from us. We can ask 
for advice from the Committee on Codes of Judicial Conduct, and 
we do ask for that advice.
    Mr. Serrano. Madam Chair, let me just close by saying that 
I would accept both of your statements, that you are very 
careful and the Court is very careful how it deals with these 
things. So I guess the next question for yourselves, not for me 
to ask, is why are there now proposals floating around? What 
has happened recently that has had people ask these questions 
like they have never asked before?

            RECENT INTEREST IN CODE OF CONDUCT FOR JUSTICES

    Justice Breyer. One thing I think is--just a guess--is that 
somehow people got the idea that we don't apply these same 
seven volumes. That is just a wrong idea, and I think that came 
from the fact that they are not legally binding on us in a 
sense that they might be in a court of appeals judge. That was 
interpreted to mean we don't apply them, which is wrong. Then 
that was written about in the newspaper, and everybody thought 
that was so. I think that is what happened.
    And I suppose, also, always--not always--almost always 
there is some controversial thing going on, and the reason it 
is more controversial in our Court is, one, we are more 
visible, and, two, we do have this duty to sit, which can make 
the question of answering the ethics question more 
controversial.
    So I think those two things combined, and that is just my 
guess as to why this is going around.
    Mr. Serrano. Thank you so much.
    Thank you, Madam Chair.
    Mrs. Emerson. Thank you, Mr. Serrano.
    Mr. Womack.

                  ADEQUATE INCREASE IN POLICE OFFICERS

    Mr. Womack. Thank you, Madam Chairwoman, and I want to 
thank the Justices for not only being here today but for your 
service to our country. It is an honor, as someone who respects 
the separation of powers and the branches of government dating 
all the way back to my civics classes--and as a new freshman in 
this Congress, I am honored to sit up here today and to engage 
you in conversation.
    Justice Breyer, particularly to you, thank you for your 
trip to Arkansas last week. I know I----
    Justice Breyer. Thank you very much.
    Mr. Womack. I speak for all Arkansans in thanking you for 
exporting, if you will, yourself and your knowledge and 
perspective to the people of the great State of the Arkansas, 
and I thank you for that.
    Justice Breyer. Thank you.
    Mr. Womack. As I told you in conversations before the 
committee hearing this morning, I am particularly interested in 
security, having a wife who has spent the better part of 30 
years as a trial court assistant in Arkansas at the circuit 
court level and fully recognizing the importance of security. I 
noticed in your 2012 budget request it is for the 12 officers, 
and I think if I read correctly that there has been 
demonstrated a higher need but that 12 has been the number that 
we have settled on for 2012. Is it adequate? Given the 
circumstances, the times in which we live, the recent issues in 
Tucson, is it adequate?
    Justice Kennedy. Our experts tell us that. Our own staff, 
and they have looked at this very carefully, say that it would 
be adequate. As we train and implement these officers, it may 
be that we will find that we need more, but the 12 is what we 
can absorb and what we need now.

                        POLICE OFFICER RETENTION

    Mr. Womack. Given the fact that training and equipping 
officers in this line of work is a little different than what I 
am accustomed to as a former mayor and developing police 
officers at the municipal level, but is there a revolving door, 
so to speak? Because I want us to be very careful that we are 
not investing large sums of money in the training and equipping 
of officers only to prepare them for the next line of duty in 
some other organization. Are we pretty good at keeping our 
folks?
    Justice Kennedy. My answer would be anecdotal. I have asked 
about it. We are good about it. When they do leave, they go 
generally to other government security agencies. We just lost 
one of our fine officers to the United States Marshal Service. 
So that capital investment that the government made continues 
to produce results.
    Mr. Womack. I find it comforting that in the discussion 
about the entryway to the Supreme Court and the difference of 
opinion at the Court, it is on the Court itself of what to do, 
what not to do. It is comforting to know that, Jo, we are not 
the only people that disagree from time to time on matters of 
importance, the Yankees-Cardinals and the discussions that take 
place in the well of the House. It is good to know that they, 
too, have some division of opinion from time to time.
    Madam Chairwoman, I have no further questions. Again, it is 
an honor to be here with two of our Justices.
    Mrs. Emerson. Thank you so much, Mr. Womack.
    Mr. Diaz-Balart.

                          SEPARATION OF POWERS

    Mr. Diaz-Balart. Thank you very much, Madam Chairwoman.
    It is a pleasure to see you both, Justices.
    Justice Breyer, you were in south Florida on a matter, and 
I was there, and it was enjoyable to listen to you speak, but I 
would tell you more enjoyable even to be able to have a number 
of people ask you questions. We appreciate that. I think it is 
important.
    I am actually going to change my line of questions. I don't 
have a lot of questions, but we were talking a little bit 
about, you know, obviously the separation of powers, which is 
essential for our democracy, for our freedoms. There is always, 
I guess, the temptation to creep into other branches of 
government. I know that you probably--I am sure the judiciary 
sometimes believes that Congress may have a tendency to try to 
creep into what is judicial territory, and we in the Congress 
have many times the feeling of the same thing, and particularly 
with the administrations, with the executive branch.
    So is there anything that Congress can do to, in essence, 
resuscitate the non-delegation doctrine within the judicial 
branch? Because there are many of us who feel--and it is not 
new and it is not on a specific issue--that particular 
agencies, Federal agencies, tend to try to, frankly, far exceed 
their congressional authority. So is there something that we 
could be doing to resuscitate that non-delegation of----
    Justice Kennedy. I will answer first so that Administrative 
Law Professor Breyer can be thinking about your question, a 
substantive question that is one of the most difficult 
questions in the law.
    You will tell a civics class, now here is a chart of the 
three branches of government: article I, legislature; article 
II, the executive; article III, the judiciary.
    What is an administrative agency? Does it make laws? Just 
try violating the Forest Service regulations sometime, and you 
will find out. Yes, they make laws.
    What is it? Is it part judicial, part legislative? That is 
one of the conceptually most difficult questions in 
constitutional law. And I am not indicating that agencies 
aren't important--we can't survive without them--but it does 
seem to me that Congress has to make it very clear what the 
authority of the agency is, the congressional duty in 
establishing the agency, to give it not only its 
responsibilities but the limits on its powers.
    Mr. Diaz-Balart. I don't know if, Justice Breyer, if you 
would like to comment.
    Justice Breyer. When I used to teach ad law, I would say 
there you have a friend and an enemy. The friend is it is up to 
you how much power you delegate. You want to delegate less 
power, delegate less power.
    The enemy, the enemy I say is the enemy of us all, which is 
time. The problem is, if you have time to go into any agency 
and really understand what they are doing and really try to 
figure out whether they need a power to have, say, like 
something written into the statute, or it should be more 
general and cover all things of this type or this intermediate 
thing, if you only had the time where you could do that bit by 
bit in thousands of instances, you would have enormous power 
and you would be able to write the perfect statute.
    But we are all faced with time. We are all faced with 
complicated problems. We are all uncertain as to exactly how 
much authority is necessary to delegate in order to allow those 
problems to be dealt with as people in the country want, and, 
therefore, that is kind of almost like a cliche, and it can't 
be much more helpful than that cliche.
    Mr. Diaz-Balart. It is interesting. Because I guess in the 
'30s I guess there were a couple of Supreme Court opinions 
that--and there is always a flip side to that because those 
opinions could be seen as also then muddling in congressional 
authority, but yet the Supreme Court then thought that I guess 
Congress was being too vague.
    Justice Breyer. They were. The very great opinion, Panama 
Refining and the other one was Schechter.
    Justice Kennedy. Schechter.
    Justice Breyer. And Schechter is the really one that counts 
and even Cardoza. They had delegated a system, and they thought 
it would get them out of the recession--depression, really, 
where you would have committees of government, labor, and 
businesspeople, and they would set prices, and they would 
determine outputs, and they really ran everything.
    And Cardoza, who was certainly--he was known as a liberal 
judge. He was so well-known once somebody wrote him a letter 
and said, you are a liberal judge. Can you lend me $50? I mean, 
he made the famous phrase----
    Mr. Diaz-Balart. I do that----
    Justice Breyer. He made the famous phrase in that case. He 
says, this is delegation run riot.
    So you are right. There are those two cases. But they were 
reviewing decisions of Congress and thought that Congress and 
the President had gone too far in those instances.
    Justice Kennedy. It was the national investor recovery 
act--to show that you were part of it. And they had codes of 
conduct for every industry, and you put up a blue eagle on your 
storefront to show that you were compliant. It was just not 
working. And, really, the Court, in declaring it 
unconstitutional, I think Congress breathed a sigh of relief 
after seeing what it created, but it is the Congress that 
creates these things.
    Mr. Diaz-Balart. Thank you, Madam Chairman.
    Justice Kennedy. In Japan, the way they do it is the agency 
consists of the parliamentary committee. So it would be like 
the Commerce Committee would be on ICC as a mixture of 
functions so they know what is going on.
    Mrs. Emerson. Thank you very much.
    Mr. Yoder.

                           CASELOAD COVERAGE

    Mr. Yoder. Thank you, Madam Chair.
    Justices, we appreciate the opportunity to have you here 
today. And I know, just in reviewing some of the material, how 
difficult your workload is. And to take time to come to the 
Hill to visit with us about the financing of what we are doing 
here in this country is an important topic, and I am glad you 
are here to deal with this.
    I am a KU Law grad, and I want to say both of you have been 
to KU Law before to give lectures, and so I appreciate that. 
Certainly as a young attorney, it is a great opportunity to 
have you here today.
    I had an opportunity for 8 years to serve in the Kansas 
legislature, and one of the issues we dealt with there is a 
similar issue we are dealing with in the country, which is how 
to fund the growing pressures on our court system. We always 
dealt with a growing amount of caseloads and the pressure of 
having to add additional judgeships and, many times, because of 
budget constraints, we were unable to do so.
    I guess I want to just have a little discussion with you 
about the situation in our district courts and our courts of 
appeal. Certainly in Kansas where I am from, visiting with my 
local judges, they are concerned about the backlog. We hear 
backlogs in immigration courts.
    I guess, first of all, I want to get your comment on the 
severity of those things and what our potential responses could 
be, besides adding additional resources.
    One of the issues we dealt with in Kansas was we had 
growing areas where the amount of cases were increasing 
rapidly, but there are also areas where it was decreasing, and 
the courts were reluctant to move judges from decreasing court 
case areas to increasing court case areas. So we were only just 
adding or increasing and never decreasing where the caseloads 
were decreasing.
    So is that a factor here? And just from your perspective 
sitting on the Supreme Court, how does that affect your work 
and what would your advice be for Congress as we deal with 
this?
    Justice Kennedy. Over the years, the Congress has been 
generous----
    Mr. Yoder. Justice Kennedy, if I might interrupt--as a 
young lawyer, it has always been my dream to interrupt a 
Supreme Court Justice, and so I just wanted to take that 
opportunity----
    Justice Kennedy. You can't afford my hourly rate.
    Mr. Yoder. I just wanted to take that opportunity to do so, 
and I am sure if I ever have the pleasure of being before your 
Court, you will do the same. My respect to you, sir.
    Justice Kennedy. The Congress of the United States has been 
prudent, farsighted, and wise and sensible in providing 
resources generally to the Federal courts. There are some 
problems with judicial salaries, but so far as resources, the 
Congress has given ample support to the Federal courts and for 
its infrastructure. The Federal courts are one of the most 
efficient, admired judiciaries in the world.
    In the last 3 fiscal years, bankruptcy filings have 
increased. I think it is fiscal 2009, last I looked at it, 1.5 
million bankruptcy filings. We handled those filings. And I 
indicated 100,000 criminal defendants appeared before the 
Federal courts.
    We have, generally, the capital infrastructure to manage 
that. When we go to foreign countries or when judges come here, 
we find that, worldwide, legislators and parliamentarians are 
somewhat reluctant to give resources to their court. They think 
judges have an easy job, and they don't know why they need all 
these resources. But I tell those people from those countries 
that a functioning, efficient, transparent, honest judiciary of 
integrity is part of the capital infrastructure.
    The bankruptcy filings, we don't like to see bankruptcy, 
but we handled those as part of the recovery.
    So it is important for the courts to be open and flexible. 
Of course, the caseload changes, and we talk about that. We 
wonder. We are losing some of the major civil cases to 
arbitration, and if the judges--pardon me--if the bar thinks 
that is more efficient, fine. I don't like to see us lose those 
cases, because it takes too long to go to trial. But we are 
working with that. The caseload is changing. There are more 
Federal crimes, more Federal prosecutions, immigration load.
    In some districts, we have a serious problem. My home 
district, Sacramento, California, is the Eastern District of 
California. The judicial load, the average caseload for a 
United States district judge is about 450 cases per year per 
judge, and that is a lot, but it is manageable. These judges 
are handling 11- to 1,400 cases. You just can't do that to my 
judges. We need more judges, and the Congress should authorize 
the judges in those districts.
    Western District of Texas is another one.
    Some districts' filings have dropped, not much. That can be 
taken care of over time, and we are in the happy position 
because article III judges can be assigned to other courts. We 
couldn't manage in ninth circuit without visiting judges. We 
have visiting judges come to take up the workload.
    All right. Was that generally responsive?
    Mr. Yoder. Very helpful, very helpful, and it gives me an 
idea of how things are going. And I do understand as caseloads 
drop in certain areas that through retirements, I think is that 
what you meant, you said that can be taken care of, as opposed 
to reassigning judges from declining caseload areas to areas 
that are increasing? That was always a challenge we had at the 
State level, is we knew we could move them, but it was 
politically too difficult to move the judge.
    Justice Kennedy. We do that on an interim basis, but over 
the long term it takes care of itself.

               SAVINGS AS A RESULT OF IMPROVED TECHNOLOGY

    Mr. Yoder. In terms of technology, which certainly always 
comes up and affects the Court, I wonder how much have we saved 
by moving away from paper filings and towards electronic 
filings?
    And I will say I did not practice in Federal courts, 
although I did practice in the bankruptcy courts, and that was 
I think a very efficient system for the attorneys to be able to 
upload the documents, scan them, and the Federal court was a 
good 30 minutes away. So it saved on gas and time and 
everything. So, in terms of attorneys, I think it has been 
useful from my perspective, but I wonder from the courts, does 
that save money and how is that----
    Justice Kennedy. Congressman, we have seen just since 
Justice Breyer and I have been on our Court a quiet revolution 
because of IT, information technology.
    We have a Web site. We run it ourselves. We get 59 million 
hits a month. There is a study that I have seen--I am somewhat 
skeptical of it--that we are about 12th or 13th of any 
government agency. We get 179,000 page hits a day. A page hit 
is where you look for something specific and study it. We get 
179,000 of those a day.
    It used to be that I would read Supreme Court cases over 
the summer, and we would wait for months, maybe even more than 
a year, for a law review article. Now, there are blogs. Law 
professors in a specialized area, information technology, 
information technology crimes, antitrust, any number of 
specialists have blogs. Within weeks, days, even hours, they 
comment on our cases. Our case law is now part of the arguments 
that attorneys make to district and circuit judges within hours 
after we decide a case. It is very, very efficient. There has 
been a sea change in how accessible our opinions are. The 
system works.
    I have testified before this committee--my staff told me 
this is my 15th time, and I looked at the budget in the '80s. 
It was half of what it is now. It is IT, and I thought that, 
well, maybe library expenses would go down, but it doesn't. The 
library expenses are the same, plus we have the IT. But you 
have made that investment now. That is there. It is in place. 
It is running. As I say, it is a quiet revolution. It makes our 
courts very, very efficient and very effective.
    Mr. Yoder. Well, and I appreciate that.
    How do we move from what is a great service, and, clearly, 
it has revolutionized how we utilize the information coming out 
of the Court very rapidly, as you described. How do we turn 
that into savings for the Court? Is there a point where we can 
reduce savings on the printing side? Or you said the budgets 
have actually gone up. Is there a point where the investment 
pays off in terms of the infrastructure of expenses----
    Justice Kennedy. I thought we needed fewer books. We don't. 
No saving there. Printing, we used to have a printing press in 
the basement before we came to the Court, a printing press in 
the basement. Felix Frankfurter would go down and get ink on 
his hands. Now, we print the opinions electronically.
    On paper filings, about only 2 percent of our petitions in 
criminal cases are granted, and they are handwritten by 
prisoners. If we scanned that, it would not be cost effective. 
But often a prisoner will not comply with the rules and will 
not attach a copy of the opinion of the highest court that 
affirmed his conviction or her conviction; and rather than send 
the petition back, our clerks just push a button and add the 
petition and we have it.
    So we are much, much more efficient. We are handling a huge 
volume of litigation under which our old system would have 
cracked. So when you think about cost savings, we are more 
effective on a case-by-case basis already.
    Mr. Yoder. Thanks for your responses.
    Madam Chair----
    Justice Kennedy. I preempted Justice Breyer.
    Mr. Yoder. Madam Chair, I yield back.
    Mrs. Emerson. Thank you, Mr. Yoder.

               COURT OPERATIONS DURING HIGH PROFILE CASES

    Over the years, you all have heard numerous high-profile 
and somewhat controversial cases, and it is possible that next 
year you will be hearing another one with regard to the 
Affordable Care Act. And so I am curious, in situations like 
that, regardless of whether it is that or something else, how 
do highly publicized and controversial oral arguments affect 
the Court's operations and the Court's grounds, especially as 
it pertains to reporters and interested citizens? Does other 
Court business get put on hold for the day? I am more 
interested in the process, not the subject, if you know what I 
mean.
    Justice Kennedy. We have a system that has formal 
traditional constraints and etiquette. We follow that. We don't 
talk about cases with each other until they are argued so that 
we don't have cliques or cabals.
    Our workload is such that we really don't address problems 
until we have to. We, as you know, get all of our work done 
every year by June 30. Thank you very much. We are always 100 
percent finished on our argued cases. And I go home and I tell 
my wife, you know, we have solved every problem in the world, 
there is nothing left, and then we find all these new problems.
    But that is the dynamic of the law. We wait until a dispute 
comes before us, and it is only in the context of a real 
dispute that we determine how to elaborate and explain the 
legal principles that are involved.
    Mrs. Emerson. Whether it is an abortion type of case or it 
is the health care law or anything when you actually are 
hearing the oral arguments that day in the Court, does it 
require a lot more security? Are there different things that 
you have to do? Is the behavior of, you know, how the process 
works within the Court, is it changed from on a daily basis 
when you are not hearing a controversial argument?
    Justice Kennedy. Oh, I guess there is maybe an air of 
anticipation in the room, as you might expect. But we will hear 
a so-called high-profile case between 10:00 and 11:00, and 11 
o'clock we will hear the next case, and judges will start 
asking questions about the next case. It is a set precedent-
based, tradition-based, formal system that enables us to go 
from one case to the other.
    Justice Breyer. There might be a longer queue. There 
probably will be. And so there will be more police officers, 
and they will have to look around and see if there are any 
problems or so forth. There haven't been any processing 
problems. There are more people who want to see the case.
    Mrs. Emerson. Right. And so, consequently, even though you 
have got all eyes on this controversial case, the rest of the 
business of the Court goes on?
    Justice Breyer. Well, Bush v. Gore, we were inside writing, 
and it wasn't us on the steps. It was the press on the steps 
who was taking the papers as soon as they came out and began to 
show all the papers that are being written.
    So it does cause a lot of extra work for a lot of other 
people. It doesn't cause extra work for the nine justices. We 
work along as we would anyway, but other people in the Court 
may have to go to extra trouble.
    Mrs. Emerson. Okay. Thank you.

               JUSTICE EXPERTISE FOR COMPLEX CASE ISSUES

    You know, I am curious when you deal with cases like that, 
whether you are getting into the intricacies of health care law 
or technology, how do you all keep your skills and expertise 
current? Because you are getting into nitty-gritty 
technicalities that are quite complex. I am curious.
    Justice Breyer. I would be interested in what Justice 
Kennedy thinks, too.
    I like very much the fact that people file amicus curiae 
briefs, and in a tough case, a right-to-die case, we had one of 
those where it was one of these, you know, about medical care, 
or we had various computer cases, and we had 70 briefs in that 
case. And they will try to educate us, all kinds of different 
groups on both sides. And once we set up an exhibition in the 
library so the justices could come up and figure out how to 
work the computers in the particular way that was necessary to 
know for the case.
    In a patent case, one of the lawyers--it was a very good 
idea--in the district court, but it was still there, put the 
patent on the Internet. So they did a diagram and so anyone, 
anyone in the world, including the justices, could press a 
button and you would actually see how this thing worked in 
practice.
    So others, one, they are using these different methods, 
they know it is important in a case to educate us, and they 
have amicus briefs and other methods, if necessary, to try to 
get us up to speed.
    Justice Kennedy. It is part of the adversary system, highly 
skilled attorneys who spend years on a case, and they have an 
hour to give, or half hour per side, to give us their argument. 
But there has to be a room in the law for generalists. We are 
generalists in a specialized world; and we, as Justice Breyer 
said, are educated by the amicus briefs and by counsel.
    Mrs. Emerson. Well, it is important to look at both sides 
before you start.
    Mr. Serrano.
    Mr. Serrano. Thank you.

                  PRESIDENTIAL CITIZENSHIP REQUIREMENT

    You made me a little nervous, Madam Chair, when you started 
to say something about a famous or important case next year.
    Mrs. Emerson. What were you expecting?
    Mr. Serrano. I thought it was about whether I can run for 
President or not. Having been born in Puerto Rico, that still 
hasn't been settled by this panel.
    Justice Thomas got quoted in all the blogs as saying--I 
asked him that question, as I do, you gentlemen know that, 
every year, every hearing. And Justice Thomas answered by 
saying, well, you can serve on the Supreme Court, but he never 
answered the part.
    The blogs also said that a certain Justice Breyer came very 
close to saying I don't see why not, but that does bring up an 
interesting question, and forgive me for asking it, if it is 
out of order. On a question like that, do you first have to 
wait to elect me President and then the case comes up--
seriously--or can somebody bring up a case? My understanding--I 
am not a lawyer--is that there has to be someone aggrieved 
first. So does the person get aggrieved at the time I declare 
my candidacy or do I have to be elected first?
    Justice Kennedy. I tell you, there are some lawyers I can 
recommend who can advise you of the rules of declaratory 
judgment.
    Justice Breyer. Why would anyone be aggrieved if you were 
running for President? Wouldn't they be pleased?
    Mr. Serrano. Oh, just--and I am not telling you whether I 
was born--I think some folks on the right would be very unhappy 
that I was running or maybe happy that I would be easy to 
defeat. I don't know. Okay. So I won't get an answer. I am just 
going to have to declare my candidacy.
    Justice Breyer. Well, what it says, it says no person 
except a natural born citizen. Well----
    Mr. Serrano. I am a natural born citizen.
    Justice Breyer. Okay.
    Mr. Serrano. I can't believe we just had a Supreme Court 
decision.
    Justice Breyer. Well, you said you were a natural born 
citizen.
    Mr. Serrano. Well, that is what I believe I am, but it is 
interesting. Those folks with pen and pencil in the back I 
think have a heck of a story.
    Mrs. Emerson. So are we to take it that this is your 
announcement to run in the primary against the President?
    Mr. Serrano. No, not in 2012.
    Justice Breyer. Maybe I should point out that there are 
some people who think that means everyone except a naturalized 
citizen, and there are others who think it has a broader or a 
narrower meaning.
    Mr. Serrano. And, on a serious note, there are some New 
York scholars who have told me that, in the 1940s, the Puerto 
Rico situation was resettled again where natural born was put 
in the language, natural born.

             MINORITY SELECTIONS FOR JUDICIARY INTERNSHIPS

    Okay. So I have got to get my campaign ready. But before I 
do that, let me have a platform. So let me ask you a question 
that I always ask. As in past years, I continue to be 
interested in seeing an increase in the number of minorities 
selected for Supreme Court clerkships. Are there any new 
initiatives to reach out to minority law students and graduates 
in the Federal judiciary as a whole?
    And the second question to that, I know that the Supreme 
Court Justices lecture and go to commencement exercises and so 
on. Do they use that opportunity to invite young people into 
the law profession, especially if they are in law school, and 
to apply for clerkships?
    Justice Kennedy. When we go to law schools--and we often go 
to the smaller law schools for moot courts and spend a day or 
two with the students and so forth--I always encourage the 
students to apply for clerkships to the Federal district courts 
and the courts of appeal. In fact, I tell clerks, I say, you 
can really learn a lot in the trial court that you would never 
learn in the court of appeals. The district court has to do a 
lot of writing. They write a lot of opinions. So you will do 
everything a circuit court clerk does, plus you will learn how 
to try a case. I think district court clerkships are one of the 
best ways to train lawyers, and I encourage them to do that.
    Justice Breyer. It is not usually necessary to say apply 
for clerkships, because there are a lot of people that want to 
apply for clerkships.
    It is hard for me to say what is statistical and what 
isn't. When I started in this--I have had quite a few minority 
clerks over the years. It was difficult at the beginning to 
find people who would come in, and then it got a lot easier, 
frankly. There is the problem.
    And then in more recent, last 2 or 3 years, I began to 
wonder, well, wait a minute here. Maybe there is a 
communications or something. So I am going back to the first 
let's-try-to-get-the-word-out approach.
    Mr. Serrano. Without hammering this too much, have we gone 
back to the old problem? Which I understood was that, 
basically, Harvard and Yale were the schools where people were 
recruiting, where the courts were recruiting. Has that changed?
    Justice Kennedy. Well, I frankly don't think that is the 
problem. I was thinking I had a clerk from Kansas last year--2 
years ago, Kansas University, and I taught at a smaller law 
school for decades. I taught night law school. I know how hard 
these students work, how committed they are to law.
    I have to tell you that the bigger schools--Harvard, Yale, 
and Michigan, NYU, Stanford--themselves go out and are very 
good at recruiting minorities. So your chances of getting a 
minority clerk out of those schools is actually better than 
some of the smaller schools. So it works. It is somewhat 
surprising, kind of intuitive.

                        COURT WEB SITE INTEREST

    Mr. Serrano. Let me just ask you one more question. Your 
Web site, last year about this time at the hearing the Web site 
was, you know, making a big splash. How has it been and what 
are the comments that you are getting from folks? Is it being 
used? Is it a positive thing that is going on?
    Justice Breyer. Very, very. That is what Justice Kennedy 
was saying, I mean, like 59 million hits a month. I guess that 
is maybe close to a billion or something a year, I mean, some 
huge number of hits, unbelievable, and the number you just had 
was actually looking at the opinions----
    Justice Kennedy. 179,000 page hunt studies a day.
    Mr. Serrano. Just think, today, you are going to get about 
4 million from Puerto Rico alone.
    Well, I just want to take this opportunity to thank you--I 
have no further questions--for your service to our country, and 
we always meet in a light-hearted fashion, but we know the 
issues are very serious. We do ask some serious questions. We 
got some serious answers. I certainly got one--no--but I do 
personally and on behalf of--I know I speak for everyone else, 
as the chairwoman will lead us, in saying that we respect your 
service to our country, and we take very seriously the fact 
that we still live in a place on Earth where we have laws and 
we have respect for the law. And we have evolved and evolved 
and we disagree and we yell and we scream, but, you know 
something, we would rather be here than anywhere else. And that 
is so important to all of us.
    Thank you.
    Mrs. Emerson. Thank you so much. Well said, Mr. Serrano.
    Mr. Womack.

                      JUSTICE USE OF SOCIAL MEDIA

    Mr. Womack. I agree with the comments of my colleague from 
New York that it is the genius I think of our country that we 
have the separation of powers and the Constitution, and it is 
remarkable what we have accomplished as a Nation.
    On the subject of the phenomena of social media, I was 
predisposed to asking the question, do you tweet? But I think 
perhaps the first question should be, can you tweet? I am not 
sure even ethically if you can, but are the advances of the 
social media changing how you do your work?
    Justice Kennedy. I suppose in an indirect sense that our 
work is sometimes reflected and discussed in the social media 
in that different context, but that is good. The law lives in 
the consciousness of the people, and to the extent there is 
greater interest and greater awareness in public affairs and 
that that finds its way into the social media, I think that is 
all to the good.
    Justice Breyer. I mean, I actually have a tweeting thing. 
Because I was very interested in the Iranian revolution, 
remember, when they just had this uprising over a year ago. And 
I sat there fascinated, because you could actually look through 
the tweeting and you could see what was going on. You could see 
the violence. You could see women killed. It was terrible. And 
I wanted to keep track of that, and I sat there totally 
fascinated. The only way you could do it was to go through the 
tweet or the Twitter. So my name is there.
    So from time to time, since I don't know how to take it 
off, I get requests, can we follow you? So I think for us that 
is very nice, somebody would like to follow me. Quite 
flattering, but I wisely say, no, it is not a good idea on 
balance. And the same is true of the Facebook. It is probably 
not a good idea.
    Judges wear black robes so that they will resist the 
temptation to publicize themselves, because we really speak for 
the law, and that is to be anonymous. And I do fear that--you 
know, I wouldn't want to have followers on the Twitter or 
people going to the Facebook page, but for my children, and I 
can get in touch with them anyway.

                    ADVICE FOR CURRENT LAW STUDENTS

    Mr. Womack. Finally, recognizing that we have some young 
people that are in this room today, and I am just making an 
assumption that perhaps they are law students or I would make 
that assumption, not knowing for sure, and given the fact that 
in the health care debate--and I have seen and talked to a lot 
of medical professionals that tell me a lot of potential 
physicians are not going into the general practice field but 
instead more specialization. What recommendations can you give 
to the prospective attorneys now matriculating through law 
school that would be useful as they make career decisions?
    Justice Kennedy. Law is becoming more specialized, and that 
means that whatever area of human affairs and human history and 
human intellect and learning you are interested in there is a 
place for you in the law.
    Harvard, where Justice Breyer is on the faculty, I think 
Stephen now has 400 courses of law and medicine, law and animal 
rights. Whatever you are interested in the law can accommodate 
it, and that is part of the genius of the American system.
    For us, law is not a threat. It is not a dictatus. It is 
not a concept. It is a promise. It is an aspiration. And the 
law training, even if you do not end up practicing, can be 
rewarding. I love to practice law. I miss my clients. I miss 
the practice of law.
    Justice Breyer. We answer this question quite a lot, 
Congressman. We get it in law schools and places, and we have 
very similar answers. I usually tell the law students, you are 
in a great profession. I am not saying it is the only great 
profession, but it is a great profession. The reason you are in 
it is because it requires you to have a head, and it requires 
you to have a heart, and if you don't pay attention and use 
your head, nobody will want your services. So don't go into 
this profession.
    But if you only have a head and are just serving yourself, 
you shouldn't be in the profession. Because the whole point of 
the profession is to use that head of yours to help serve other 
people. And I think they understand what I mean, and then I 
hope, you know, that will register for a while and they will 
maybe embody that and we will see you in a few years.
    Mr. Womack. Sage advice. I think we could use some of that 
as Members from time to time.
    Thank you, Madam Chairwoman. Thanks, again.
    Mrs. Emerson. Indeed, thanks, Mr. Womack.
    Mr. Yoder.
    Mr. Yoder. Thanks, Madam Chair.

                      CURRENT CONFIRMATION SYSTEM

    I have a couple of questions related to politics and its 
impact on the courts, and I am sure from time to time those 
issues seep into discussions on the courts.
    My first question would be, what do you think about our 
current confirmation system that we have in this country? Some 
of the States do it differently. For example, Kansas doesn't 
allow the Senate to approve their State court appointments. 
They have a nominating committee that is made up of bar members 
and members appointed by the Governor who then make three 
recommendations to the Governor, and the Governor picks one of 
the three. The folks in the State argue that that is far 
superior to the Federal system.
    I guess my first question would be is, what are your 
thoughts on the confirmation system we use, and is it perfect? 
How would you do it differently?
    If you can comment on these matters, and what do you think 
about the election of judges in some of our lower courts at the 
State level across the country?
    Justice Kennedy. I am cautious about saying what I think 
should be the system. The States are laboratories for 
experimentation, and we can see the follies of some ideas and 
the wisdom of others as it plays out.
    My home State of California has a judiciary that is bigger 
than the entire Federal judiciary. If you said all of them had 
to be appointed, I think there would be some systemic 
consequences of that that might be cause for serious concern.
    The Framers said that judges are subject to the 
confirmation by the Senate, and the Senate is a political body, 
and it acts in a political way. The dynamic, the discipline, 
the challenge is to follow that process and to pursue that 
process in a way that respects the integrity and the decency of 
the judicial candidate so that it is not a process that 
discourages eminent practitioners from seeking to be confirmed 
to the Federal bench. And that is for the Senate and, to some 
larger extent, for the Congress to decide. It is not for us to 
dictate.
    We do have concerns, of course, about the delays in the 
process. If you are a private practitioner, especially in a 
small practice, and you are waiting for confirmation, can you 
take this case, can you begin consulting with this client when 
the nomination is pending? It can be very, very difficult.
    But I think it is for the Congress and the Senate to 
determine how this process should be followed in a principled 
way so that they can judge the temperament and the 
qualifications of the prospective judge without subconsciously 
asking how would this judge rule on issue A or issue B--I think 
that is improper. What you must ask for is a judge of 
independence and of commitment to the law and of an open mind 
and of a willingness to listen.
    Justice Breyer. Well, it is a big topic, and it is a topic 
that probably Justice Kennedy and I and Justice O'Conner and 
Justice Souter have spoken quite a lot about. And your staff is 
welcome to go online and find some of the 92 speeches I have 
probably given on this topic. And, overall, there is no perfect 
system there, but----
    Mr. Yoder. Would you be willing to tweet about it?
    Justice Breyer. I would if I permit myself to respond to 
tweets. But I figure that way lies perdition. I am worried 
about that. So there will be quite a lot on that.
    And major areas of concern are the campaign contributions 
combined with the State election system. That is one of the 
areas he talks about and then I have, too.
    The Federal system, you are the elected officials, and the 
Senators are the elected officials, and I remind people of 
that. When I am asked this kind of question, confirmation, I 
say I was not a confirming person; I was a confirmed person. I 
was not a nominating person; I was a nominated person. And to 
ask me is in a sense like asking for the recipe for chicken a 
la king from the point of view of the chicken.
    Justice Kennedy. I will think about that. Of course, it 
used to be, Congressman, in my hometown in California, if a 
State trial judge was challenged, if that judge was a good 
judge, the bar would come to his defense or her defense. The 
bar would defend that judge.
    Now, we have plaintiffs bars, defense bars. If X runs 
against Y and X says Y is soft on crime, Y has to answer that. 
Studies show that Y can't just say, it is beneath me to answer 
it. They must answer. And you know what that means, money, and 
that is the process.
    I think elections were part of the Jacksonian democracy in 
1840 for judges. Judges have tremendous power in our society, 
and so there has to be some public political control at some 
point. I think it is visionary to think that we can eliminate 
elections. The object is to use elections to educate the 
electorate on what the requisite qualifications should be for a 
judge. This is a great chance to educate the public as to what 
judges do and what are the qualifications for a judge who 
brings dignity to the bench, and we can use elections with 
intelligent commentary from the press and from civic groups as 
to what a campaign ought to do, as to whether a campaign is 
dignified or not, and I think we have to pay much more 
attention to that.
    You know, democracy is pretty new in historical terms, 
especially when we consider democracy with a mass media. We are 
not quite yet sure what the balance ought to be, but it is 
urgent for us to have a public discourse that is more civil, 
that is more rational, that is more moderate, that is more 
productive, that is more principled, and I think judicial 
elections might be a good way to start. I haven't seen any yet 
that I can uphold up as a model for you.

                          CONGRESSIONAL INTENT

    Mr. Yoder. Madam Chair, if I might, I had one additional 
thought here.
    One of the tensions that always exists in this town is 
between the three branches of government. This has been 
discussed a little bit here already today. The often-thrown-
around phrase is ``activist court'' or ``activist judges,'' and 
I know that that is probably not a phrase that is thrown around 
with quite joy around the Supreme Court.
    As that tension continues--and I am sure it always will in 
this country--between what Congress believes its intent is or 
some believe what Congress' intent is and what the Court 
determines is the real result, what sort of resources do you 
rely on to define congressional intent? And what could Congress 
do, particularly Congressmen and -women who feel that the 
Supreme Court is taking positions that are contrary to maybe 
the intent of Congress, to make the intent clearer to do their 
part to do everything they can to make sure that the laws are 
written in specificity or the Congressional Record is such that 
it makes clear that position from the legislative branch?
    Justice Kennedy. This is a question of considerable 
academic and philosophic difficulty. It is current, it is 
topical, but it has also been going on for about a hundred 
years.
    Of course, it is the obligation of the Congress to tell the 
courts what it means and what it intends. When I was in private 
practice, I found that sometimes in negotiations, the contract, 
you wanted to leave some things a little murky. And most of us 
think that precision in drafting means that you have absolute 
specificity, but sometimes leave things a little murky.
    I think often in the Congress, which cannot go back to 
revisit its legislation to clarify it, is too murky just 
because of the dynamics of the political process. That is the 
way the bill gets out, but you do that at a risk that some 
court will not understand what your intent is or misinterpret 
it.
    Justice Breyer. One bit of advice, and this produces 
argument within the Court. I, probably more than many members 
of the Court, I will look at the language. I will look at the 
history. I will look at the tradition. I will look at the 
precedence. But I think when that isn't clear, and it usually 
isn't, I will try to figure out what the purpose of this is.
    Why the word ``cost'' is in a statute that allows parents 
of a child who has now--they have sued and won and got that 
child a better education because he is a handicapped child--
says you have to cover your costs. Does that include expert 
fees or not? Read the word ``costs.'' I mean, really? Doesn't 
tell you.
    So I will look at purposes, and, therefore, I want to read 
the reports, and I want to read the debates, and I want to read 
what people have in mind. Not everyone wants to do that. I find 
that enlightening, because I think it is terribly important 
that the courts bring their decisions in line with the purposes 
of those who passed the bill in Congress.
    However, you say, is there anything we can do? It is hard 
to resist that question. Since I worked in Congress for a 
while, I would say if I have one single thing you would really 
do is don't circumvent your own processes.
    When I worked on the staff, I mean, we would spend a lot of 
time over in the Senate Judiciary Committee going through 
hearings and showing the drafts to everybody interested so we 
could get advice from them and trying over time to get the 
words to mean what you want it to mean. That is a time-
consuming process.
    So when we have in front of us a bill and the words in the 
bill are unclear and I know this is a floor amendment, I don't 
say I sort of shudder, but I think it may not be quite as 
clear, and it is going to be harder for me than if the process 
had been gone through and there had been hearings and debate 
and discussion just like the 12th grade civics books says that 
is what happens in Congress. And the more that is, the easier 
our job is.
    Mr. Yoder. Great. Thank you, Justices.
    Madam Chair, I yield back.
    Mrs. Emerson. Thank you so much, Mr. Yoder.

                            Closing Remarks

    I really do want to thank you all so very much, not only 
for your service but for taking so much time out of your very 
busy schedules to be here today. I never thought that we would 
ask a Supreme Court Justice about their tweeting, but, 
nonetheless, it shows how times have changed and--pardon me?
    Mr. Serrano. I tweeted on behalf of all of us.
    Mrs. Emerson. Oh, did you? Thank you.
    Well, you have to say yes that you follow Justice Breyer, 
though.
    Mr. Serrano. I said that that they were here, and I can run 
for President.
    Mrs. Emerson. I am certain all of the people who would love 
to follow Justice Breyer will be asking him today, based on 
your comment, Mr. Serrano.
    But, seriously, you all perform a very, very important 
function for this government and for our country; and for that 
I am very grateful. Thank you.
                                          Thursday, March 17, 2011.

                OFFICE OF MANAGEMENT AND BUDGET, GOVERN-
   MENT ACCOUNTABILITY OFFICE, AND GENERAL SERVICES ADMINISTRATION--
                    INFORMATION TECHNOLOGY OVERSIGHT

                               WITNESSES

VIVEK KUNDRA, CHIEF INFORMATION OFFICER, OFFICE OF MANAGEMENT AND 
    BUDGET
DAVID POWNER, DIRECTOR, INFORMATION TECHNOLOGY MANAGEMENT, GOVERNMENT 
    ACCOUNTABILITY OFFICE
STEVEN KEMPF, COMMISSIONER, FEDERAL ACQUISITION SERVICE, GENERAL 
    SERVICES ADMINISTRATION
    Mrs. Emerson. Okay, the hearing will come to order. Thank 
you all so much. Can I ask the recorder if you can hear me? 
This microphone it is not doing anything. All right. Here we 
go.
    The purpose of today's hearing is to examine the Federal 
government's acquisition and management of information 
technology.
    The Federal government spends $80 billion a year on IT and 
has had a troubled past trying to implement well intended IT 
projects. This has resulted in billions of dollars of waste. 
There have been high profile IT development failures that have 
made the headlines, such as the FBI's new case management 
system, the VA's financial management systems, and the Census 
Bureau's attempt to develop handheld computers for the 2010 
census.
    But there have also been numerous other failed projects 
that do not necessarily make the news, but have cost the 
taxpayers millions without providing any benefits.
    Within the jurisdiction of this Subcommittee, several 
agencies are attempting major IT overhauls, including the 
National Archives, OPM, the SEC, the SBA, and the IRS. Among 
those agencies, OPM, the National Archives and SBA have all 
recently experienced major setbacks. As the Committee works to 
reduce spending for the fiscal year 2008 levels, we can no 
longer throw resources away on failed IT projects.
    We have asked the witnesses to be here today to inform the 
Committee on actions the executive branch is taking to improve 
the contract and program management of IT projects to ensure 
that the taxpayers are receiving a return on their $80 billion 
per year investment.
    Our witnesses today are Vivek Kundra, the U.S. Chief 
Information Officer. Mr. Kundra is leading the Office of 
Management and Budget's efforts to reform IT management. He has 
issued a 25-point implementation plan to reform Federal 
information technology management. And the plan includes 
holding agencies accountable for IT development programs 
through periodic reviews, which are referred to as ``TechStat 
sessions,'' using cloud-computing to reduce costs and improve 
performance; consolidating data centers across government; and 
improving IT development processes, procurement vehicles, and 
staff skill sets.
    We also have David Powner from the Government 
Accountability Office with us today. Mr. Powner has 20 years of 
experience on information technology issues in both public and 
private sectors. Currently, he is responsible for a large 
segment of GAO's IT work, including systems development, IT 
investment management, health IT, and cyber-critical 
infrastructure protection reviews.
    Our last witness is Steven Kempf, the Commissioner of 
Federal Acquisition Service at the General Services 
Administration. GSA contracts acquired approximately $22 
billion of IT products and services on behalf of the Federal 
government each year, and we are interested in how GSA is 
working to improve acquisition and contract management for 
Federal agencies and for itself.
    Many welcomes to each of you all, and we appreciate very 
much your attendance today. Before I recognize Ranking Member 
Serrano, I would like to wish him, the witnesses, and everyone 
else with us today a happy St. Patrick's Day. And you 
remembered to wear green. I overslept, so it didn't occur to me 
to remember it was St. Patrick's Day.
    Mr. Serrano. Just call me O'Serrano today.
    Mrs. Emerson. O'Serrano today.
    Mr. Serrano. We are all Irish, especially back home in New 
York. I would like to welcome our witnesses to today's hearing. 
I am interested to hear your testimony on new efforts to 
improve and efficiently upgrade our government's IT systems and 
to reduce duplication of services. As any longtime member of 
the Appropriations Committee can tell you, information 
technology upgrades across the government agencies have 
historically been the bane of an appropriator's existence. The 
number of agencies that have undertaken an IT upgrade and 
completed it on time and under budget can be counted on one 
hand. It rarely matters what agency we talk about, whether it 
be the FBI, or the Department of Defense, they have all had 
trouble upgrading their computer systems to meet today's needs 
in a timely and cost-effective fashion.
    Also, too frequently, we end up with systems that, when 
finished, are already out of date, are ineffective to the 
current needs of the agency, or both. Although some agencies, 
such as the IRS, have gotten their IT upgrades back on track, 
others have yet to do so. I am interested to hear more about 
government-wide policies and programs that can help us save 
money, reduce duplication, and better serve the American 
people. And I am hopeful that your plans to structure 
infrastructure and other technologies across federal agencies 
will help us to achieve these goals.
    Before I end, the other day we had the Securities and 
Exchange Commission, and one of the questions was, ``While you 
are trying to oversee and regulate, are the folks that caused 
the problem in the first place better equipped technology-wise 
to outgun you at any level?'' So this is more, at times, than 
meets the eye. It is not just doing our work, it is making sure 
we do the right work, and defend our agencies and our country 
from other folks. Thank you so much for being here today, and 
thank you.
    Mrs. Emerson. Thank you, Mr. Serrano. As I mentioned to you 
all earlier, we are anticipating a vote at 10:15, so I am going 
to ask that you try to keep your statements at five minutes or 
below, so we can at least hear all of them. And we will attempt 
to do some questions prior to us having to go to vote. So, let 
me now recognize Mr. Kundra for an opening statement, and thank 
you so much, Mr. Kundra, for being here, and for undertaking 
the incredible amount of responsibility you have in trying to 
get this all squared away for the Federal government.
    Mr. Kundra. Good morning, Chairwoman Emerson, Ranking 
Member Serrano, and Members of the Subcommittee. Thank you for 
the opportunity to testify on the administration's ongoing 
efforts to reform Federal IT management and oversight. For too 
long, we have witnessed runaway projects that waste billions of 
dollars and are years behind schedule. By the time some of 
these projects launch, if they launch at all, they are already 
obsolete.
    At the same time, the government has built out redundant 
and inefficient IT infrastructure. Since 1998, the number of 
data centers across the Federal government has grown from 432 
to 2,094. This is why, for the past 25 months, we have focused 
on reforming federal IT to cut waste and boost performance. We 
have cracked down on wasteful IT spending, eliminated 
duplicative infrastructure, and saved money through game-
changing technologies and approaches. Through relentless 
oversight, we have delivered $3 billion in life-cycle cost 
reductions on major IT investments, and cut in half the time it 
takes to deliver system functionality to end users.
    We have already saved millions of dollars by deploying 
cloud-computing technologies, and are in the process of 
shutting down at least 40 percent of the data centers across 
the Federal government by 2015. To get a better return on IT 
investments for the American people, we have transformed how we 
manage technology projects. We are using transparency to shed 
light on government operations and holding managers accountable 
for results. And we have reached beyond the four walls of 
Washington to make sure that we have access to the best 
technologies and the most innovating thinking on how we 
fundamentally change the way we manage IT.
    In June 2009, we launched the ``IT Dashboard'' to shine 
light on the performance of over 6,800 Federal IT investments. 
Using the IT Dashboard, anyone from agency officials, to the 
American people, can identify and monitor the performance of IT 
projects.
    However, it is not enough to simply shine light and hope 
that performance improves. That is why in January 2010, we 
launched TechStat accountability sessions, to make the tough 
decision to halt, turn around, or terminate IT investments that 
were underperforming. Our reviews have already produced 
results. For example, at USDA, after four years, and a $100 
million in spending, the Department had nothing to show for an 
IT system that manages the delivery of food to 30 million 
Americans. As a result of the TechStat, within six months, the 
system was released to 9,000 system users and vendors.
    At EPA, a TechStat was triggered because its financial 
management system project appeared to be $30 million over 
budget and a year behind schedule. As a result of the TechStat, 
EPA de-scoped their project into manageable increments, and 
will go live on schedule and within budget.
    At the Department of Interior, employees could not even 
send a department-wide e-mail, due to 13 fragmented e-mail 
systems, and after having spent billions of dollars on its' IT 
infrastructure. As a result of the DOI TechStat, it is now 
shutting down 95 data centers, and leveraging cloud-computing, 
which will reduce the life-cycle cost by $500 million of its 
core infrastructure.
    Collectively, our efforts have already led to over $3 
billion in life-cycle cost reductions, and have, on average, 
reduced the time to deliver functionality to end users from two 
years to eight months. We are also leveraging innovative 
technologies to lower the costs of government operations. 
Agencies such as GSA and USDA will collectively save $42 
million by shifting services like e-mail to cloud-computing 
technologies.
    Most importantly, we have used the learning from our work 
to date to identify the structural changes required to drive 
sustainable improvements across government. In September 2010, 
the administration released a 25-point plan to reform Federal 
IT management. The implementation plan, developed with input 
from Congress and the private sector, is focused on eliminating 
the structural barriers that get in the way of consistent 
execution. The plan provides specific deliverables in six month 
increments, and focuses on achieving operational efficiency and 
making sure that we are effectively managing large-scale IT 
programs. We know we can deliver results because we already 
have. In the past 25 months, we've accelerated delivery of IT 
functionality, re-scoped and terminated projects, and saved 
money. But we must continue to scale practices that we know 
work, and drive execution to make Federal IT programs perform 
at the level the American people expect and deserve. Thank you 
for the opportunity to testify. I look forward to any questions 
you may have.
    Mrs. Emerson. Thank you so much, Mr. Kundra. Mr. Powner.
    Mr. Powner. Chairwoman Emerson, Ranking Member Serrano, and 
Members of the Subcommittee, we appreciate the opportunity to 
testify this morning on IT acquisition oversight. GAO's work 
for this Subcommittee has highlighted the positive effects of 
aggressive Congressional oversight at the Internal Revenue 
Service. IRS is not perfect, but the many years of this 
Subcommittee's attention to IRS's business systems 
modernization has contributed greatly to their success in 
delivering systems that process our tax returns. OMB plays a 
key role in this oversight. In fact, OMB has been required, 
since 1996, with the Clinger-Cohen Act, to track, analyze, and 
report to the Congress on IT expenditures, which now total 
almost $80 billion.
    To help carry out this role, OMB established several 
oversight mechanisms, including lists of troubled projects, 
starting in 2003, that clearly were not as effective or useful 
to perform the appropriate level of oversight. Under Vivek 
Kundra's leadership, OMB improved its oversight and management 
of IT acquisitions by one: creating the ``IT Dashboard''; two: 
using this information on the Dashboard to hold agencies and 
CIOs accountable; and three: introducing comprehensive IT 
reform. I would like to expand on each of these three.
    First, the IT Dashboard: In June 2009, OMB deployed a 
public website, known as the ``IT Dashboard'' to improve the 
transparency and oversight of approximately 800 Federal 
investments, totaling about $40 billion. The Dashboard presents 
information on cost, schedule, and the CIO assessment, among 
others. Today, the Dashboard shows that nearly 40 percent of 
800 investments are in need of management attention due to 
their red or yellow status. More simply put, this equates to 
300 investments totaling $20 billion that are at risk. I would 
like to repeat those numbers. We have 300 investments totaling 
$20 billion that are at risk, and this is only looking at a 
universe of $40 billion.
    In addition to identifying troubled IT projects, the 
Dashboard is an excellent tool to identify duplicative 
investments that could result in significant savings. We have 
ongoing work for the Congress on this duplicative spending. 
Despite this improved transparency, data reliability remains an 
issue, as our work has shown that the Dashboard information is 
not always accurate and consistent with agency records. OMB and 
agencies acknowledge this, and have a number of activities to 
improve the Dashboard and the accuracy of what is being 
recorded.
    OMB has improved the management of IT investments needing 
attention by holding TechStat sessions. These meetings started 
in January 2010 and are led by Mr. Kundra and agency 
leadership. Well over 50 of these meetings have been held and 
the results are impressive. Four projects have been canceled 
and 11 have been restructured. OMB has claimed that these 
efforts have saved $3 billion.
    OMB has also identified 26 high-priority projects that have 
undergone extensive review and resulting corrective action 
plans. One of the high-priority projects is the National 
Archives Electronic Records Acquisition. Our work for the 
Subcommittee over the past years has highlighted the 
mismanagement and major cost and schedule issues associated 
with this acquisition. It is one of the projects that OMB is in 
the process of restructuring. Although OMB has significant 
results with its TechStat and high-priority projects, many more 
projects are in need of OMB and agency oversight.
    In addition to the Dashboard and TechStat sessions, OMB 
recently issued comprehensive IT reform that includes 
replicating TechStat sessions throughout the government to 
improve governance and program management. Many of the 
initiatives are consistent with our body of work on IT 
acquisition, and to its credit, OMB has issued aggressive 
milestones over the next 18 months. Now the challenge lies in 
implementation.
    In summary, OMB's efforts to improve transparency through 
the IT Dashboard, to improve IT acquisition through its 
TechStat sessions, and its IT reform initiatives are 
encouraging. But the accuracy of the Dashboard needs to 
improve. Even more focus needs to be put on the $20 billion at 
risk. And the major IT initiatives now need to be implemented.
    I would like to conclude by commending this Committee and 
Mr. Kundra's leadership on IT oversight. I would be pleased to 
respond to questions.
    Mrs. Emerson. Thank you so much Mr. Powner. Mr. Kempf.
    Mr. Kempf. Thank you. Good morning Madam Chair, Ranking 
Member Serrano and Members of the Subcommittee. My name is 
Steven Kempf. I am the General Services Administration 
Commissioner for the Federal Acquisition Service. Thank you for 
inviting me to appear before you today to discuss how GSA 
supports government agencies with IT purchasing. GSA is 
committed to improving the ease of acquisitions for customers 
through training, tools, and services that assist the 
government's acquisition staff to be more productive, 
effective, and make better informed purchasing decisions for 
their agencies.
    GSA is capitalizing on our unique opportunity to use our 
government-wide perspective and expertise, along with our 
centralized procurement role to improve the effectiveness of 
government and delivering lower cost to taxpayers.
    The Federal Acquisition Service (FAS), as a whole, is 
responsible for over $52 billion in annual spending. Of this 
amount, approximately $21 billion reflect government spending 
to acquire IT products and services. FAS operates a suite of IT 
acquisition programs, including the IT Multiple Award Schedule 
70, government-wide acquisition contracts (GWAC), the network 
services contracts, and select strategic initiatives like 
``SmartBUY''. These programs offer our customers the complete 
range of IT products and services to meet virtually any IT 
need.
    Aggregated purchasing is a widely accepted practice in many 
organizations, both public and private and is viewed as 
particularly beneficial where unique purchasing expertise and 
large volumes of common requirements, as is often the case with 
IT purchasing, can be more broadly leveraged. For example, 
GSA's Federal telecommunications contracts, like Networx, 
leverage the government's buying power to drive aggregate 
annual savings to customers. These savings total hundreds of 
millions of dollars when benchmarked against comparable 
commercial offerings.
    Similarly, since its inception in 2003, GSA's SmartBUY 
program has generated savings for the government's software 
purchases approaching $1 billion. The SmartBUY program works in 
collaboration with DOD's Enterprise Software Initiative to 
establish blanket purchase agreements against IT Schedule 70 
contracts for frequently licensed, commercial off-the-shelf 
software and software related services.
    We continue to manage additional opportunities to apply 
this Strategic Acquisition Model to further realize savings for 
the American taxpayer.
    Another example is our Commercial Satellite Effort where we 
partnered with the Department of Defense. This commercial 
satellite communications initiative, we call ``COMSATCOM,'' 
combines GSA and Defense Information Systems Agency, technical 
and acquisition expertise and experience to reshape the 
Schedule 70 commercial satellite offering for services, and 
efficiently delivers end-to-end solutions available to all our 
government customers by using a single collaborative 
acquisition to replace multiple existing contracts. This 
approach is expected to greatly reduce acquisition costs.
    A final dimension of our value is GSA's ability to shape 
technology markets in a way that delivers better technical 
solutions. GSA has been mentioned in various cyber-security 
reports as using its procurements to improve the cyber-security 
posture of the nation more broadly. Specifically, GSA partnered 
with the Department of Homeland Security to develop a trusted 
Internet connection managed service. This has shaped the 
government's cyber-security market, and provided leadership to 
the commercial sector on how to effectively deliver new cyber-
security solutions. By reducing the number of Internet 
connections in government networks, and improved security 
filtering, this service protects government networks against 
sophisticated cyber-attacks.
    GSA has also moved out to offer new and innovative products 
and services that can help to lower the cost of IT service 
infrastructures for virtually all government operations. One 
example is cloud-computing services, an emerging computing-as-
utility service model, which is becoming widely embraced both 
within and outside the government. Our cloud-computing 
solutions have the potential to substantially reduce IT capital 
spending, while providing Federal agencies with flexibility and 
speed, allowing them to focus on their mission-critical 
activities, while easily leveraging technology advances. Last 
fall, we awarded contracts for infrastructure as a service, and 
are working to complete contracts for e-mail as a service later 
this year. The more agile IT solutions, like cloud-computing, 
and shared software services, reduce the need for expensive, 
redundant infrastructure, while lowering energy costs. For 
those customers who may not have the internal resources 
necessary to manage parts, or all, of an acquisition, GSA also 
offers an assisted fee-based service to support such needs. 
Last year, GSA's Assisted Acquisitions Services program managed 
about $4 billion in IT and professional service contracts. In 
total, our many programs make IT purchasing easier for our 
customers. We continually look to provide the latest 
technology, and the most effective way of procuring that 
technology, to improve our customers mission-performance while 
lowering the cost of government for all. Thank you for the 
opportunity to testify today, and I am happy to answer any 
questions that you might have.
    [The statements of the witnesses follow:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Mrs. Emerson. Thank you so much, Mr. Kempf. Thank you all 
very, very much. I want to direct my first question to Mr. 
Kundra, and I want to commend your efforts. I think you are 
doing a really good job in what I consider to be a very complex 
and somewhat challenging role. Let me ask you, can you give any 
agency or Department of the government an ``A'' for their IT 
systems?
    Mr. Kundra. Unfortunately, no. And the reason is because 
there are major structural barriers that get in the way of 
their ability to actually execute. What I mean by that is if 
you look at IT, for example, in terms of how quickly 
development moves forward, but when we appropriate money for 
IT, in terms of the budget cycles, it takes two-plus years. And 
given Moore's Law, IT is evolving so fast, so agencies are 
having to predict two years out what their projects are going 
to look like.
    Secondly, if we look at program management across the 
federal government, one of the challenges we found was that 
program management is not even a professional career tract. And 
these are people who are managing billion dollar projects. Yet 
what ends up happening too often is that somebody who has been 
working at a government agency for a while is plucked out of 
their role, and suddenly they are told, ``Well, you managed a 
$10 million project, let's now have you manage a billion dollar 
project.''
    Third, I think the lack of effective engagement with 
industry, where the private sector and the public sector--there 
are lot of myths around what the government can do in terms of 
engaging the private sector and some of the most innovative 
companies in this country as they are thinking about the 
problem. So what ends up happening is a lot of agency officials 
are frozen, in terms of their thinking of technology, in the 
1990s, 1980s, or 1970s, for that matter, as they are writing 
out these procurements. So, what we found as we met with every 
single agency, as we sat down with Congress, the private 
sector, is that there are a number of barriers that actually 
get in the way of effective execution. And it is not because 
government officials or private sector companies wake up every 
day and they say, ``Hey, how do I make sure this project 
fails?'' I think we have a number of structural barriers that 
we need to take on. And that is one of the reasons we put 
forward a 25-point plan, where we have been very specific. 
Because part of what we also want to do is move away from this 
model where the government has to own and build everything. Why 
can't we leverage technologies from some of the most innovative 
companies? So we are trying to shift from this model of asset 
ownership to service provisioning, so that if there is a better 
private sector solution, that should be the default. We 
shouldn't go out there and try to build a multi-million, multi-
billion dollar system, when we can procure it from the private 
sector for pennies on the dollar.
    But I think those reforms, coupled with the management 
attention that we are bringing forward in terms of oversight, 
are going to move the ball forward. What I will point out, 
though, is where we are seeing a lot of great work happen, for 
example, at VA with extensive oversight. But we are at a point 
in terms of the history, as Dave pointed out, where you still 
have billions of dollars of IT projects that are frankly behind 
schedule and significantly over budget, and we are very focused 
on making sure number one, the American people know how that 
money is being spent, and number two, that we are taking 
concrete actions to crack down on wasteful IT spending and 
eliminate duplication.
    Mrs. Emerson. Okay, let's just do a hypothetical example 
here. And we will use the Department of Agriculture as an 
example simply because, having served on that Subcommittee, I 
am probably more aware than I need to be, or want to be, about 
their computer systems and how horrible they are because I hear 
it from the farmers, and I hear it from the different agencies 
within USDA. If USDA is trying to upgrade, or they have several 
different things that they want to be able to accomplish with 
their IT system, do they actually go to the Chief Information 
Officer to discuss that? Do they do it among themselves? Do 
they go to the GSA or GAO? What worries me is that you say 
nobody, or not a lot of people, have program management 
experience or training to do this. How has that historically 
happened?
    Mr. Kundra. So, generally what would happen is at the 
Bureau level and Departmental level, you have got an agency 
CIO, and a lot of the IT projects are conceived early on. One 
of the challenges that we face government-wide, unfortunately, 
is the fact that the average lifespan of most CIOs is about 24 
months. And so let's say you have a CIO who comes in the budget 
formulation process at the agency level and has come up with a 
plan, a base-line, and has scoped the project. Then what 
happens is that goes through the OMB processes in terms of the 
budgeting side, where OMB will look at the request and work 
with Congress with the appropriations committees.
    Now the challenge is when you move to implementation. The 
plan was hatched two years before, and the contracting 
processes sometimes end up taking really long, especially for 
these really large-scale IT projects. And when you look at the 
time it takes to actually get the budget, get the contract in 
place, Deputy Secretary Lynn was joking one day, he said, You 
know, after two years, I basically get the budget, where Steve 
Jobs gets an iPhone. And that right there is a major structural 
problem that we are trying to fix.
    To think of how do we actually fundamentally rethink how IT 
is funded; and also, we should not be funding any IT project 
where any CIO in the government, or agency leader, says, ``You 
are going to get a deliverable five years from now.'' One of 
the biggest problems we have discovered throughout our TechStat 
sessions is that deliverables for some of these projects are 
five years out, a decade out. One of the projects we reviewed 
at the end of five years and $40 million: what we got was 
nothing more than a book, and it was architectural documents 
and business reengineering.
    So that is one of the reasons a key to our reform is to 
basically say if you do not have a customer-facing deliverable, 
where users are actually using the system, you need to halt it, 
and re-look at it. And that is what we have done during the 
TechStat sessions, where we have literally halted IT projects.
    One of the biggest problems we find across the Federal 
Government was actually financial systems. That is why we 
halted about $20 billion worth of financial assistance across 
the U.S. Government, because these were over-scoped, they were 
years behind schedule and way over budget.
    But part of what we need to be able to do is, besides 
having accountability where we are providing meaningful 
oversight from an OMB perspective, is to actually solve it at 
the agency level, to make sure that the agency CIOs and the 
agency heads are very focused on this problem.
    Mrs. Emerson. You mentioned barriers to leveraging private 
sector expertise in the newest developments. What are some of 
those barriers?
    Mr. Kundra. Some of it is actually just perceived, in terms 
of the number of myths that are out there, where government 
CIOs believe they can't even meet with private sector.
    Mrs. Emerson. For ethics purposes?
    Mr. Kundra. For ethics purposes or because they believe 
it's going to increase the chances of a protest, it is better 
not to meet with private sector companies.
    My colleague Dan Gordon, who is in charge of procurement 
policy, actually issued the top 10 myths, to demystify and 
dispel those myths, and to encourage greater interaction 
between the public sector and the private sector. Because at 
the end of the day, we don't have a monopoly on the best ideas, 
and there is a lot we can learn as we are thinking about some 
of these problems. And the other thing we are trying to do is 
we are actually building a pre-RFB platform that is going to be 
launched in the next couple of months. And what this pre-RFB 
platform would be is that the government would say, ``This is 
the problem we are trying to solve, and invite the entire 
country to give us some ideas on how you would do it.''
    The other thing that has happened from how we actually buy 
IT, right now there are only two primary mechanisms. One is 
through grants, and second is through contracts. The third path 
is through competitions and challenges. So we worked with the 
Congress to make sure that we were allowing challenges and 
prizes to be part of how we actually can acquire solutions.
    Through the America Competes Act, there's a provision now 
that allows agencies to issue challenges up to $50 million. So 
you can imagine what NASA and DARPA have been doing for years, 
where they've said, for example, ``We are looking for a 
solution that will allow for a car to travel 100 miles an hour 
using traditional energy or alternative energy sources,'' and 
they have got all these start-up companies and innovative 
entrepreneurs to actually deliver two cars that did just that, 
instead of overly specifying what the solution was.
    That is what we're looking to do in the IT arena. To figure 
out why we cannot put a challenge forward and say, ``This is 
the problem we are trying to solve. What is the best thinking, 
and what are some of the most innovative companies that can 
provide a solution?''
    Mrs. Emerson. I would say it is about time. And I am glad 
that you are leading the charge there. Mr. Serrano.
    Mr. Serrano. Thank you. Just listening to you, and this may 
not be totally related, but just an example, you see articles 
every so often saying, Oh, Members of Congress have 
BlackBerries, they have iPads, and they are on social media. It 
is a shock to people that we would be doing that. When the 
answer should be, yeah, we should have done it immediately when 
people started to do it out there. Everybody was ahead of us 
for such a long time. And it seems that we are always trailing.
    So, what is the solution? I mean, can you get government to 
fully understand what we are up against, and that they have to 
be able to compete with the private sector, if you will, not 
only to invite people who may want to work in government, who 
have all these ideas. But secondly, to be able to deliver a 
product, deliver the services. And I bring you back to the 
whole issue with the Securities and Exchange Commission. If 
people like Madoff have better access to IT than the SEC, then 
how do we ever win the war?
    Mr. Kundra. I think there is a huge gap between the public 
and private sector, that we are trying to close. Just to give 
you an example, if you're going to the valley, for example, and 
you wanted to start up a company. And if you went to any 
venture capitalist, and you said, ``I need millions of dollars 
and six months to a year to build up my financial system, or 
stand up my e-mail system, or actually build out a work flow 
system,'' you would get laughed out of the room. Because what's 
happening is a lot of these start-ups now, the way they're 
procuring IT is, for example for financial systems, they will 
provision using Intuit QuickBooks, or they'll go and use, 
whether it's Microsoft e-mail, or Google, or IBM, and when it 
comes to work flow, they may go to sales first and so forth.
    That is one of the reasons, the Administration, we are 
very, very focused on cloud-computing; and we see a huge 
opportunity here for the public sector to actually lead rather 
than trail. And what I mean by that is, we have identified 
approximately $20 billion worth of IT systems that could 
actually move to the cloud. And the reason that is really, 
really powerful is that we can provision these solutions, 
rather than having to build out these custom systems ourselves, 
because one of the things we will not be able to do is actually 
compete for talent effectively, in terms of getting the best 
programmers across the country to work on a project for a 
sustainable period.
    So part of what we want to do is for commodity IT, and what 
I mean by commodity IT, is that this will be infrastructure, e-
mail systems, financial systems, some of the back-end systems, 
we should not be spending billions of dollars because people 
believe in agencies, for example, that they are so special. 
That is one of the reasons we are cracking down in these 2,094 
data centers and making sure we are working with NIST and with 
GSA, that we're putting in place government-wide contracts that 
actually adopt some of these innovative technologies.
    And the reason that is really important is because if you 
look at a consumer space there is Darwinian pressure to 
innovate because if consumers do not like solution A, they will 
move to solution B very fast. In government, unfortunately, 
what ends up happening is one individual or contracting officer 
sometimes ends up deciding a contract for an agency, let's say 
of 120,000 people, and there are not the appropriate incentives 
to innovate and keep updating that software. So victory for 
some of the providers ends up being just winning that contract, 
and making sure that they are keeping down their operating 
costs, as low as possible, and their margins as high as 
possible. So part of what we are trying to do is bring that 
innovative pressure within the public sector.
    Mr. Serrano. Do we have time for one more question?
    Mrs. Emerson. Go ahead. We've got one minute and 29 
seconds, but there are 326 people who haven't voted yet, so I 
think you can go ahead.
    Mr. Serrano. Mr. Kempf, this picture that is being painted 
today, and I believe it to be an honest picture, but it's a 
pretty gloomy picture, in terms of where we are and where we 
should be. Yet, you have been around a long time and had a 
remarkable career in the IT world. Are there any success 
stories? Are there things that are going well? You know, that 
we should build on?
    Mr. Kempf. Sure, recently Mr. Kundra has talked about some 
of the efforts underway. One thing that we are doing at GSA; we 
are going to be converting our e-mail system to a cloud e-mail 
solution from Google, that is actually brought to us through 
our Alliant contract, the GWAC contract with Unisys.
    We expect to save $15 million by going to the cloud. We 
expect to get better service, probably better security than we 
are getting now, better management of the version that we were 
having. So we will get a better system for less money with 
greater flexibility. I think that is a huge win for us. Our CIO 
Casey Coleman has led that effort. It is just one example of 
the cloud.
    Mrs. Emerson. I think we'd better take a quick recess here. 
We have two votes?
    Mrs. Emerson. All right, so we'll be back. Sorry about the 
delay. Thanks.
    Mr. Diaz-Balart [presiding]. Let me just start with a 
couple questions. Thank you, again, for your patience and thank 
you for sticking around during this process of votes.
    Mr. Powner, the GSA has recently moved its e-mail servers 
to the cloud resulting in a reported 50 percent reduction in 
cost; you kind of spoke about that, over 5 years saving $15 
million. Now, GAO looked into this reported savings? Do we know 
that is accurate?
    Mr. Powner. We have not looked specifically at the savings 
associated with the cloud, but we are looking at, for instance, 
a data center consolidation; we are reviewing all 24 plans 
right now looking at savings associated with the data center 
efforts, in particular the aggressive milestone of going from 
2,100 to 800; reducing 800 data centers by 2015. So we are 
going through those plans right now and validating those 
savings that are being reported.
    Mr. Diaz-Balart. Any idea how much we could save across all 
agencies if all agencies used that kind of system, the cloud 
system? Do you have any idea what the overall savings could be?
    Mr. Powner. No, we have not looked specifically at that.
    Mr. Diaz-Balart. Are you going to be looking at that? Are 
you going to have the ability to look at that any time soon? To 
see what the potential savings could be?
    Mr. Powner. Well, one of the things we are doing as part of 
the IT reform efforts, we have a request where we are actually 
looking at all the reform initiatives, including those areas to 
ensure that the 18 month deliverables are in place; and so 
clearly we will be able to report on those savings through that 
initiative.
    Mr. Diaz-Balart. Let me ask you, are we sure that it is 
secure, and that it is dependable? Do we know that yet? For 
example, obviously we cannot have IRS systems go down, or be 
hacked into, particularly during tax season or having leaks of 
people's information. Any idea if that is a system that we know 
is reliable and is secure?
    Mr. Powner. Well, a couple things. When the Federal 
government enters into an arrangement like that those security 
requirements ought to be built in. And also when you start 
looking at data center consolidation from a redundancy point of 
view, you want to make sure there is appropriate back-up and 
disaster recovery. So that is something that clearly you cannot 
lose sight of. But sometimes, also too, that is used as a 
crutch for not moving forward and we do not want that either.
    Mr. Diaz-Balart. Sure. Let me ask Mr. Kempf, if I may move 
on to you. Can you comment on GSA's experience moving to the 
cloud-computing? How has it been, what are the lessons you have 
learned?
    Mr. Kempf. Well, we are just moving into it. So we would 
not have realized our savings yet, because we are just 
transitioning into it. And I think it seems to be moving 
forward well. I think we tried to look at all of those issues 
that you talked about as well, like security issues.
    One of the things that I think, with respect to security, 
is actually we may find that better security is that there is 
better application management in terms of version control and 
updates for security purposes. So, for instance, I think 
sometimes the private sector that is managing a very large e-
mail system of systems, if you will, is better at getting the 
security updates into the system much more quickly, and 
managing the security much more effectively than sometimes we 
can. So I think we may see, indeed, better security than we 
could apply ourselves.
    I also want to add that one of the things that we are doing 
is trying to take the lessons we learned in purchasing this and 
applying it as part of our schedule; we are releasing a 
solicitation for a BPA for e-mail services, so that we can sell 
it much more easily to the other agencies across the Federal 
government. So we are working on that right now, we expect that 
to be awarded sometime this summer.
    Mr. Diaz-Balart. And is it is certain that GSA gets a 
better deal than if the agencies did it on their own?
    Mr. Kempf. We would like to think so. That is one of the 
things. There are two parts to the savings: there is the final 
price that you pay, and then there is the acquisition cost in 
order to get it done, and then also the uncertainties of the 
acquisition to get it done right. So I think what we try to do 
at GSA is one, make sure that we have the right terms and 
conditions for the contract, and then also the right price. And 
then it also makes it much easier for the agencies to buy. So 
that also gives their acquisition people much more time to 
focus in on the mission critical systems, some of the more 
complex one-up systems, rather than the commodities which they 
can depend on GSA for support.
    Mr. Diaz-Balart. Okay. And before we go on to Mr. Serrano, 
he and I and the Chairwoman, when we were walking to the 
elevators to go to vote, we were talking about a comment about 
the contract with, I guess it was with Google, but that it is 
going to Unisys, and we were saying, ``Why do you have to go 
through Unisys?'' I think it was Unisys, ``Why can't you just 
go directly to Google?'' And I'm not quite sure; I think it was 
you, sir, who had mentioned that. It would seem that you could 
just go directly to Google, versus having to go through 
somebody else.
    Mr. Kempf. Right. One of the reasons we used the approach 
that was taken was to include the use of an Integrator. We 
wanted some assistance with the change management, and some of 
the other integration capabilities and collaboration tools. And 
so they are actually doing the training, and those kinds of 
change management responsibilities to ensure greater success in 
uptake of this system, as it gets implemented.
    Mr. Diaz-Balart. And that's something that Google, for 
example, doesn't provide?
    Mr. Kempf. Well, we decided to use the GWAC tool, and the 
services were combined through the integrator, so it is a 
little bit broader in terms of just turning on an e-mail system 
for us.
    Mr. Diaz-Balart. Okay. Mr. Serrano.
    Mr. Serrano. Thank you. Mr. Powner, your testimony very 
clearly lays out the challenges and opportunities of IT 
coordination and consolidation. As you state, the Federal 
government anticipates spending 79 billion on IT systems in 
fiscal year 2011. You have been involved in analyzing IT 
systems for quite some time. Do you feel that agencies are 
ready, at this point, to have a serious and productive 
conversation about IT improvements and cost reduction? Also, 
are CIOs involved enough? Are they invested in this effort?
    Mr. Powner. You know, our work over the years has shown 
that CIOs and executive level attention to IT projects is not 
where it needs to be. And I will give you a couple examples. If 
you go to IRS and you look at their executives and how they are 
engaged with delivering the business systems and modernization. 
There are CTOs in on monthly meetings. Some of the recent 
failures in the government, when you look at electronic records 
archive, or if you look at what happened with the census 
handhelds, there was a problem with program management on those 
projects, but clearly the executives were not engaged to the 
level that they should have been. And our work clearly showed 
that where you have governance meetings, where there are 
executives holding program managers and contractors 
accountable. We do not see that enough across the Federal 
government. So clearly, when you look at Mr. Kundra's 25-point 
plan, that is one of his four major areas: improving 
governance; and that is something he is trying to do through 
replicating the TechStat sessions across the government. 
Frankly, that is something that was called for in 1996 with the 
Clinger-Cohen Act in elevating the CIO position; so that is 
something that, clearly, we need greater attention focused on.
    Mr. Serrano. And in areas like the census issue, where 
something went wrong, are those folks waiting for you to tell 
them what to do, or did they start trying to correct some of 
that themselves?
    Mr. Powner. Well, it is kind of a mixed bag. On the census 
issue, we issued multiple reports. A big problem with the 
Census Bureau was that they didn't define what they wanted with 
the handheld solution. They had a real requirements problem 
early, along with the executive oversight. So that was 
something that there were recommendations made by the GAO, 
frankly, they were internal reports from the MITRE Corporation 
that were well-documented in congressional testimonies, and 
there was not enough attention placed on those recommendations 
and suggestions.
    Mr. Serrano. Let me go back and respond for a second to the 
one that I have mentioned now twice, the SEC. Does the role of 
the CIO at the SEC and other financial regulatory agencies, in 
your opinion, need to be strengthened in order to achieve the 
necessary technology efficiencies that improve agency 
performance? Especially in this new regulatory environment of 
Dodd-Frank?
    Mr. Powner. I have not done detailed work looking at the 
authorities of the CIO at the SEC, but I think, you know, 
collectively, when you look across the board, that is a 
government-wide issue with, authority issue with CIOs. I think 
one of the things that has been very helpful with Mr. Kundra's 
Dashboard, where there was a CIO accountable for each of the 
800 major investments, there is a picture associated with that 
individual CIO, and frankly, some of the CIOs have the 
appropriate authority at certain agencies, and many don't. And 
that continues to be a major issue.
    Mr. Serrano. And so would be, Mr. Kundra, part of what we 
need to do to strengthen these folks and to identify what role 
they play so that we can be in place? I mean, it just seems 
that, and I don't want to sound like some of the guys on the 
other side, but in a very large government, you know, how do 
you get at this if in so many areas the agencies are so far 
behind?
    Mr. Kundra. The way I think you solve it, and part of our 
approach has been to be very, very execution-focused. One of 
the challenges that I see across the board in departments is 
that you have CIOs who sometimes have a self-image that they 
are policy officials. Because it is very easy to attend a lot 
of meetings and talk about issues rather than actually roll up 
your sleeves and look at an IT project, and make the tough 
decisions around: Are we going to stop this because we don't 
want to throw good money after bad money, or are we going to 
terminate it because we know that the likelihood of success is 
approaching zero percent?
    Part of our reform agenda has been very much around making 
sure that we are actually more execution-focused. So we are 
actually re-engineering and fundamentally reassigning the roles 
of the CIOs across every major department. And also, the 
President's Management Council is very, very focused on this. I 
have personally met with deputy secretaries and their CIOs to 
talk about the reforms that we need to drive.
    For example, Deputy Secretary Hayes is providing leadership 
at the Department of Interior, where he has elevated the role 
of his CIO. And on top of that, they have started ``I-Stats,'' 
Interior Stats, very similarly modeled after TechStats. What we 
are doing is we are actually productizing what we came up with 
a model that we know works; we know it produced results. And in 
some ways it is so simple, which is: Get everybody in the room 
who has the ability to fund this project, the managers who are 
responsible for it, the senior leadership, the project manager, 
and make a decision. And the reform agenda is very aligned with 
a lot of the findings from Mr. Powner's work, in terms of what 
has worked, what has not worked over the last decade.
    And what we don't want to do is we didn't want to come up 
with is some type of philosophical strategy. But that is why 
the 25-point plan is broken down into six month increments with 
deliverables that are very, very execution-focused.
    Mr. Serrano. Mr. Kundra, your testimony also talked about 
creating an app-economy. As someone who really likes apps, and 
I might want to show you a little one I have here.
    Mr. Kundra. Oh, I love it.
    Mr. Serrano. Like I said, I am intrigued by the idea you 
are encouraging all people to create apps based on the 
information that the government would normally not share. Can 
you give us an idea of the kinds of apps that have been 
created, and how you see this technology growing?
    Mr. Kundra. Sure. So what has been really exciting in the 
space is that we launched a platform called data.gov in May of 
2009. We started with only 47 data sets. Today, we have over 
305 data sets, 305,000 data sets in every aspect of government 
operations from health care data to data around EPA, and data 
around actually when planes take off and land across the 
country. That has been coupled with actually challenging 
developers across the country to create applications that could 
help the American people, support the American people.
    I will give you an example. At the Consumer Product Safety 
Commission, there is all this data that they have around which 
products have been recalled, which products actually have 
major, major issues that could lead to fatalities.
    There is a developer that took the data from CPSC and 
created an iPhone app called ``Recalls.'' And what this app 
does is it actually allows you, on your iPhone, to see every 
product that has been recalled, with a picture of it. But what 
is really interesting is now you can use your iPhone and if you 
are in a store about to buy a crib, let's say, you can scan 
that crib to see whether that crib has been recalled or not, by 
literally taking a quick picture and it hits a database in the 
back end.
    What has been exciting, when I was talking to CPSC, they 
said, well, they worry, actually, less in some cases about 
products that are recalled that are on store shelves because 
stores move very fast; they worry about products that are 
already in people's homes; because if they have bought them, 
they are not going and checking whether they have been 
recalled.
    So what this allows us to do, by democratizing data, 
getting innovative developers to take advantage of these data 
sets, and build consumer-grade apps, is that we are literally 
shifting power to the American people where they can now scan 
products in their home and see whether the product has been 
recalled or not.
    Another interesting app was an app where people took data 
from the FAA, on average delays and landing times of flights. 
And a developer took this data and built an app called 
FlyonTime.us, and used Twitter so that people who are waiting 
in airport security lines could tweet what the delays were. And 
now you can make an intelligent decision on when you should 
leave your house to catch a flight, because you can actually 
see real-time what the delays are.
    And across the country there is massive innovation 
happening. We are not spending millions of dollars on this type 
of innovation, where we have been able to tap into the 
ingenuity of the American people to create some of the most 
innovative applications. And agencies are now being able to run 
competitions, to say, ``Hey, we are looking for this type of 
application.'' Who can actually develop this type of app for 
us? And it takes, literally, days to months, not years. And 
these projects are not hundreds of millions of dollars, and 
years behind schedule.
    Mr. Serrano. And I can see where this would not create a 
security issue because the information would either be 
controlled by the agency, or in the case of the Consumer 
Product Safety Commission; they were just picking up what was 
available on a website anyway, they were just bringing it 
closer to the person on the iPhone.
    Mr. Kundra. Absolutely.
    Mr. Serrano. I don't have that app, I think I'm going to 
get it.
    Mr. Kundra. There are a couple of other apps that we would 
recommend.
    Mr. Serrano. Is it free, or what?
    Mr. Kundra. It is free. There is ``Recalls,'' FlyonTime.us, 
there are a number of really interesting apps. Actually, if you 
live in Washington, there is an app that allows you to see, on 
your iPhone, based on where you're standing, the closest metro 
station and when the trains are coming in both directions. So 
you can decide when to leave your office. And there are some 
really, really cool apps out there.
    But from a security perspective, what we do worry about is 
what I call the mosaic effect. If data is released, let's say, 
on Medicare, Medicaid, it is one thing if the data is released 
at a State level, but it's another thing if that same data is 
released at a zip code level, because in the rural part of the 
country you may be able to identify an individual. Or data that 
may have an impact on national security; that is why agencies 
go through a process to actually vet that data, and they are 
the ones who make the decision on what data could be put out 
there. And we also make sure that the combination of data sets 
doesn't, in any way, lead to violating the American people's 
privacy or national security risks.
    Mr. Serrano. It is interesting you say that, there is an 
app called ``WikiHood,'' which tells you where you are and what 
restaurants are around you and so on. It also tells you what 
monuments are in the area, points of interest. And in the 
Bronx, the General would be interested in knowing this, it 
lists the elected official, so it listed my son as the local 
Senator, which is true, but it did not list me. I am thinking 
of getting rid of the app, even if it was free. But it is very 
exciting and there is no end to what could happen and it needs 
to be done properly and government can provide a lot of 
information through these apps, you are absolutely right. One 
last question for you Mr. Kundra, the fiscal year 2012 budget 
request includes $60 million for a funding line called 
``Integrated Efficient and Effective Uses of Information 
Technology''. What will you use these funds for, and how will 
this help streamline redundant capabilities at federal data 
centers?
    Mr. Kundra. So this fund is actually devoted on making sure 
that we are cracking down on these duplicative systems, and 
that we are going through and increasing the number of large 
scale IT projects that we are reviewing. So it includes funding 
for the Federal Cloud Computing Strategy to make sure that we 
realize the potential savings, in the billions there; includes 
support for shutting down 800 data centers across the Federal 
government. It includes funding to actually scale the text set 
model government-wide, but also to conduct text sets where we 
are looking at duplication across the government, and actually 
taking actions. What is difficult as you look at these text set 
session, is not the act of just conducting the text set 
sessions, it is actually the follow through and the follow up, 
which takes countless hours and resources to make sure that if 
Agency A has committed to making sure they are going live in 
one month, that we come back a month from there and say, You 
said you would go live, what happened? Or, if they need support 
in terms of engineering talent, to look at some innovative 
technologies like Cloud, and realize similar savings that GSA's 
going to realize; that we are moving forward and identifying 
those types of projects, and actually moving that direction.
    Mr. Serrano. That makes sense. Thank you so much.
    Mr. Diaz-Balart. Thank you Mr. Serrano. When I was 
listening to you there, going back and forth, it was 
fascinating to see the incredible amount of innovation that is 
out there. Going back to the apps issue, basically those are 
Web based? I mean all of these systems are basically Web-based 
when you talk about all of these apps, whether it is on your 
iPhone or BlackBerry or on your iPad, it is all basically Web-
based, correct? And when you mention all of these apps, are 
these private individuals out there who are doing this thing, 
they get the information, they do it on their own kind of 
thing, is that what we are looking at?
    Mr. Kundra. Right, so you have actually two things 
happening, one is you have all of these innovation happening in 
the private sector, and what we have done is, we have built the 
platforms, so government has a platform, and third parties are 
creating some of the most innovative applications that 
government officials could not have even dreamed of.
    Mr. Diaz-Balart. The platform is where you basically 
provide the information right? What do you mean by the 
platform.
    Mr. Kundra. So, what a platform is, it is Data.gov, and on 
that we actually provide machine-readable data sets. And these 
data sets could be everything from Medicare, Medicaid data sets 
on hospital outcomes to whether it is a data set around 
products that have been recalled. A good way to think about it 
is in the same way when the United States military decided to 
release data around GPS, satellite data, it actually gave birth 
to a whole host of companies and innovations to the point where 
now I can go in any new city, or any part of the country and 
navigate it using GPS technology. That is what is happening in 
that space, but also what we are doing is, agencies are using 
the same platform to create apps. So TSA for example has 
created a mobile app that is available on GSAs Website that 
actually allows you to see what you can bring on a flight, 
warning that are happening across the country in terms of 
airports and so forth, and you also have apps that have been 
created by a whole host of other agencies that are providing 
valuable information to the American people.
    Mr. Diaz-Balart. This is just a comment on it, not on you, 
but it is ironic that when see innovation on the Internet, and 
we see the issues that we have, and we understand why; that is 
what you are trying to get to, the issues that we have within 
the government structures and the government systems, which are 
obviously not the most efficient. And yet now we are seeing the 
FCC basically to regulate the Internet which is frankly just 
crazy. If there is a place that has been revolutionary, I mean 
totally revolutionary as far as innovation and access and the 
lowering cost and everything else, it has been the Internet. 
But I guess now the FCC believes that Federal government can do 
better than what has been probably the most revolutionary and 
the most dramatic opening in the history of mankind. The FCC 
believes the Federal government can do better which is, 
frankly, crazy. It is absolutely insane.
    Let me go back to now the issue that we were talking about, 
for example you mentioned the issue of the Census and the 
handhelds. Now when you are looking at doing what you are 
doing, you were talking about the difference between the 
private sector; the private sector has a need to innovate 
because otherwise they are basically out of business and 
individuals in the private sector have a need to make sure they 
are on the cutting edge otherwise their company does not do 
well and they are out of a job. Do you have the ability to 
incentivize those who do well by, for example, bonuses, pay 
increases? And then what are the consequences, going back to 
the Census, what are the consequences for those that made 
decisions, the wrong decisions that cost taxpayers a ton of 
money? Do they get fired, are they out of a job, do they lose 
their pay? Do they get demoted? Specifically what are the 
consequences, and what were the consequences for example, in 
the case of the handhelds with the Census, number one, and do 
you have the flexibility to do what it takes to both have the 
carrot and the stick?
    Mr. Kundra. So I think the incentives and how they are 
lined up, and what happens from an HR perspective, that work is 
happening at the agency level. What I would say is because we 
have not had a formal program management career track, which is 
one of the things that we are working on right now with OPM to 
actually make sure that we hardwire and bake in the very 
incentives that you are referring to, to make sure that where 
we have good people, they move up very quickly in terms of 
making sure that they are recognized government-wide; and where 
you have non-performers that we actually identify those people 
that are not performing under consequences. What we need to be 
able to do is we need to make sure our incentive systems, and 
this is something Director John Berry is working on, and part 
of the OPM reforms around the program management career track 
is that, we do get rid of people who are non-performers; we 
cannot tolerate to spend billions of dollars in IT systems 
where you have program managers that are frankly not managing 
them very, very well. That is one of the reasons, in this 
administration, one of the first things we did is we said there 
is this culture of faceless accountability where everybody has 
pointed at everybody else in terms of why projects fail.
    That is one of the reasons we did what we did with the IT 
Dashboard; not only did we put every project online, but we 
also put the picture of the CIO who is responsible for those 
projects, and that was actually pretty radical because 
everybody hated me at that point and I said, Well, who is 
responsible? And what you would see is they would point to 20 
different people, well if everyone is responsible, nobody is 
really responsible.
    At the agency CIO level now, that picture has had a 
profound impact. I remember when the President looked at the IT 
Dashboard, and we took a picture and put it on a blog, for the 
first time I got calls from various CIOs who were saying, ``Oh 
my God, for the first time I am getting pulled into a meeting 
in my Secretary's office and they are asking me what happened 
with this project, why is it red, why is it yellow?'' And that 
is a level of accountability that we are driving now through 
the text data approach at the agency level to make sure that we 
are focused not just on inputs, which are reports but results. 
What are you doing? And we have committed that we are going to 
be terminating and turning around one-third of the IT portfolio 
that is underperforming.
    Mr. Diaz-Balart. And you think you have the tools and the 
ability to both do that, which is the consequences of those 
actions, but also the tools to incentivize. Obviously there is 
always an element of risk when decisions are made and so 
therefore you have to have both, the private sector has it, the 
carrot and the stick, you have to have them both. And so you 
think you have the tools and the flexibility to be able to 
incentivize those who make the decisions and may take a risk, 
but then hopefully will make the right decision, and then if 
they do they have some sort of incentive; and also the ability 
to discipline those who do not? And you think you actually have 
the flexibility and the tools, the agencies have them?
    Mr. Kundra. Right we are building that in now to the 
program management career track, that is supposed to be done 
within the first six months.
    Mr. Diaz-Balart. Great. Mr. Serrano, do you have any more 
comments or questions?
    Mr. Serrano. I do not have any questions at this time, but 
a comment. Getting back to this apps thing, which really 
fascinates me. I have an app called ``App Advice,'' and every 
day it tells me what new apps are out there. It would be 
interesting, as government goes out there and creates its own 
apps for information and assistance, or as private sector 
creates apps that has government information on it; if there 
was a way, this sounds silly that members of Congress would 
know about this, that we and our staffs could have access to 
those, because there is no way of knowing when there are 
100,000 out there and a couple of hundred come in every day, 
and everything from games to other stuff; there is no way of 
knowing.
    But from what I am hearing here, there is a desire and a 
need for you folks, for us, to begin to move in that direction, 
so there has to be a sort of a central database, if you will, 
that will tell us this is available when it is available. I 
mean this one you just mentioned today, in itself; you would be 
surprised how important that would be to offer that information 
to our constituents.
    Mr. Kundra. I think that is a great idea. What we have done 
is on USA.gov, we have put a number of those apps. But I think 
you are absolutely right, which is it would be much better if 
you had it on a handheld while you are making the decision of 
which app to download. So we will definitely start building it.
    Mr. Serrano. Okay. Thank you so much.
    Mr. Diaz-Balart. Mr. Serrano, obviously it looks like you 
are kind of addicted to apps, there may be an ``Apps 
Anonymous'' app that you might want to look at.
    Mr. Serrano. My favorite is an app that kind of takes the 
embarrassment out of being at a restaurant and looking at sushi 
and saying, I love it, but which one is that? And there is this 
app with these beautiful pictures, and it makes you sound so 
smart, you know?
    Mr. Diaz-Balart. That is amazing. And I think the idea, 
that he just threw out of an app where you can look at what 
apps the government has for different agencies is a great one.
    The Chairwoman will have some questions that she will 
submit in writing. I appreciate, and we all appreciate your 
efforts, and for being here. And thank you again for sticking 
with us during the votes. And with that, I think this meeting 
is closed.
    Mr. Kundra. Thank you very much.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
                                          Thursday, March 10, 2011.

                   EXECUTIVE OFFICE OF THE PRESIDENT

                                WITNESS

ALLYSON LAACKMAN, CHIEF FINANCIAL OFFICER, EXECUTIVE OFFICE OF THE 
    PRESIDENT
    Mrs. Emerson. This hearing will come to order. Thank you so 
much for being here today.
    And because Mr. Womack has to leave, I am going to let you 
go ahead and open it up. If you would like to make a statement 
or something, go ahead.
    Mr. Womack. I apologize, Madam Chairwoman, because I have 
got three meetings that I am involved in that all start right 
now.
    Mrs. Emerson. I understand.
    Mr. Womack. I have been accused of being able to do a lot 
of things, but splitting myself three ways is just simply not 
one of those.
    Thank you very much in advance for your testimony this 
morning. I just have a couple of questions, and then I will 
excuse myself.

                 IMPACT OF SPENDING REDUCTION PROPOSALS

    But you know we are cutting. It is a well-known fact that 
we are attempting to cut spending back to 2008 levels or below, 
with emphasis on the ``or below,'' because I think that is a 
direction that a lot of my colleagues would like to have. As 
far as the Executive Office of the President, how does that 
level of funding affect you?
    Ms. Laackman. A 2008 level would actually be very 
challenging for the Executive Office of the President for a 
variety of reasons. The President relies on the Executive 
Office of the President as his primary support in fulfilling 
his constitutional duties. That support includes things such as 
protecting national security and economic interests, working 
with Congress, all the way to providing secure and reliable IT 
systems that ensure we have adequate communication data and 
records management processes. The level of funding that is 
proposed by the 2008 level would impair our ability to deliver 
on those responsibilities.
    Things have changed a lot since 2008. Some of our budget 
categories have costs built into them that we can't just 
reverse. For example, our career staff have wage rates that now 
include 2 years of COLA adjustments and 3 years of within-grade 
increases that can't be reversed.
    We are also faced with rent costs that are locked in at 
least a year in advance, and they have certainly gone up since 
2008.
    Additionally, our investment in our IT infrastructure, 
which Congress has been wonderful in supporting to address 
problems noticed in previous administrations, has grown 
significantly. It is now about 12 percent of our budget.
    And then the third impact of the 2008 scenario, as we 
understand it, is that it would revert back to the component-
specific budgets which would not take into consideration the 
realignment we have done within the EOP to make sure we have 
addressed changing priorities.
    For example, given the current national security 
environment and the economic conditions, we have shifted some 
of our funding among the components to make sure all the 
priorities are met. As a result, even though 2008 levels would 
overall be an average 8.1 percent cut, in addition to what we 
have already taken in our 2012 request, it would actually hit 
the National Security Council and Homeland Security Council at 
a 33.9 percent reduction level.
    It would also impact the Office of Administration which 
supports, among other things, the secure IT environment, at a 
20.8 percent level, as opposed to the average of 8.1 percent 
that we would take overall.
    So when you combine that with our basically static cost 
structure, 61 percent of our costs are for personnel, 10.7 
percent has to do with rent, and 12 percent is for IT systems, 
it would be really challenging to be able to still support the 
President at a level commensurate with his constitutional 
responsibilities.

                         FY 2012 BUDGET REQUEST

    Mr. Womack. I have a great deal of respect for the Office 
of the President. I don't want anything said in this hearing to 
infer anything otherwise. But having served in the executive 
branch of government, albeit at a municipal level--and there is 
a huge difference between a mayor and the President, I 
recognize that completely--when faced with serious budgetary 
and/or other fiscal issues, I always found that in order for me 
to adequately challenge or motivate my subordinate levels of 
government to make the hard choices and take those cuts, I 
always subscribed to the philosophy of leading by example.
    And I think if there is one thing that concerns me is we 
are asking Americans across the country to do with 
significantly less, to expect less from their government. And 
yet, if I remember correctly--and I don't have the number in 
front of me--that the budget request is--what--a point and a 
half lower than previous budget, is that----
    Ms. Laackman. It is actually 4.2 percent for the financial 
services components, including our programs.
    Mr. Womack. Okay. But the overall--the White House budget 
is $58 million.
    Ms. Laackman. That is the White House-specific budget.
    Mr. Womack. The White House-specific budget. And I believe 
that we should expect more leadership in the reduction of costs 
arena if we can find it.
    So, you know, I just say that. That is just a matter of 
personal feeling that I have that the chief executive officer 
of the organization should do everything they can to lead by 
example and do a complete analysis of all of the programs--and 
I realize a lot of it is personnel, and you have got some IT 
structure in there that is very important and costly. I mean, 
Congress cut its budget by 5 percent. The Appropriations 
Committee cut its budget by 9 percent. We are doing the things 
at the committee level and in the congressional office level 
that I think are sending that statement to Americans that we, 
too, are having to do more with less. So I challenge your 
office to continue looking in that environment.

                         CLIMATE CHANGE BUDGET

    How much of the Executive Office of the President's budget 
is geared toward climate change, to combating climate change?
    Ms. Laackman. We don't actually assign costs to specific 
offices within the White House in particular. And recently, I 
think there was an article in the paper that announced this as 
well, but we have done a reorganization that has been a while 
in the planning. So all of the efforts related to policy 
development and other matters related to climate change are now 
within our Domestic Policy Council, so we don't specifically 
have an office dedicated to that.
    Mr. Womack. Is it significant?
    Ms. Laackman. It is part of a multitude of functions that 
the people are responsible for within there. So we have a 
Domestic Policy Council, and that is one of the areas for which 
they are responsible for developing policy.

                           ECONOMIC ADVISORS

    Mr. Womack. And then, according to my information, the 
intent is to hire and fund another economic advisor. In what 
area of responsibility are we talking about? And is it 
necessary?
    Ms. Laackman. You know, I am sorry. I don't know 
specifically about a hiring plan for an economic advisor. I am 
happy to take that back to the White House and find out what 
their specific hiring plan is.
    Mr. Womack. Okay. Fair enough.
    [The information follows:]

    President Obama was faced with an unprecedented economic crisis 
when he took office in 2009--the worst since the Great Depression--
which has put corresponding demands on the staff and resources of the 
Council of Economic Advisers (the Council or CEA). The Council's 
mission is to provide the President with objective analysis and advice 
on the development and implementation of a wide range of domestic and 
international economic policy issues. In addition to CEA's regular 
functions, such as preparation of the annual Economic Report of the 
President and analytical assistance preparing the President's annual 
Budget proposals, the Council now has additional responsibilities as a 
result of the crisis, including producing quarterly reports to Congress 
on the economic impact of the Recovery Act. An additional $203,000 is 
requested in the FY 2012 Budget Submission to provide additional staff 
to aid in the preparation of such reports, as well as conduct necessary 
research and analysis as economic policy shifts from crisis to recovery 
and fostering growth. This staff will likely join CEA through temporary 
fellowships from universities and research institutions, which allows 
CEA to draw highly qualified economists at a relatively low cost.

                           DEFICIT REDUCTION

    Mr. Womack. I would just go back, as I conclude my remarks. 
As everyone knows, these are very difficult times. And in your 
testimony I have picked up on the fact that you remind us that 
the President is wishing to aggressively get after deficit 
reduction. I firmly believe that, with all respect to the 
Office of the President, that that is where Americans look very 
closely to, what we can do from the chief executive down, to 
impart this sense of fiscal responsibility and accountability 
so that Americans know that it is happening at every level of 
government; and, respectfully, I would like for that message to 
be articulated to the highest level of our government.
    Thank you very much.
    Ms. Laackman. I will make sure that happens. Thank you very 
much.
    Mrs. Emerson. Thank you, Mr. Womack.
    Mr. Womack. Thank you, Mrs. Emerson.
    Mrs. Emerson. What I will do is submit my formal opening 
remarks for the record.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
                 IMPACT OF SPENDING REDUCTION PROPOSALS

    Mrs. Emerson. And let me just say for my colleagues, 
because we are going to have a separate hearing with the Office 
of Management and Budget and the Office of National Drug 
Control Policy, we are not going to talk about those pieces 
today. We will just talk about the White House, the Office of 
Administration, the National Security Council, the Council of 
Economic Advisers, and the Vice President.
    I also just want to just say one thing about Mr. Womack's 
remarks. Having not totally finished reading the Simpson-Bowles 
Commission report, I did note, however, that they suggested a 
15 percent cut in the White House Executive Office of the 
President; and I am assuming, based on your remarks to Mr. 
Womack, that that would be quite problematic.
    Ms. Laackman. It would be similarly challenging, especially 
in the near term. We support the concepts and the objectives of 
the fiscal commission's findings. To do that within the 
Executive Office of the President in the near term could have 
actually a negative impact in supporting deficit reduction by 
creating the loss of personnel that are actually geared toward 
helping develop those solutions. We would have a 
disproportionate cut to the number of staff and IT systems that 
in the short term could reduce our efficiency and effectiveness 
to deal with these responsibilities disproportionately compared 
to the short-term savings it could generate.
    Mrs. Emerson. Okay. And I thank you for that.
    I am going to let Mr. Serrano, our ranking member, speak 
for a minute. I am sort of doing this loosey-goosey because we 
are in this room.
    Mr. Serrano. Yes, very much so.
    We have a request similar to Mr. Womack's.
    Mrs. Emerson. Ms. Lee, then you go. As long as it is fine 
with Joe, it is fine with me. Please go on ahead.
    Ms. Lee. Thank you very much, and thank you very much for 
yielding. I have another meeting to attend.
    Mrs. Emerson. I know. It is crazy.
    Ms. Lee. So thank you, Madam Chair. Thank you very much. It 
is good to see you.
    Ms. Laackman. Thank you.

                         FY 2012 BUDGET REQUEST

    Ms. Lee. You know, I appreciate the administration 
demonstrating their commitment to reducing the deficit by this 
proposed 4.2 percent budget cut. But we have to also remember 
what caused this deficit in the first place: the two wars, tax 
cuts for the very wealthy, also failing to restrain Wall Street 
by really gambling the future of the entire economy on other 
people's money. So we can't forget that.
    And I personally believe that, of course, the White House 
should not even come in with a proposal to cut. To me, that is 
unacceptable. I think you should have a boost. Because I know 
the staff changes that have taken place. I know you are trying 
to consolidate and, you know, have a White House that is 
efficient, but I also know the challenges are enormous. So I 
personally think you guys should not request that cut. But that 
is my personal opinion.
    A couple of things I wanted to ask you. One is, just in 
terms of the organization of the White House now--and I have 
got to relate this to the whole State of the Union speech and 
just how that is organized, knowing that there are policy 
recommendations in the speech.

                                EARMARKS

    But the lines in the speech that said the President will 
veto any bill that comes to him with earmarks, I am kind of 
interested in how that evolved over there, if you know, 
because--and I am saying this every chance I get, that cutting 
congressionally directed funding, banning earmarks now has 
created a huge hole especially in communities that I know the 
President cares about, in communities of color, the African 
American, Latino, and Asian Pacific American communities, 
community clinics, educational programs, after-school programs. 
You know, these organizations thrive and survive on seed money 
to help them leverage additional funds to be able to create the 
jobs and provide the services that the Federal Government won't 
provide. So now they are left in a lurch, a total lurch.
    So I am curious about how that was put together over there, 
staff-wise, and how that recommendation came out and if, in 
fact, impacts on communities were considered and what you 
intend--we have written a letter on this--to backfill those 
resources that were lost.

                     OFFICE OF NATIONAL AIDS POLICY

    Secondly, let me just ask you about the Office of National 
AIDS Policy within the Executive Office. I am really pleased 
that the President is moving forward with the national aids 
strategy. How does that fit into the overall budget 
recommendations now and will that office be fully funded so 
that we really can begin to effectively implement this overall 
HIV/AIDS strategy?

                 OFFICE OF MINORITY AND WOMEN INCLUSION

    And the new Office of Minority and Women Inclusion, how 
does the White House see its role in making sure that the 
financial services companies will be more inclusive and 
diverse, given the financial regulatory reform bill that we 
passed and he signed into law. How is that happening?
    Thank you very much.
    Ms. Laackman. Thank you. Those are wonderful questions.

                                EARMARKS

    As it relates to earmarks, though, and specific objectives 
of an office, those are more policy questions; and so in my 
role as the financial person at EOP I wouldn't really be able 
to speak to that.
    Ms. Lee. Would you ask someone to respond?
    Ms. Laackman. I will definitely pass it back to the 
appropriate people at the EOP. And I understand you have a 
letter out, and I am sure you will hear back. But I will make 
sure that they know that the request was made today.
    Ms. Lee. Thank you.

                     OFFICE OF NATIONAL AIDS POLICY

    Ms. Laackman. As far as the Office of National AIDS Policy, 
we didn't specifically ask for the set-aside amounts or the 
targeted amount of $1.4 million which we have used for the last 
couple of years; and that is not because we didn't have any 
intention of meeting that budget. We spent almost a full $1.4 
million last year, within $20,000 of that amount; and we have 
no plans to reduce that.
    I think our reason for not specifically isolating that 
funding is to allow for the most flexibility to support all of 
the objectives of all of the offices within not just the White 
House budget but then also within the specific components. We 
are very proud of the work that has taken place so far and ONAP 
can help in those efforts.

                 OFFICE OF MINORITY AND WOMEN INCLUSION

    Ms. Lee. Okay. And the Office of Minority and Women 
Inclusion which was included in the Frank-Dodd reform Act, how 
does the White House ensure that the best practices in all of 
these agencies are going to be implemented?
    Ms. Laackman. As to their specific workings, I couldn't 
speak to that, because that is more the policy arena and the 
responsibility of the people running those offices.
    I could just tell you in general that the way the White 
House runs its budget is to make sure all of our initiatives 
and priorities are properly staffed and funded with support, 
and I can assure you that there are no plans to do less than 
that for an initiative such as that.
    Ms. Lee. But someone within your budget will have that 
responsibility as part of their responsibilities?
    Ms. Laackman. Staff? I don't know this specifically. I am 
happy to go back and check and get the particulars on that. I 
don't know specifically every initiative that is within the 
White House.
    Ms. Lee. I would like to, within the context, so that we 
can look at the budget and see how this function is going to be 
overseen by the White House. I would like to see----
    Ms. Laackman. You are looking towards staffing levels for 
this initiative?
    Ms. Lee. Yes, in the White House. Or if there are no 
staffing levels in your budget, is, say, 50 percent of X staff 
time allotted to overseeing this new financial regulatory 
reform Office of Minority and Women Inclusion? Or is it hands 
off, just leave it to the agencies or how that fits.
    Ms. Laackman. I will find out. Thank you.
    Ms. Lee. Thanks very much. Thank you very much.
    [The information follows:]

    The Dodd-Frank legislation mandated the establishment of an Office 
of Minority and Women Inclusion (OMWI) within the Treasury Department 
and independent financial regulators including the Federal Reserve, 
FDIC, and the SEC. Pursuant to the statute, the director of the office 
must be a career SES individual. Otherwise, each applicable agency is 
responsible for determining how the office will be staffed; what the 
office's budget will be; and how the office will be run.
    Because the agencies, rather than the White House, are responsible 
for the standup of these offices and related agency policy directives, 
no separate budget has been identified within the White House for the 
OMWI initiative. However, staff from the White House Office of Public 
Engagement, the White House Office of Intergovernmental Affairs, and 
the National Economic Council have communicated with agencies to learn 
the status of agency OMWI efforts. In addition, OMB staff review the 
progress on establishing and implementing these offices as part of 
their regular oversight.

    Mrs. Emerson. Thank you so much. I am glad we could work it 
out. Mr. Serrano.
    Mr. Serrano. Well, I had a statement.
    Mrs. Emerson. Feel free to go ahead and make it.
    Mr. Serrano. Well, we are doing things strangely different, 
so I just won't read the statement.
    Mrs. Emerson. You will submit it for the record?
    Mr. Serrano. Yes, I guess.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Mrs. Emerson. Would you like to go ahead and ask your 
questions?
    Mr. Serrano. No. That is fine with me. You can start it.

                            STAFFING LEVELS

    Mrs. Emerson. Well, playing a little bit off of Ms. Lee, I 
am not going to go into any policy issues, but I am curious, 
because the fiscal year 2012 budget request does not propose 
any staffing reductions. In other words, even if you have a 
position that has suddenly been vacated, is it something that 
you intend to fill? And I realize that working at the White 
House is tougher on your personal life, on your family time, 
much more so than even the demands that our congressional 
constituents put on us. But I am just curious that you haven't 
proposed any staff reductions. And while you said that going 
back to 2008 levels would be very difficult, would it not be 
possible to absorb some staff reductions in your accounts?
    Ms. Laackman. So because we are so heavily focused on 
personnel, we focused on the overall requirements of each of 
the offices.
    I think our staffing levels, which you see in our 
submission, are basically our FTE estimates, not necessarily 
where we will be at in actuality for the year. It is our best 
estimate based on the full budget that we are requesting, and 
it is actually a little bit lower. But I also don't want to 
mislead you. It is about 43 people lower than our 2010 
estimate. But that is really more of a reflection of not using 
the ceiling concept as much as it is an estimate of where we 
think we are really going to be.
    Our budget approach was actually a rigorous zero-based 
budget approach. So we asked each of our components to go back 
and look at exactly what their mission was and then start from 
ground zero and build up to what they needed to fulfill their 
mission.
    We then took a look at all of their individual priorities, 
as well as the priorities EOP-wide, to make sure that the 
resulting cost savings and efficiencies that we identified 
still allowed us to support the President. So it wasn't done 
specifically to say we can eliminate X person. We actually 
built it from ground zero up to say here is what we need to do 
to fully achieve our responsibilities in supporting the 
President.
    Mrs. Emerson. Okay. It will be interesting to hear if you 
think that the way that you all have realigned things will be 
more efficient. Perhaps we will know that in the 2013 budget. 
But I appreciate it.

                                 TRAVEL

    Last year, there were several allegations--and I want to 
get this on the table and try to get this cleared up once and 
for all. There were many allegations that the President's trip 
to India cost $200 million per day and involved over 2,000 
staff. Now I will admit personally that that sounded ridiculous 
to me. But it was out there, and obviously we heard a lot about 
it. And I believe that those estimates are probably 
exaggerated.
    But we haven't ever been provided with information on the 
actual cost of the President's trip to India or any President's 
overseas travel. I am not just specifically talking about 
President Obama.
    And I also understand that there are a lot of agencies 
involved, whether it is the State Department, Defense 
Department, Secret Service, and they also incur expenses; and I 
assume that those are classified for national security reasons. 
So let me just say that.
    But will you explain to us just how is the President's 
international travel funded, number one? Who decides which 
staff accompany the President? And can you just tell us those 
first?
    Ms. Laackman. Specifically as it relates to international?
    Mrs. Emerson. Yes.
    Ms. Laackman. Actually, international is not within our 
budget. So our total White House budget for traveling in 
support of the President is projected at about $2.2 million.
    Mrs. Emerson. Okay.
    Ms. Laackman. Official international trips, are really 
outside of our budget completely. And much of the planning--
actually, I believe all of the planning is done specifically 
outside of our travel office. I don't know who in the 
administration works with State and whoever else decides the 
need for a trip. But as far as the funding for it, it is 
completely outside of our $2.2 million budget.
    Mrs. Emerson. Okay. I wonder if it would be possible--and 
then I want to ask you a little bit about the domestic travel. 
Would it be possible for you to make a request on behalf of the 
committee, and understanding that we would have to have a 
classified discussion about this, about the cost of the 
President's trip to India?
    Ms. Laackman. I can certainly take that request back.
    Mrs. Emerson. Yes, take that request back.
    Ms. Laackman. I don't know anything more than that. Of 
course, I can bring that request back. Absolutely.
    Mrs. Emerson. So the $2.2 million that you have requested 
for domestic travel, tell us how those funds will be spent? 
Does that fund the President's travel? Or is that the staff's 
travel? And how that exactly works.
    Ms. Laackman. I am happy, if you want something written up 
for the record, to do that as well.
    But I can tell you, basically, that covers our domestic 
official travel. And what we pay for in that are the staff who 
travel with the President. So, obviously, military is not part 
of our budget, but we have got advance teams and other official 
travelers that travel to support a trip.
    It also includes a limited number of those official 
travelers for personal trips as well. It doesn't include 
overnight accommodations on a personal trip. The President 
would reimburse us for that. And then, it does not include the 
out-of-pocket costs for political or personal costs.
    [The information follows:]
                          travel budget detail
    The White House Travel Budget, estimated at approximately $2.2 
million for fiscal Year 2012, includes the following types of expenses:
    <bullet> International Official Trips (President or First Lady in 
Attendance)--None.
    <bullet> Domestic Official Trips (President or First Lady in 
Attendance)--Overnight accommodations and meals and incidental expenses 
for the President and/or First Lady. Commercial common carrier 
transportation costs, overnight accommodations, meals and incidental 
expenses, and local transportation costs for staff traveling in an 
official capacity (including advance staff, advisors and others 
supporting the President and/or First Lady) and for official guests.
    <bullet> Official Expenses Related to Non-Offical Trips (President 
or First Lady in Attendance)--Commercial common carrier transportation 
costs, overnight accommodations, meals and incidental expenses, and 
local transportation costs for staff traveling in an official capacity 
to support the official functions of the principal when the principal 
is otherwise on non-official travel. (Note: If trip is mixed Political/
Official, cost allocations are determined pursuant to hard time 
allocation formula and all non-official costs are reimbursed. If trip 
is mixed Personal/Official, all personal costs are reimbursed 
personally.)
    <bullet> Domestic and International Official Staff Trips (President 
and First Lady not in attendance)--Commercial common carrier 
transportation costs, overnight accommodations, meals and incidental 
expenses, and local transportation costs. (Note: If trip is mixed 
Political/Official, cost allocations are determined pursuant to hard 
time allocation formula and all non-official costs are reimbursed.
    <bullet> Motor Pool Vehicles

                          EVENT REIMBURSEMENT

    Mrs. Emerson. Okay. But any kind of political event that is 
actually held in the White House, there is a formula, if you 
will. So with either party in the White House, the party 
committee puts a deposit down and then the President, whomever 
he--since we have only had he so far--the President then 
reimburses afterwards for the cost? Or is it all done in 
advance?
    Ms. Laackman. You are talking about events at the White 
House?
    Mrs. Emerson. Yes.
    Ms. Laackman. No, it is actually done in advance. So we 
have a sitting deposit, and I think that has been the same for 
a number of years. And then what we do for a political event at 
the White House is we come up with a cost estimate and have 
them actually fund that in advance, and then we settle up once 
the bills have all come in. There could be small amounts that 
we owe back. Typically, it is that we owe back--it is 
conceivable that there could be a small amount that they owe us 
but typically not, because of the deposit we have on hand.
    Mrs. Emerson. I appreciate that.
    Mr. Serrano.

                         FY 2012 BUDGET REQUEST

    Mr. Serrano. Thank you.
    I appreciate that the President is leading by example on 
fiscal responsibility in cutting the budget of the Executive 
Office of the President by $32.1 million, or 4.2 percent. You 
have outlined in your testimony where these cuts are proposed. 
Would you characterize these cuts as true savings or are we 
just deferring costs and adding to the budgets of future years?
    Ms. Laackman. I will look at my statement, if you don't 
mind.
    What we did was use a combination of ways that we could 
save the money. Part of it is cross-agency collaborations, and 
that is where you are going to see that the Office of National 
Drug Control Policy has some savings, given the fact that they 
have realigned how the Federal drug control program agency 
budgets are being funded and they are reverting more of their 
efforts toward overseeing and managing those programs. We have 
also identified operational savings to the extent possible.
    So all of those are real savings. We are actually putting 
those in place right now. It is important, not knowing how 2011 
is going to end, to look for as many ways as we can to 
economize, trying to reduce travel costs, other than in support 
of the President. We are looking for ways to do 
teleconferencing. Printing is down about 30 percent from our 
2008 level. We are looking for more ways of going electronic, 
and last year we even posted the EOP's budget online. In the 
last 2 years, that has been a change. Those are all real 
savings.
    The only potential part that--I can't say is necessarily a 
true savings--is the IT budget, but we expect that there will 
be.
    All but the most critical IT systems are being deferred for 
this year. We need to make sure that our systems are strong. So 
it doesn't incorporate things that we think will harm us, but 
we will be deferring some of those costs.
    Mr. Serrano. Now when you say ``with other agencies'', you 
are talking about other departments in the White House or----
    Ms. Laackman. No. Federal agencies.
    Mr. Serrano. Federal agencies. And how do you coordinate 
with them?
    Ms. Laackman. Well, we look for things that they are 
already doing to make sure that we are not making redundant 
efforts. We are also leveraging our policy advisors to make 
sure that, if they have a larger-scale operation, that we 
advise if certain things could be done better in those 
agencies.

                         REPAIR AND RESTORATION

    Mr. Serrano. Now on the floor we discussed during the 
debate on the CR that there are old systems at the White House 
that need to be upgraded. In fact, the plumbing system 
apparently has not been updated since the Eisenhower 
administration. Is the request of $1 million in the repairs and 
restoration accounts sufficient? So the question is, is $1 
million sufficient? You know, that was a big debate on the 
floor. In fact, I was shamelessly quoting that they hadn't seen 
a plumber since the Nixon administration at the White House.
    Mrs. Emerson. That was a good line, too.
    Mr. Serrano. Yeah, but it got me into a lot of trouble.
    Ms. Laackman. I enjoyed reading your statement.
    We feel it was a reasonable request. We have a lot of 
projects that are still under way. And, given the importance of 
being fiscally responsible in this day and age, we shifted the 
approach for funding it to $1 million for whatever emerging or 
required needs appear that are still in line with the 
legislation which is to protect the safety of the occupants, 
which is not just the First Family but everyone visiting as an 
official visitor or a tour guest.
    You specifically are referring to the plumbing, and that 
was part of our 2011 request, which was larger. We think we 
have got enough projects under way that, rather than taking on 
a new one now, we just wanted to make sure we could address the 
critical needs, as any good homeowner would do.
    Mr. Serrano. You know, the part that just comes to mind now 
is the White House a national monument?
    Ms. Laackman. Yes, it is.
    Mr. Serrano. Not only in our belief, but it is, right? It 
falls under which agency?
    Ms. Laackman. It falls under a lot of agencies. The 
National Park Service takes cares of the grounds, GSA takes 
care of the outside of the building, and we take care of the 
inside.
    Mr. Serrano. Oh, you take care of the inside? So there is 
no agency that could be taking care of that out of their 
budget?
    Ms. Laackman. The East and the West Wing are separate. So 
there are a lot of different players in our complex.

                          UNANTICIPATED NEEDS

    Mr. Serrano. Now the budget also requests $1 million in an 
account called Unanticipated Needs. We know that is not a trip 
to India, obviously. So can you give us some examples of how 
this account has been used in the past?
    Ms. Laackman. Sure. We actually file with Congress every 
year. So there is good public information about how that has 
been used.
    Last year, we used money for the Fiscal Commission. You 
will see a little bit. So part of that was last year's budget. 
Part of it will be this year's budget. Beyond that, I know it 
is for things like the funeral of President Reagan. You know, 
it really just gives the President a reasonable amount of 
flexibility to address something that is not otherwise 
appropriated for.

           PARTNERSHIP FUND FOR PROGRAM INTEGRITY INNOVATION

    Mr. Serrano. Another issue is the President's budget 
requests $20 million for the Partnership Fund for Program 
Integrity Innovation. Now this program began in fiscal year 
2010 with $37.5 million. What has the program accomplished so 
far, in your opinion?
    Ms. Laackman. This is actually an OMB-managed program, so I 
don't have a lot of details specifically on what they have been 
able to achieve. I understand, though, that they will have 
obligated that full amount by the end of fiscal year 2011.
    Mr. Serrano. So it is an OMB program?
    Ms. Laackman. It is an OMB-managed program. It is 
government-wide but managed through OMB.
    Mr. Serrano. My next question was going to be, what are the 
plans for the coming year?
    Ms. Laackman. As I understand it--I am certainly not an 
expert on that one, so I would be happy to give you more 
information. That is the best answer. I could give you more 
detail about what they do.
    But, for example, one of their projects was to help the IRS 
reduce errors in the earned income credit. So they are looking 
for ways to help shore up the different methods of both 
benefits that are given out in the Federal Government and other 
cost savings in the agencies. But I am happy to provide more 
specific information about how that program works.
    [The information follows:]

    The Partnership Fund for Program Integrity Innovation (Partnership 
Fund) was established by the Consolidated Appropriations Act of 2010 
(P.L. 111-117) to fund pilot projects to streamline administration and 
strengthen program integrity in Federal assistance programs 
administered through state and local governments or where Federal-state 
cooperation could be beneficial. The Partnership Fund will award most 
of its intial $37.5 million appropriation to Federal agencies by the 
end of FY 2011. In the aggregate, pilots must save at least as much as 
they cost. However, OMB targets high return on investment pilots likely 
to demonstrate significant savings. For example, the Partnership Fund 
awarded its first pilot to the Department of the Treasury to test a new 
way to reduce the annual $12 billion of improper payments associated 
with the Earned Income Tax Credit program (EITC). Treasury believes 
that there is an opportunity to avoid as much as $100 million or more 
in improper payments by cooperating with states to access data such as 
income and child dependency from state-administered benefit programs. 
Thus, this $2 million investment from the Partnership Fund could 
ultimately yield a 50 times annual return if the pilot is enacted at 
scale. The Partnership Fund's small investments will yield savings far 
beyond their costs.
    OMB consults with an interagency council of Federal, state and 
other stakeholders to develop innovative pilot proposals that refelct 
stakeholder needs and concerns. This council, the ``Collaborative 
Forum,'' is a self-directed stakeholder group led by state and local 
governments. All ideas that OMB consider for funding are either 
generated by Forum work groups or submitted to the Forum for open 
consultation by all participating members. The Forum's web site is 
found at www.collaborativeforumonline.com. In addition, OMB consults 
with a Federal steering committee, which consists of senior policy 
officials from the Federal agencies that administer benefits programs. 
The steering committee meets to review pilot proposals generated either 
by the Forum or by a participating agency before the Forum consults on 
the proposal. Finally, the public is invited to submit ideas direct to 
OMB through www.partner4solutions.gov.
    In February, OMB received six pilot proposals from the 
Collaborative Forum as well as a proposal from the Centers for Medicare 
and Medicaid Services (CMS). These proposals can be found at http://
collaborativeforumonline.com/concept-papers. OMB expects to make 
funding decisions on the submitted pilot proposals in late March or 
early April.
    OMB will continue to conduct periodic rounds of funding decisions. 
The next round of pilot submissions is expected to be submitted to OMB 
by the Collaborative Forum in April.

    Mr. Serrano. Please. Because I would be interested in 
finding out why you are assisting the IRS.
    Ms. Laackman. It is not us. It is an OMB-managed program. 
It is government-wide. So we are looking for efficiencies and 
improvements government-wide. These projects should be at least 
self-supporting. You know, the one project that was mentioned 
is anticipated to have a 50 times cost payback.

                              TOUR NUMBERS

    Mr. Serrano. Do we know how many people come as tourists to 
the White House every year?
    Ms. Laackman. I can tell you in fiscal year 2010 it was 
over 900,000. That is a significant increase from the past. 
They have put in a lot of improvements in their systems to make 
sure that the tours times are more accommodating. They even 
have a Members program now for Congress. We have got a great 
focus on customer service. So our tour percentage has gone up 
significantly. We are excited about opening the House up more.
    Mrs. Emerson. I have got so many constituents who want to 
come on White House tours. And you know, of course, then they 
get mad when they call you the day before, hey, I am going to 
be in Washington, and I want to go to the White House. Can you 
get me a tour?
    Ms. Laackman. I face that, too. I always tell my friends, 4 
weeks notice. Otherwise, don't call.

                         REPAIR AND RESTORATION

    Mrs. Emerson. I know it is very, very frustrating.
    So how does it work? Just following up on Mr. Serrano's 
question about, you know, repairs, plumbing, that sort of 
thing. Do people within the White House who have certain 
responsibilities, whether it is plumbing or wiring, do they 
have to come to you and say, this is what I want to do? How 
does that even work? I am just curious, more than anything.
    Ms. Laackman. I am centralized financial management, so I 
actually am the CFO for that account. But they have their own 
fund manager in that account who makes sure that the projects 
fall within the appropriations language. If it is a minor 
repair, we do have a plumber on staff. We are talking about 
major repairs. And, in that case, we have an architect who 
works there, in another role, but he also has the architectural 
experience. So he manages that to make sure there are good 
plans and that it falls within the budget estimate that he had 
for that project. In the past, these were always appropriated 
based on a specific estimate for a project.
    Mrs. Emerson. Okay. That is interesting, how it happens.

                         PRESIDENTIAL ADVISORS

    I have to bring this issue up on behalf of several of our 
colleagues, and it has to do with the special assistants to the 
White House, otherwise known as czars. And this is not 
something that is simply an Obama White House. It was a Bush 
White House. It was a Clinton White House. It was a Bush I 
White House. So those positions exist.
    And, unfortunately, I think it frustrates a lot of 
colleagues, because the folks who hold those positions have a 
lot of responsibility and perhaps really have a little more 
power than some of the department heads but yet they don't have 
to go before the Senate for confirmation. So there is tugging 
and pulling.
    In some cases, you need to have a central person, I 
understand, to do things. But can you comment just generically 
perhaps about the administration's use of these czars to lead 
what executive branch activities? Or is this too much of a 
policy question?
    Ms. Laackman. Well, I can speak to it in general, but I 
won't veer too far into the policy end.
    I would start with saying that we actually disagree with 
the term ``czar'' as it relates to any of our staff. We contend 
that the President hires all advisors that he needs for 
critical subject matter, which is similar to, as you have 
mentioned, previous administrations.
    Our staff doesn't have the powers of a Cabinet head, a 
Cabinet secretary. They really are just the staff that are 
there to help the President coordinate and collaborate in 
enacting his agenda with all of the Cabinet.
    Some of the positions that are called czars are in fact 
things that Congress has put in our office, for example, the 
intellectual property enforcement coordinator and the leader of 
ONAP. So we understand that that term is out there, but it is 
not one that we would refer to or even could identify as being 
any position that we have on board at this time.
    Mrs. Emerson. Right. And I think it all kind of began with 
the Office of National Drug Control Policy, and perhaps the 
first director of that office referred to himself as a czar or 
something.
    Ms. Laackman. I understand it was someone the first 
President Bush appointed.
    Mrs. Emerson. Yes. And that is kind of where it all began.
    And I think, too, just to make a general comment on it, as 
the frustration level of colleagues is, you know, the person 
that you see hoping to drive policy decisions among our 
caucuses up on the Hill often are those staff people, or czars, 
as opposed to, for example, Secretary Sebelius with HHS or 
someone like that. Now she may come in later. So there is just 
that general perception.
    And I will make another comment. Obviously, when there is a 
head of the Environmental Protection Agency who, regardless of 
whether I agree with her, is doing a fine job of running that 
place, you know, to have that person directing, if you will, or 
perhaps acting almost as a director of an interagency task 
force, it makes people very uncomfortable. So I appreciate the 
fact that you all are actually moving at least the climate 
change person and the health care person, neither of whom will 
remain in those jobs, into the Domestic Policy Council which is 
where I think that all of those positions perhaps more 
adequately belong and then we can get rid of the czar title 
forever.

                           ECONOMIC ADVISORS

    Let me ask you specifically about the Council of Economic 
Advisors, where you are actually requesting the addition of 
several economists. I guess there is no way to know exactly how 
many you needed. But the Dodd-Frank Wall Street reform bill 
created the Financial Stability Oversight Board, which includes 
the Treasury Secretary, the Federal Reserve, FDIC, SEC, FTC, 
and several other agencies. And then there is another new 
Office of Financial Research to support that Board and then 
other new offices in Treasury, the SEC, and a new Consumer 
Financial Protection Bureau.
    So, given all of these new entities, I guess I am a little 
confused or concerned about the need to add even more economic 
advisors to that office in the White House, as opposed to 
utilizing those who already exist throughout all of these other 
financial-related institutions.
    Ms. Laackman. I would mention that their requested increase 
is for about $200,000. So it is not a large number of people, 
and it actually is--we get a lot of advisors from different 
universities on a limited-term basis and at a reasonable cost. 
The CEA has a responsibility for helping monitor what is going 
on as an advisor to the President. So we are monitoring the 
economic environment and providing certain reports that he gets 
as part of his briefing. That is really their function.
    So I do appreciate what you are saying about other areas, 
but their focus very much is in the advisory role for the 
President, the direct advisory support.
    Mrs. Emerson. No, I understand. But wouldn't they rely on 
other people within the Federal Government for some of that 
information? Or you are not in the position----
    Ms. Laackman. I don't know that one. That would be outside 
of my area of knowledge. I apologize.
    Mrs. Emerson. No, no, no. That is all right. And I assume 
that $200,000 isn't going to buy you much more than a senior 
person and perhaps a----
    Ms. Laackman. I think they are looking for a couple of 
people because of the way they are able to have short-term 
employees come from universities to help.
    Mrs. Emerson. Yes. And, quite frankly, they should be 
excited to come and offer to do it for nothing in a fellowship 
capacity, because I know you all have a fellowship program as 
well.
    Ms. Laackman. Yes.
    Mrs. Emerson. All right. Let me turn it over to Mr. 
Serrano.

                         FY 2012 BUDGET REQUEST

    Mr. Serrano. Yes. I want to, first of all thank you, Mrs. 
Emerson, for the way in which you handled this questioning. I 
don't know if I hurt you or help you by saying in public that 
you don't behave like some other folks when it comes to our 
President.
    And we have to understand that this bill may not be the 
biggest bill of 2012. But I assure you, if this bill hits the 
floor in the way bills should hit the floor and in the way they 
used to in the past, you are going to see a lot of debate, one 
on Washington, D.C., and social riders, everything from 
abortion to gay marriage to things that men and women can't do 
back home so they do in D.C. to prove that they are very good 
on those issues.
    And then the second one will be the White House expenses, 
and it has nothing to do with White House expenses. Just for 
the record, we have to remind ourselves that it has to do with 
the fact that there is an unfortunate small group but very 
vocal in this country who just can't accept that this President 
is legitimate, that he was born where he told us he was born, 
that he is of the faith he tells us he is, and that he is a 
good American.
    I mean, someone even suggested recently that he is not like 
us because he never played baseball. Well, I happen to adore 
baseball, but I know that basketball is right there with 
American sports. And so what do we need him to do, wear a 
Yankee uniform or Chicago uniform and play nine innings?
    Mrs. Emerson. Or a Cardinals uniform.
    Ms. Laackman. I think he meant White Sox.
    Mr. Serrano. He is an intelligent President. He will never 
wear a Cardinals uniform.
    And you are going to see pettiness which has nothing to do 
with the budget. I mean, the plumbing stuff on the House floor, 
and that was only the prelude. The teleprompter. So what? You 
take away the teleprompter, he is still a better speaker than 
anybody that is coming up in 2012, I assure you of that, with 
or without the teleprompter. But it gets petty, and it gets 
silly. And Jo Ann Emerson is not that way. But there are some, 
and they are going to make it that way, so you have to be ready 
for it. Or just let it be. It will happen, and what will happen 
will happen.
    So I think it is important for the White House always to 
have its facts and figures together but not to lose too much 
sleep over the fact that there are some people in this country 
who just cannot accept that Barack Obama is the President. And 
it is going to be a nasty debate when it comes to the White 
House expenditures. It will get pretty bad. And you have to be 
ready for it, to be able to defend that which you know is 
correct. Some of us will be on the floor basically saying that, 
you know, we have never done this in the past.
    We have always had problems with the President. You know, I 
remember once there was a picture of me shaking hands with 
George Bush. And somebody in my district said, but you don't 
agree with him. I said, so what? He is the President. I have to 
show him that respect and admiration because he is the 
President.
    It doesn't hold any longer with a lot of folks, and so you 
have to be ready for that.
    But, in the meantime--I have no further questions. I just 
want to tell you not to be shy about putting forth that which 
you need at the White House, not to be shy about saying that 
you have to do a certain job in support of the President of the 
United States, and you need these dollars to do them. You know, 
don't overspend. But don't be shy about saying we have to do 
this. Because this is not, you know, a city council in some 
small community. This is the Presidency, and it has to be 
respected. It has to be supported.
    And that building, which will be occupied by someone else 
in 2016, belongs to all of us, and it has to be taken care of. 
It has to be preserved, and it has to be respected, and it has 
to be kept in good shape.
    So I applaud the efforts you are making. And don't lose 
hope. The attacks will be tough, but you have some friends and 
some folks who won't attack in a nasty way. And I thank you for 
your service.
    Mrs. Emerson. Thank you, Mr. Serrano. I just have a couple 
more quick questions to ask. And I appreciate your comments, 
Joe. Thank you very much.

                          EXECUTIVE RESIDENCE

    Let me ask you about the executive residence. The budget 
request for it is $13.7 million, which is about 1.3 percent 
below fiscal year 2010, and that does fund repairs and the 
utilities--or the minor repairs. And just following up with 
what Joe said, $13.7 million isn't an insignificant amount when 
you add it all up together, especially given the fact that you 
have got the Park Service maintaining the grounds and others 
doing other things. How much of the funds requested for the 
executive residence is mandatory money, like utilities--I mean, 
there is no way you can't pay utilities--and also for day-to-
day operations versus how much is really for discretionary 
types of things?
    Ms. Laackman. I don't have that detail at my fingertips. I 
am happy to give you something more official for that.
    Mrs. Emerson. Okay.
    Ms. Laackman. We have actually managed that as an overall 
budget to make sure that all of the needs are met, but I can 
certainly give you some of the details on some of the 
components.
    Mrs. Emerson. Yes, I would appreciate that. Thank you very 
much.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
                                  RENT

    Mrs. Emerson. And my last question has to do with the GSA 
rental payments. In addition to the Old and New Executive 
Office Buildings, how many locations does the Executive Office 
of the President occupy?
    Ms. Laackman. Currently--East Wing, West Wing, the 
Eisenhower Executive Office Building, the New Executive Office 
Building, as you mentioned. We have space at the Winder 
Building. We have space at 1800 G. There is office space for 
ONDCP that is in a different location. We have some town homes 
in Jackson Place. So we are in a variety of locations. It has 
been more spread out since 2001.
    Mrs. Emerson. Have you looked to--just in order to save 
money on rent and because I am not quite sure of the formula by 
which the GSA determines what rent is going to be--but that is 
another discussion and, fortunately, it doesn't have to do with 
you. Is there any way to consolidate--with the exception, I 
would say, of Jackson Place and, obviously, the two Executive 
Office Buildings? Is there any way to consolidate that so that 
you get more bang for the buck in budgets having everybody in 
one space?
    Ms. Laackman. That probably is more in the GSA area. I do 
know that when we finish the third phase in the renovation of 
the EEOB, there will be the ability to consolidate and move out 
of some of the space that is out there. The goal is to have us 
as close as we can be together, but there were obviously some 
more urgent space needs that happened in the previous 
administration and we had to do some shoring up. So until some 
of that is resolved, they put us where they needed to put us.
    Mrs. Emerson. When is that renovation going to be finished?
    Ms. Laackman. I don't know specifically the latest. We have 
it in our 2012 request. So at some point in fiscal year 2012. 
There are other projects that may affect the exact timeline.

                                TELEWORK

    Mrs. Emerson. And, finally, does the use of mobile 
technologies increase the use of telework and reduce space 
needs at all? I mean, it may not in--just because of the 
singular interests of the Executive Office of the President, as 
opposed if you work for the IRS or another agency.
    Ms. Laackman. As it relates to what I have seen in our 
budget, it doesn't generate savings, because it is not meant to 
be done on a full-time basis. But it has helped us with our 
work-life balance and has certainly helped us during 
snowstorms. So it has helped to keep productivity going. To the 
extent that there is not lost productivity, it is not 
necessarily a savings, but it is a good use of our dollars.
    Mrs. Emerson. Well, thank you. And that is understandable. 
I appreciate so much you being here.
    I want to have your formal testimony submitted for the 
record.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Mrs. Emerson. I am sorry that I cut off everything. But, 
fortunately, Barbara got to get her questions in, too. And so 
we will submit all of our testimonies for the record.
    And, really, thanks very much for what you do. I know that 
it is a tough job. And I always said that if you were a CPA--it 
was to young people specifically--it is a great opportunity. 
You never know where you may find yourself.
    Ms. Laackman. I appreciate that. It is a wonderful job, and 
it is a great opportunity, and it is a pleasure to be here 
today. Thank you.
    Mrs. Emerson. Thank you very much.
    Mr. Serrano. Thank you.
    Mrs. Emerson. We are done.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 


</pre></body></html>
